<html>
<title> - NOMINATION OF COLIN L. POWELL TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 107-14]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-14

         NOMINATION OF COLIN L. POWELL TO BE SECRETARY OF STATE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 17, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
71-536                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         CRAIG THOMAS, Wyoming
BARBARA BOXER, California            BILL FRIST, Tennessee
ROBERT G. TORRICELLI, New Jersey     LINCOLN D. CHAFEE, Rhode Island
BILL NELSON, Florida                 GEORGE ALLEN, Virginia
                                     SAM BROWNBACK, Kansas
                     Edwin K. Hall, Staff Director
              Stephen E. Biegun, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia...................     4
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    10
Feingold, Hon. Russell D., prepared statement....................    73
Hagel, Hon. Chuck, U.S. Senator from Nebraska, news release......    96
Helms, Hon. Jesse, U.S. Senator from North Carolina, opening 
  statement......................................................    13
Powell, Colin L., Secretary of State-Designate...................    14
    Prepared statement...........................................    27
Warner, Hon. John W., U.S. Senator from Virginia.................     2

Responses of Colin L. Powell to additional questions for the 
  record submitted by:

    Senator Jesse Helms..........................................   102
    Senator Joseph R. Biden, Jr..................................   113
    Senator Richard Lugar........................................   114
    Senator Chuck Hagel..........................................   120
    Senator Gordon Smith.........................................   120
    Senator Paul Wellstone.......................................   125
    Senator Russell Feingold.....................................   128
    Senator Barbara Boxer........................................   131
    Senator Robert Torricelli....................................   132
    Senator Olympia Snowe........................................   132

                                 (iii)

  

 
         NOMINATION OF COLIN L. POWELL TO BE SECRETARY OF STATE

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:34 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Joseph R. Biden, Jr. (chairman of 
the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, 
Torricelli, Bill Nelson, Helms, Hagel, Smith, Thomas, Frist, 
Chafee, Allen, and Brownback.
    Senator Biden. The committee will come to order.
    General, you are going to witness a little bit of a charade 
here today. I am technically the chairman of this committee for 
another 2 days or whatever, but I have no illusions who the 
real chairman is.
    Both our colleagues from the State of Virginia, 
particularly Senator Warner, has, as we all do many times, to 
be at another committee but wanted the privilege of introducing 
you. So, with the permission of the real chairman, Senator 
Helms, who I will turn the gavel over to after the opening 
statements, I am going to suggest we proceed as follows. 
Senator Warner will introduce you and then Senator Allen will 
do the same. Senator Warner will have to leave. Senator Warner 
is welcome to stay. Then Senator Helms and I will make our 
opening statements and then we will turn to you, General, for 
your opening statement and then we will get to questioning. At 
that time, each of us will have an opportunity to ask questions 
in 10-minute rounds until everyone gets a chance to have one 
round of questioning. The real chairman will, when he finishes 
his opening statement, lay out how we plan to proceed in terms 
of the timing today so everyone has an idea of how they can 
plan their day.
    So, Senator Helms, with your permission, I think we should 
let Senator Warner make an opening statement.
    Senator Boxer. Mr. Chairman, may I ask a question about 
procedure today to both my chairs?
    Senator Biden. Yes.
    Senator Boxer. Are you going to go with the seniority rule 
when you call on members or the early bird rule? Again, I know 
Senator Chafee and I have to run back to question Christine 
Todd Whitman. So, if you could just give us a sense of it, then 
we will be able to go back and forth between the two.
    Senator Helms. We will be accommodating to you on this, 
somehow.
    Senator Boxer. Thank you very much.
    Senator Helms. Senator Warner.

   STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM VIRGINIA

    Senator Warner. Chairman Biden and Senator Helms and my 
friend for half my life over here on my right. I first knew him 
when I was Secretary of the Navy and he was a young major in 
Vietnam during those critical years of the late 1960's and 
early 1970's.
    Also, what a privilege it is for me and my distinguished 
colleague, Senator Allen. We make our first appearance as the 
two Senators from Virginia this morning. So, we thank you.
    Before starting on this, I say to both chairmen I want to 
congratulate you on the work that you spearheaded to bring into 
proper alignment America's commitments, financial and 
otherwise, to that important organization, the United Nations. 
Both of you worked tirelessly, and in the closing days of the 
last Congress, together with our then-Ambassador, Ambassador 
Holbrooke, you brought to a conclusion a very difficult 
problem, one which this distinguished nominee of President-
elect Bush did not need. We want to commend you for that, both 
of you, and the members of the committee.
    Senator Biden. Thank you.
    Senator Warner. Governor Allen, now Senator Allen, will 
deal with the pride in our Commonwealth of this distinguished 
citizen and the history of our Commonwealth with respect to the 
office of Secretary of State, from Jefferson to George Marshall 
to General Colin Powell. I will deal with the military aspects 
and the security aspects and start with 35 years, from second 
lieutenant to Chairman of the Joint Chiefs of Staff. In many 
respects, a role model for generations of Americans to aspire 
to, and hopefully others can follow.
    His detailed biography of service to country, the commands, 
two tours of duty in Vietnam, service abroad in South Korea, 
and service abroad in Europe, particularly Germany with the 
Army. All of that experience is brought to bear in this 
important post to which our distinguished President-elect has 
nominated him.
    But I want to go back to 10 years ago to the war in the 
gulf. Exactly 10 years ago yesterday, the forces were unleashed 
by the force of democracy to turn back the repression of Saddam 
Hussein. But that period was preceded, and there are members on 
this committee who recall a divided Nation, by a divided 
Congress. One of the most extraordinary debates in the Congress 
of the United States, and most particularly in the Senate of 
the United States, on whether or not to utilize force to 
authorize the President, then George Bush, to use force, was 
deliberated for 3 days and 3 nights in the U.S. Senate. When 
the vote was called by a mere 5 votes--that's all--the Senate 
went on record as authorizing President Bush, in a coalition of 
dozens of nations, to use force to repel that attack by Saddam 
Hussein.
    I mention that because the nominee was beside our President 
throughout, giving him balanced and sound advice. In his heart, 
having experienced combat himself, having been wounded, having 
been decorated as a soldier, Colin Powell carried the burden of 
advising the President on the risk of casualties. I remember at 
that time, General, the estimates went anywhere from 4,000 to 
5,000 to 20,000. We simply did not know.
    Imagine the pressure on this outstanding American, which he 
carried through and gave that sound, balanced advice, advice 
that he will be called upon, in all probability, in his term of 
office with this President. When and when not to use force, 
when and when not to put at risk America's most valued asset, 
the men and women of the Armed Forces--indeed, together with 
their families. It is that experience I think above all that 
enables this extraordinary American to take up the 
responsibilities which he is so ably experienced to do.
    He faces a very troubled world, unlike when he was a 
commander in Germany in the cold war. We understood the threat 
situation. We understood the composition of the forces that 
faced NATO and other forces. But today, with weapons of mass 
destruction, the proliferation of weapons throughout the world, 
a far more complex threat situation faces this Nation.
    The subject of homeland defense is now very much a part of 
the responsibilities of the extraordinary team of national 
security that President-elect Bush has put together. Just 
think. Not since the days of World War II, when America 
experienced blackouts and when there was uncertainty of the 
enemy submarines off our shores, did we recognize that once 
again America is imperiled by the weapons of mass destruction, 
be it missile defense or chemical or biological. So, again, 
when and when not to use force.
    As I say, Iraq--at that time we had a coalition of dozens 
of nations that fought that war and brought it to a successful 
conclusion. Today, America, together with Great Britain, stands 
alone in that theater containing Saddam Hussein. Several allies 
in the gulf operations assist using naval vessels, but 
basically we are alone. On the front burner of his desk and 
that of the President and the Defense team, he is trying to 
rebuild a coalition, together with the United Nations and the 
Security Council, to address that ever-serious problem of Iraq.
    Bosnia. Our troops are still there. We will address the 
balanced role of peacekeeping and our responsibility, but that 
policy that we adopt in Bosnia and Kosovo could well affect the 
NATO of the future. The European security forces that are being 
contemplated by the other nations of NATO in Europe are 
separate and apart in some respects from NATO.
    The enlargement of NATO. Should we consider that once 
again? These are very difficult issues.
    North and South Korea. Fifty years, a half a century, 
America has had its troops stationed there.
    I go back, in concluding my remarks, to the speech given by 
President-elect Bush at the Citadel. He said the first 
obligation of all of us--and I quote--is ``to use our military 
power wisely, remembering the costs of war.''
    Can we think of any American better qualified, more 
experienced than this distinguished former General to take on 
that responsibility to advise our President, to work in 
concert, but sometimes at odds, with a strong Secretary of 
Defense, Don Rumsfeld? Historically those two posts have 
differed in their policy advice to the President. But we have, 
I think, two equally strong individuals and a President very 
able to sit down and accept that advice.
    So, I conclude. In the history of our country, I cannot 
think of a time when there was a greater need for a man to take 
up the responsibilities of Secretary of State, such that he can 
draw on that experience of when and when not to use force. The 
time is now, and I say to this committee, you have throughout 
the history of the Senate, 200-plus years, made tough 
decisions. This one I think is a clear decision, but 
nevertheless, I commend the committee on its work, the 
thoroughness of this hearing, and the eventual confirmation of 
this distinguished American as Secretary of State.
    I thank the chairman. I thank the members.
    Chairman Biden. Thank you very much, Senator.
    I should welcome Senator George Allen, who is a new member 
of this committee, as well as an introducer. While I am doing 
that, I would like to also introduce Senator Bill Nelson of 
Florida who is a new member of the committee. We welcome you 
both and look forward to working with you both.
    Senator Allen.

   STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM VIRGINIA

    Senator Allen. Mr. Chairman, Senator Helms, members of the 
Foreign Relations Committee, I thank you for the opportunity to 
join with the senior Senator from Virginia, John Warner, in 
introducing General Powell to this committee.
    When he was announced for this post, General Powell 
remarked that he was pleased not to be at the Bush ranch, for 
he believed the cattle there looked frightening.
    I told him, however, that the cattle are gentle compared to 
what he could face in this room here today, even if those 
cattle may have been longhorns.
    Nevertheless, as Senator Warner went through all the 
various issues and challenges he will face, I am sure those 
will be part of the questions.
    I want to focus on the wise choice that President-elect 
Bush in nominating an exceptional role model to this important 
position of Secretary of State. It is appropriate that another 
distinguished resident of the Commonwealth of Virginia serve 
his country as Secretary of State, as he will be a successor to 
George Marshall and Thomas Jefferson, who was the first 
Secretary of State for our Nation.
    Most importantly, though, Colin Powell is a present-day 
example of the American dream and he is an example for 
Americans. And indeed, he is an example for the rest of the 
world. He is a gentleman who has seen both the world of 
national defense and the world of foreign relations. In my 
opinion, General Powell is absolutely the best choice to 
incorporate the totality of our foreign policy in pursuit of 
our country's interests and security, individual freedom, and 
free trade.
    As referenced eloquently by Senator Warner, we are all well 
aware of his strong, steady leadership as Chairman of the Joint 
Chiefs of Staff and his work with our Arab, Israeli, and NATO 
allies throughout Operations Desert Shield and Desert Storm.
    And since he left active duty 7 years ago, we all know how 
General Powell has continued to play an active role in his 
service to our country in the private sector, as well as 
through his outstanding charitable work. He was a member of the 
board of directors of America Online, and through the General's 
leadership of America's Promise for our young people, he has 
put forth a cogent, powerful philosophy of personal development 
and personal responsibility embodied in the five promises.
    When I was chairman of the Southern Governors Association, 
I asked General Powell to come and address our 1997 meeting. He 
motivated Governors to advance the opportunities for all 
citizens. Now, ladies and gentlemen of the committee, General 
Powell will be a uniquely credible and respected Secretary of 
State because he is so respected and admired here in our 
country, not only for his outstanding military record, but also 
for his magnificent, uplifting civilian leadership.
    And he is respected abroad. In addition to his 
distinguished United States military awards and decorations, 
the governments of about 20 countries have decorated him 
including, among others, Argentina, Brazil, Chile, Canada, 
France, Germany, Greece, Japan, Korea, Nigeria, Tunisia, and 
the United Kingdom. General Powell is truly an ideal person to 
lead our relations with the world.
    His nomination is a sign of President-elect George W. 
Bush's sound judgment and outstanding recruitment of top 
quality team mates. He has devoted his adult life to service of 
others. General Powell, thank you for coming back into 
government service now on the world stage.
    Mr. Powell. Thank you.
    Senator Allen. Mr. Chairman, members of the committee, it 
is my pleasure to present to you a gentleman of extraordinary 
substance, integrity, and character, a true American hero, 
General Colin Powell.
    Senator Biden. Senator, thank you very much.
    General, I wonder if you would do us the honor of 
introducing Mrs. Powell to us before we make our opening 
statements.
    Mr. Powell. Well, thank you very much, Senator. It would be 
my great pleasure to introduce my partner in life and the lady 
who joined this team when I was a young first lieutenant, my 
wife of 38 years, Alma Johnson Powell.
    Senator Biden. Mrs. Powell, thank you for your commitment 
and your willingness to lend us back your husband for at least 
another 4 years.
    General, I want to explain the absence of many of our 
colleagues here. In the spirit of trying to help this 
administration get underway, we have all agreed to move, as 
quickly as we can, on the confirmation of nominees for the 
various posts, Treasury, Defense, and others. All of my 
colleagues who are not here and who will be coming and going 
will be attending other hearings which they are either ranking 
members of and/or members of. So, it is not a matter of 
disrespect. I think there are five or six nomination hearings 
going on this very day. So, I want to make clear that that is 
the only reason people will be coming in and going out.
    The way we are going to proceed now is I will make an 
opening statement. Senator Helms will make an opening 
statement. Then, General Powell, we would like you to make an 
opening statement and we will go to questions.
    Today, to state the obvious, the Committee on Foreign 
Relations meets to consider the nomination of General Colin 
Powell to be Secretary of State.
    At the outset, I would like to welcome, as I said, our two 
new members, Senators Allen and Nelson, and tell you that it is 
probably not always going to be this collegial. This is one of 
those easy days when we have a man before us who is so widely 
respected on both sides of the aisle.
    I might note parenthetically, General, I thought your 
statement the day that President-elect Bush nominated you was 
incredibly moving and your awareness of the significance of 
your appointment as Secretary of State to millions of African-
Americans in this country was obvious, but I was really 
delighted to hear you bluntly state it. I thought you did a 
heck of a job.
    General Powell is hardly a stranger to this committee or to 
the United States Senate, as he regularly appeared before us 
both formally in this committee and in informal briefings when 
he was Chairman of the Joint Chiefs of Staff. So, it is a 
pleasure to welcome you back, General.
    President-elect Bush has called from retirement a 
distinguished soldier who gave the Nation, as we have already 
heard, 35 years of honorable service. While serving in the 
United States Army, General Powell had a wide range of 
assignments, both in the field and in Washington, including 
Military Assistant to Defense Secretary Caspar Weinberger, 
Deputy National Security Adviser and then National Security 
Adviser to President Reagan, and then Chairman of the Joint 
Chiefs of Staff under Presidents Bush and Clinton.
    Without question, General Powell's experience at the 
highest levels of government in the conduct of foreign and 
defense policy and his experience in managing large 
organizations makes him well qualified to be Secretary of 
State. I have no doubt, General, that you will be confirmed, 
and I suspect unanimously, by this committee, and I suspect by 
the whole Senate.
    But the question before the committee is not whether you 
are qualified to be Secretary of State, for you surely are.
    The question before us, in my judgment, is what direction 
will American foreign policy take under George W. Bush. I do 
not expect the General to be able to articulate a detailed 
position before President-elect Bush has taken the oath of 
office, but I would like to begin a dialog about the direction 
in which the new President intends to steer the Ship of State.
    At the start of what promises to be a second century of 
American leadership in the world, the United States enjoys an 
unrivaled position as the world's preeminent military, 
economic, and political power. No serious contender has emerged 
on the horizon. Most Americans appear to understand that, in an 
age of globalization, the United States must remain a world 
leader.
    Yet, some of our political leaders seem suspicious of 
active American engagement in the world. The debate is more 
than the age-old struggle between isolationism and 
internationalism. There is a troubling new ``ism'' that has 
emerged, and that is unilateralism, a belief that America can 
better protect its interests by going it alone.
    I do not believe that President-elect Bush or General 
Powell are isolationists. Far from it. But there are prominent 
voices in your party, General, who often suggest that we should 
act unilaterally, such as those who would deploy a national 
missile defense without concern for the legitimate security 
interests of our European and Asian allies, which I would call 
a ``shield of dreams'' approach; in other words, build it and 
they will come along with our ideas.
    It seems to me we have to guard against the unilateralist 
approach to American foreign policy, which threatens to leave 
us as what Harvard Professor of Political Science Samuel 
Huntington calls ``the lonely superpower.'' This is not to say 
that we may not have to act alone. We will. But it seems to me 
when we act in concert, it is better for us.
    But we should recognize that while we must lead the world, 
we do not control it, and we should understand that security 
alliances and international commitments are not entanglements 
to be avoided but important tools which can advance American 
interests.
    In the aftermath of a divisive election campaign, we start 
the new Congress, at least in this committee, with a spirit of 
bipartisan harmony. Time will tell whether that spirit will 
endure. But I commit, and I suspect all my colleagues on the 
Democratic side do as well, to work in good faith with you and 
the President to try to build a foreign policy that enjoys a 
broad consensus. It is naive to think that we will always 
agree. We should welcome debate, which is essential to our 
democracy. But we should try to avoid excessive partisanship in 
our foreign policy debates.
    I look forward to hearing your views on major foreign 
policy challenges facing this country, some of which Senator 
Warner outlined. At the outset, let me briefly discuss just a 
few concerns I have with regard to several very important 
issues, and I have discussed some of these with you in private.
    First, it is no secret to you that I am concerned that we 
not undertake a precipitous rush to deploy a national missile 
defense. President Clinton, in my view, made the right decision 
last fall to defer the deployment decision. Neither the 
technology nor the diplomatic efforts had advanced far enough, 
in my view, to warrant a decision to deploy at the time. I also 
believe that the most recent estimates conducted by the 
intelligence community underscore the risks that a deployment 
decision now could leave us less and not more secure.
    I am concerned that a decision to deploy a national missile 
defense would reverse four decades of agreed-upon strategic 
doctrine and therefore threaten our interests. So, I do not 
think it should be taken in haste, nor do I think you are going 
to tell us it should be either.
    So, it is my hope the administration will engage in a 
comprehensive review of the national missile defense issue: a 
reassessment of the threat, particularly from North Korea, in 
light of recent developments; a reassessment of the 
technological capabilities of systems now in development and 
proposed alternatives; and a reassessment of the international 
reaction to deployment of a national missile defense.
    Ballistic missile defense does not stand in isolation. It 
is closely intertwined with reductions in strategic systems. 
With Russia's approval of START II finally secured, we are in a 
position to move to START III levels outlined in Helsinki 4 
years ago. I am interested in hearing your views on how we can 
achieve still further reductions.
    Second, you know from our discussions in my office last 
week my interests with regard to the key security commitments 
in Europe and Asia. We are, notwithstanding what some people do 
not like to admit, both a European and an Asian power. On both 
continents, we are an essential force for stability.
    I am extremely interested in knowing your views and the 
views of the President-elect in time with regard to U.S. policy 
toward the Balkans. I have just returned from a trip to the 
region where the job of securing peace is only partially 
finished. During the Presidential campaign, candidate Bush and 
some advisers indicated that he favored a speedy withdrawal of 
U.S. forces. I can tell you that is all anyone in the Balkans 
talked about. The region's leaders have taken him at his word, 
and as a result, the situation there is essentially frozen. It 
is imperative that the view of the administration be made clear 
and I respectfully suggest fairly soon, although I do not 
expect it to be made clear today.
    Let me state my concern bluntly: I believe it would be a 
serious mistake to withdraw U.S. forces from the Balkans. Our 
presence, which amounts to about 20 percent of the 
international force, is still the linchpin of the peacekeeping 
forces in both Kosovo and Bosnia, and we should stay the course 
in my view.
    I am very interested in your views about the new 
administration's attitude toward U.S. policy on Asian security, 
particularly on the Korean Peninsula. Recent diplomatic efforts 
conducted in concert with our allies in South Korea and Japan 
are slowly drawing North Korea out of its shell. The Clinton 
administration, following sound advice rendered by former 
Secretary of Defense Bill Perry, has made important progress in 
negotiations with North Korea on ending its missile development 
and proliferation programs. I urge the administration to come 
up with a position on continuing these discussions as promptly 
as possible.
    Third, I think we can all agree that containing the 
proliferation danger posed by loose nukes and by weapons 
scientists who are tempted to sell their knowledge to rogue 
states should be one of our hottest priorities. I would like to 
hear your views on whether and how the administration believes 
we should expand our non-proliferation programs with Russia and 
the other Newly Independent States.
    Similarly, I think we can all agree on the common-sense 
recommendations just issued by General Shalikashvili, your 
successor as Chairman of the Joint Chiefs, in his report on the 
Comprehensive Nuclear Test Ban Treaty. I believe we need to 
fully fund an effective Stockpile Stewardship Program and 
improve our nuclear weapons test monitoring capabilities. And I 
look forward to your thoughts on how we can meet these 
objectives.
    Fourth, I welcome your thoughts on U.S. policy toward two 
important actors on the world stage: Russia and China. With 
both countries, we have a broad agenda, from arms control to 
proliferation to human rights to trade. Neither is likely to be 
a true partner soon, but neither need be an adversary. I 
believe we should avoid turning our fears of conflict into 
self-fulfilling prophecies, and I would be anxious to hear what 
you have to say.
    And fifth, I would welcome your thoughts on some pressing 
business that we have to complete at the Untied Nations. In 
late December, Ambassador Holbrooke successfully concluded 
negotiations to reduce our assessments in the United Nations. 
The deal does not completely satisfy the conditions in the 
Helms-Biden law, but Senator Helms and I have agreed to 
promptly move legislation to amend the law so that the second 
installment of our arrears, nearly $600 million, can be 
released.
    We also must consider whether to amend a separate but 
related law, enacted in 1994, which caps U.S. contributions for 
peacekeeping at 25 percent. This is not the time to do that, 
but we are anxious to see what the administration has in mind. 
If we do not, I think we are in danger of building up new 
arrears in New York and you will be faced with a different 
problem.
    Finally, I will be interested in hearing your views on what 
resources are needed to ensure that we have a diplomatic corps 
equipped to meet our foreign policy challenges.
    You will be interested to know, General, that on my recent 
trip to five European countries, there is a convergence of 
views, both our military and our civilian personnel. The 
military is extremely grateful for your commitment as Chairman 
of the Joint Chiefs of Staff to seeing to it that their quality 
of life and their capabilities to do their job were improved. 
And I warn you. Now your new charges at the State Department 
feel equally optimistic about your willingness to fight for 
their interests and to put our diplomatic corps in the position 
that I think it should be placed in and which this 
administration or the previous administration has not been able 
to do in my view. So, they are looking to you as a champion, 
General. I presume to tell them that you told me in our meeting 
that it was going to be one of your priorities, and we are all 
anxious to hear what your views are on that subject.
    Let me conclude, General, by saying to you that I truly 
welcome your being here. You are a man who all on this 
committee have been able to work with. We have always been able 
to literally pick up the phone and call you in your various 
capacities. My tenure on this committee has overlapped all of 
those assignments you have had. So, we know that what we are 
going to get from you is the straight scoop. We know that when 
you tell us something, you mean it.
    We also know that you are very deft at not telling us what 
you do not want us to hear. So, I think the only likelihood of 
any tension--and it will not be much--in this relationship will 
be your legendary capability of being closed mouth and avoiding 
saying exactly where the principal you represent stands.
    So, I just hope that you understand--and I am sure you do--
that you are in an incredibly powerful position, not merely by 
nature of the fact that you are the Secretary of State, but 
quite frankly, General, most women and men taking office now 
would relish the opportunity to be able to potentially have the 
leverage you may have on policy. I wish you well and I hope you 
exercise that leverage and contemporaneously share it with us. 
But I again welcome you.
    [Senator Biden's opening statement follows:]

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    Today the Committee on Foreign Relations meets to consider the 
nomination of retired General Colin Powell to be Secretary of State. At 
the outset, I would like to welcome our two new members, Senator Allen 
and Senator Nelson.
    General Powell is hardly a stranger to this committee or to the 
Senate, as he regularly appeared before us--both formally in this 
committee and in informal briefings--when he was Chairman of the Joint 
Chiefs of Staff. It is a pleasure to welcome you back to the committee.
    President-elect Bush has called from retirement a distinguished 
soldier who gave this Nation 35 years of honorable service.
    While serving in the United States Army, General Powell had a wide 
range of assignments, both in the field and in Washington, including as 
Military Assistant to Defense Secretary Caspar Weinberger, Deputy 
National Security Adviser and then National Security Adviser to 
President Reagan, and then Chairman of the Joint Chiefs of Staff under 
Presidents Bush and Clinton.
    Without question, General Powell's experience at the highest levels 
of government in the conduct of foreign and defense policy and his 
experience in managing large organizations makes him well qualified to 
be Secretary of State. I have no doubt that you will be confirmed, and 
I suspect the vote will be unanimous.
    The question before the committee is not, therefore, whether 
General Powell is qualified to be Secretary of State, for he surely is.
    The question before us, in my judgment, is what direction will 
American foreign policy take under President George W. Bush? I do not 
expect General Powell to articulate detailed positions before the 
President-elect takes the oath of office. But I would like to begin a 
dialog about the direction in which the new President intends to steer 
the Ship of State.
    At the start of what promises to be a second century of American 
leadership in the world, the United States enjoys an unrivaled position 
as the world's pre-eminent military, economic, and political power. No 
serious contender has emerged on the horizon. Most Americans appear to 
understand that in an age of globalization the United States must 
remain a world leader.
    Yet some of our political leaders seem suspicious of active 
American engagement in the world. The debate is more than the age-old 
struggle between isolationism and internationalism.
    A troubling new ``ism'' has emerged--unilateralism--a belief that 
America can better protect its interests by going it alone.
    I do not believe that President-elect Bush or General Powell are 
isolationists--far from it.
    But there are prominent voices in their party who often suggest 
that we should act unilaterally--such as those who would deploy 
national missile defense without concern for the legitimate security 
interests of our European and Asian allies--which I would call the 
``Shield of Dreams'' approach; in other words, ``build it and they will 
come around.''
    We must guard against the unilateralist approach to American 
policy, which threatens to leave us as what Harvard political scientist 
Samuel Huntington calls a ``lonely superpower.'' This is not to say we 
must never act alone. There will be times when we must do so.
    But we should recognize that while we must lead the world, we do 
not control it. And we should understand that security alliances and 
international commitments are not entanglements to be avoided but 
important tools which can advance American interests.
    In the aftermath of a divisive election campaign, we start the new 
Congress with a spirit of bipartisan harmony. Time will tell whether 
that spirit will endure, but I commit to work in good faith with you 
and the President to try to build a foreign policy that enjoys a broad 
consensus. It is naive to think that we will always agree. We should 
welcome debate, which is essential to our democracy. But we should try 
to avoid excessive partisanship in our foreign policy debates.
    I look forward to hearing your views on the major foreign policy 
challenges facing the country. At the outset, let me briefly discuss a 
few concerns I have with regard to several very important issues.
    First, it is no secret to you that I am concerned that we not 
undertake a precipitous rush to deploy national missile defense. 
President Clinton made the right decision last fall to defer a 
deployment decision. Neither the technology nor the diplomatic effort 
has advanced far enough to warrant a decision to deploy at this time. I 
also believe that the most recent estimate conducted by the 
intelligence community underscores the risks that a deployment decision 
now could leave us less, not more, secure.
    I am concerned that a decision to deploy national missile defense 
would reverse four decades of agreed-upon strategic doctrine, and 
therefore must not be taken in haste. So it is my hope that the 
Administration will engage in a comprehensive review of the national 
missile defense issue:

  <bullet> a reassessment of the threat, particularly from North Korea, 
        in light of recent developments;

  <bullet> a reassessment of the technological capabilities of systems 
        now in development, and of proposed alternatives; and

  <bullet> a reassessment of the international reaction to deployment 
        of national missile defense.

    Ballistic missile defense does not stand in isolation. It is 
closely intertwined with reductions in strategic systems. With Russian 
approval of START II finally secured, we are in a position to move to 
the START III levels outlined in Helsinki 4 years ago. I am interested 
in hearing your views on how we can achieve still further reductions.
    Second, you know from our discussions in my office last week of my 
interests with regard to key security commitments in Europe and Asia. 
We are both a European and an Asian power, and in both continents we 
are an essential force for stability. I am extremely interested in 
knowing your views, and the views of the President-elect, with regard 
to U.S. policy toward the Balkans.
    I have just returned from a trip to the region, where the job of 
securing the peace is only partially finished. During the Presidential 
campaign, candidate Bush and his advisers indicated that he favored a 
speedy withdrawal of U.S. forces. The region's leaders have taken him 
at his word--and as a result the situation there is essentially frozen. 
It is imperative that the views of the Administration be made clear--
and soon.
    Let me state my concerns bluntly: I believe it would be a serious 
mistake to withdraw the U.S. forces from the Balkans.
    Our presence--which amounts to about 20 percent of the 
international forces--is still the lynchpin of the peacekeeping forces 
in both Kosovo and Bosnia. We should stay the course in the Balkans.
    I am very interested in your views about the new Administration's 
attitude toward U.S. policy on Asian security, particularly on the 
Korean Peninsula.
    Recent diplomatic efforts conducted in concert with our allies in 
South Korea and Japan are slowly drawing North Korea out of its shell. 
The Clinton Administration, following sound advice rendered by former 
Secretary of Defense Bill Perry, has made important progress in 
negotiations with North Korea on ending its missile development and 
proliferation programs.
    I urge the Administration to come to a position on continuing these 
discussions as promptly as possible.
    Third, I think we can all agree that containing the proliferation 
danger posed by loose nukes and by weapons scientists who are tempted 
to sell their knowledge to rogue States should be one of our highest 
priorities. I would like to hear your views on whether and how the 
Administration believes we should expand our non-proliferation programs 
with Russia and the other Newly Independent States.
    Similarly, I think we can all agree on the common-sense 
recommendations just issued by General Shalikashvili--your successor as 
Chairman of the Joint Chiefs of Staff--in his report on the 
Comprehensive Nuclear Test Ban Treaty. I believe we need to fully fund 
an effective Stockpile Stewardship Program and to improve our nuclear 
weapons test monitoring capabilities, and I look forward to your 
thoughts on how we can meet those objectives.
    Fourth, I welcome your thoughts on U.S. policy toward two important 
actors on the world stage--Russia and China. With both countries we 
have a broad agenda, from arms control to proliferation to human rights 
to trade. Neither is likely to be a true partner soon, but neither need 
be an adversary. I believe we should avoid turning our fears of 
conflict into a self-fulfilling prophecy.
    Fifth, I would welcome your thoughts on some pressing business we 
have to complete with the United Nations. In late December, Ambassador 
Holbrooke successfully concluded negotiations to reduce our assessments 
in the United Nations. The deal does not completely satisfy the 
conditions in the Helms-Biden law, but Senator Helms and I have agreed 
to promptly move legislation to amend the law so that the second 
installment of our arrears--nearly $600 million--can be released.
    We also must consider whether to amend a separate but related law, 
enacted in 1994, which caps U.S. contributions for peacekeeping to 25 
percent. If we do not, we are in danger of building up new arrears in 
New York--a situation none of us should welcome. I would welcome your 
recommendation on this issue.
    Finally, I will be interested in hearing your views on what 
resources are needed to ensure that we have a diplomatic corps equipped 
to meet our foreign policy challenges.
    I urge you to review, in particular, the report of the Overseas 
Presence Advisory Panel, which in 1999 reviewed the state of our 
Nation's diplomatic infrastructure and found it badly wanting. It 
warned that:

          Insecure and decrepit facilities, obsolete information 
        technology, outdated human resources practices, and outmoded 
        management and fiscal tools threaten to cripple America's 
        overseas presence . . . [which] is perilously close to the 
        point of system failure.

    This description hardly seems worthy of a great power.
    According to a report prepared at my request by the Congressional 
Research Service (CRS), foreign policy spending in the current fiscal 
year is 7.6 percent below the average for the last two decades, and 
some 20 to 30 percent below the peak levels of the mid-1980s.
    I look forward to hearing your views on other critical items on the 
foreign policy agenda--from the Middle East peace process to containing 
the narcotics threat to advancing human rights and democracy to 
combating AIDS in Africa.
    But let me close here with one final thought. Undoubtedly, you 
learned a lot of lessons in your two tours in Vietnam. The key lesson I 
took from our painful experience in Vietnam is that no foreign policy 
can succeed without the support of the American people.
    I know you know this, but it bears repeating, because in every 
administration there inevitably arises a belief that the executive 
branch is the repository of all wisdom.
    Congress has no patent on wisdom, but it does by its very nature 
represent the broad diversity of America, and its Members possess a 
significant body of collective experience and common sense as to what 
works and what does not in the real world of human behavior--both here 
and abroad. So I urge you to keep in mind that you must maintain a 
regular dialog not only with Foreign Ministers, but also with the 
American public and its Representatives in Congress.

    Senator Biden. Now I not only turn to the Senator from 
North Carolina for his opening statement, I literally and 
figuratively turn over the gavel and end my very brief tenure 
as chairman of the Foreign Relations Committee. I must tell 
you, Chairman Helms, it brings back the good old days when I 
was a chairman.
    As Senator Thurmond, with whom I served for years and 
years--we changed chairmanships on Judiciary. He used to lean 
over and he said, ``Joe, if I've got to have a Democrat be my 
chairman, it might as well be you.''
    Well, Chairman Helms, if I cannot be chairman and I have to 
have a Republican, I am delighted it is you.
    Senator Helms. Amen.
    Chairman Biden, I appreciate your scheduling this hearing 
this morning.
    Mr. Secretary of State--I hate the word ``designate,'' so I 
am not going to use it because you are, standing right there, 
the next Secretary of State. On behalf of the Republican 
minority at the moment, it is my distinct pleasure to welcome 
you this morning.
    Now, there is a story that may fit this situation this 
morning. One day many years ago, the legendary Congressman and 
later Senator from Kentucky, Henry Clay, was in debate on the 
House floor with the distinguished, but somewhat long-winded, 
Alexander S-m-y-t-h. Now, there is some question of whether 
they called it ``Smyth'' or ``Smith.'' It doesn't matter, but 
he was from Virginia, I'll remind you.
    Mr. Smyth was in the midst of, and he said, ``sir, you 
speak for the present generation, but I speak for posterity.'' 
Henry Clay looked at him and said, ``yes, and you seem to be 
resolved to speak until the arrival of your audience.''
    Now, Mr. Secretary, I am going to do my best not to speak 
for posterity this morning.
    Now, you may have noticed it in the newspapers a small item 
last week that I visited with the members of the American 
Enterprise Institute [AEI] this past Thursday, and I shall this 
morning spare you a repetition of what I said there then. 
Suffice it to say, my purpose in visiting with the AEI was to 
lay out some of the vital issues which this committee and the 
Congress will confront in the months ahead, issues which I hope 
that we will work to address together in the coming year. And 
any reactions you may have this morning to some of those 
proposed areas of cooperation between your Department of State 
and this committee will be greatly appreciated by me.
    Now, I for one am extremely confident we will be able to 
work together to do some things, important things, for the 
American people. It is my intent to offer my help to you any 
way I can at any time.
    Now, in choosing you, General Powell, President-elect Bush 
hit a home run. One of my earliest memories of you was during 
the Reagan administration when I had the pleasure of attending 
a briefing at which you were the central witness in the cabinet 
room down at the White House. You may recall this day. You were 
splendid in uniform. You were erect and you had your easel and 
you knew what you were talking about.
    Well, I was sitting to the right of the President, and we 
had a habit of passing notes to each other. So, I reached for 
one of the memo pads in front of me and I scribbled a two-word 
question to President Reagan: ``Joint Chiefs?'' I slid it over 
to the President. He looked at it and grinned and wrote 
something and moved it back to me. On there, he said, 
``Chairman.''
    Now, I've got that piece of paper somewhere in my files for 
posterity.
    What I am saying is that Ronald Reagan admired you and so 
do I. I think you know that. I can imagine no better qualified 
person to serve as the first U.S. Secretary of State in the 
21st century. We welcome you, sir, and look forward to your 
testimony.
    Once we have heard from you, Mr. Secretary, I suggest that 
we begin with 10-minute rounds of questions. I am saying this 
for the benefit of Senators present here today. On the 
principle that the mind can absorb no more than the seat can 
endure, I suggest that we break for 1 hour for lunch at 12:30.
    With that, Mr. Secretary, you may proceed.
    [Opening statement of Senator Helms follows:]

                OPENING STATEMENT OF SENATOR JESSE HELMS

    Mr. Chairman, I appreciate your scheduling this hearing. And, Mr. 
Secretary of State-designate--on behalf of the Republican minority--it 
is my distinct pleasure to welcome you to the Senate Foreign Relations 
Committee.
    There is a story that one day, many years ago, the legendary 
Congressman (and later, Senator) from Kentucky, Henry Clay, was in 
debate on the House floor with the distinguished (but somewhat long-
winded) Alexander Smyth of Virigina.
    Smyth was in the midst a stemwinder, when he turned to Clay and 
declared: ``You, sir, speak for the present generation, but I speak for 
posterity.''
    To which Clay replied: ``Yes, and you seem resolved to speak until 
the arrival of your audience.''
    Mr. Secretary, I shall do my best not to speak for posterity this 
morning.
    You may have noted that I visited with the members of the American 
Enterprise Institute this past Thursday, and I shall this morning spare 
you a repetition of what was said there. Suffice it to say, my purpose 
in visiting with the AEI was to lay out some of the vital issues which 
this committee will confront in the months ahead (issues which I hope 
we will work to address together in the coming year). Any reactions you 
may have this morning to some of those proposed areas of cooperation 
between your Department of State and this committee will be most 
appreciated.
    I, for one, am extremely confident that we will be able to work 
together to do some important things for the American people. It is my 
intent to offer my help to you in any way that I can.
    In choosing you, General Powell, President Bush hit a home-run. One 
of my earliest memories of you was during the Reagan Administration, 
when I had the pleasure of attending a briefing at which you were the 
central witness in the Cabinet room at the White House. I was seated to 
President Reagan's right. You were most impressive, and in total 
command of your testimony. As you spoke I reached for one of those 
small memo pads placed around the table and scribbled a two word 
question to President Reagan. It read: ``Joint Chiefs?'' I slid it over 
to the President. Mr. Reagan looked at it, reached for his pen and 
wrote: ``Chairman.''
    Mr. Secretary-designate, Ronald Reagan admired you, and so do I. 
And I can imagine no better qualified person to serve as the first U.S. 
Secretary of State in the 21st century. We welcome you, sir, and look 
forward to your testimony.
    Once we have heard from you, Mr. Secretary, I suggest that we begin 
with 10 minute rounds of questions. And, on the principle that the mind 
can absorb no more than the seat can endure, I suggest that we break 
for lunch at 12:30 p.m.

   STATEMENT OF COLIN L. POWELL, SECRETARY OF STATE-DESIGNATE

    Mr. Powell. Well, thank you very much, Chairman Helms, and 
Chairman Biden, it is a great pleasure for me to be here this 
morning. I am honored to appear before the committee as the 
nominee of President-elect Bush to be the Secretary of State of 
the United States of America. I deeply appreciate the 
confidence that the President-elect has placed in me, and if I 
receive the advice and consent and approval of the U.S. Senate, 
I promise, from the bottom of my heart, to do my very best to 
serve the President, to serve the American people. It is an 
honor to be asked to return to service after my 7-year 
sabbatical.
    I want to thank Senators Warner and Allen for their very, 
very gracious introductory remarks. I wish Senator Allen and 
his colleague, Senator Nelson, all the best as they begin their 
service on this committee. I want to especially thank Senator 
Warner for all the support and friendship he has given me over 
a very, very long period of time--over 20 years we have been 
friends--and the support that he has provided to the young men 
and women in uniform of the Armed Forces of the United States 
and, above all, for being my friend.
    I am very thankful that you allowed me to introduce my wife 
to be recognized. As I said earlier, she has been a partner 
with me some 38 years, and she is in this for the whole ride as 
well.
    Mr. Chairman, I do have a prepared statement. I would like 
to abbreviate it, however. If I may place the prepared 
statement in the record.
    These proceedings mark the 64th renewal of a long and 
honored tradition that began when the 26 Members of the first 
U.S. Senate met to consider the nomination that was before them 
then, that of Thomas Jefferson of Virginia.
    When Jefferson took office in 1790, a cynical and tired 
Europe laughed in derision at the thought that popular 
government, as it was called then, might work in even one 
country, much less the whole world. In fact, just a few decades 
ago, noted experts in academic journals wrote of the weakness 
and possible demise of democratic institutions in the face of 
rising dictatorial power of the kind we saw represented by the 
Soviet Union on the red side of the map.
    Those articles were appearing at the very moment that 
Jefferson's ideas of liberty and self-government were about to 
prove another generation of cynics absolutely dead wrong. Ideas 
that were going to, as Jefferson prayed, flow through time and 
spread their happy influence over the face of the earth, as 
people behind the Iron Curtain and around the world threw off 
the yolks of totalitarianism. Jefferson's ideas and Jefferson's 
prayers were ahead of the time in which he lived and ahead of 
the man himself.
    I have to pause in my admiration of Jefferson during this 
week of celebration of the life of Dr. Martin Luther King, Jr., 
and reflect on how Dr. King helped to answer Jefferson's 
prayers for black Americans whose forbearers at that time were 
considered to be property, slaves, even in Jefferson's own 
custody.
    I am before you today as Jefferson's admiring successor, 
thankful for all the sacrifices that were made by Dr. King and 
so many others to make Jefferson's dream possible for people 
like me, a dream that I hope will continue to inspire my fellow 
Americans and inspire people around the world because there is 
still so much that needs to be done here at home and around the 
world to bring that universal Jeffersonian dream to the whole 
world.
    President-elect George W. Bush understands that dark 
shadows still linger over the edges of the American dream for 
so many. He intends to remove those shadows. He will be a 
President for all Americans, and he will be a leader who 
faithfully represents the ideas of freedom and justice to the 
entire world. And he will do it with determination and he will 
do it with the humility befitting a great power.
    As you know, Mr. Chairman, I am no stranger to this 
committee. I remember working late nights with you in 1987 as 
we worked on the INF Treaty. I remember you shuttling me back 
and forth across the Atlantic several times, Senator, to make 
sure that I brought back the assurances that the Senate needed 
in order to ratify that treaty that subsequently eliminated an 
entire class of nuclear weapons.
    To make sure you understand the politics in the Powell 
family, Mr. Chairman, I have to digress for a moment and tell a 
brief story. After the INF Treaty was signed and we were in the 
process of destroying those Soviet SS-20 missiles and the 
American Pershing II missiles, you recall, there was a ceremony 
at the Air and Space Museum where I as Joint Chiefs of Staff 
Chairman and my Soviet colleague were putting into the museum a 
replica, an actual SS-20 that had its warhead taken off, and 
next to it was standing a Pershing II missile. And there we 
were. We had accomplished this, and there stood the two 
missiles. And my wife Alma, who pays some interest to what I 
do, but just so you know where her heart is and that she is 
always being careful about our security, stood before those two 
missiles and she nudged me and she said, Colin, how come theirs 
was bigger?
    I told her that is why we wanted to get rid of them, 
Darling. That is why we wanted to get rid of them.
    I also remember testifying at hearings before Senator Biden 
when you chaired the proceedings when we examined the 
Conventional Forces in Europe Treaty, a treaty that we were 
able to put in effect and bring a new status to the Iron 
Curtain in Europe, with both sides starting to move back. 
Little did we know at that time that the move back would be 
permanent, that an entire empire was about to crash down on our 
heads. We could just begin seeing the outline of that 
historical happening.
    In those times, we worked together in a spirit of 
cooperation to do the Nation's will. We argued. We debated. 
That is the American system. That is the democratic system. If 
confirmed, I promise that I will argue with you, I will debate 
with you, as I did in the past, but it will always be in the 
best spirit of cooperation to make sure we get the right answer 
for the American people and that we pursue the President's 
foreign policy as he has divined it from the will of the 
American people.
    We will need to work together well because we have a great 
challenge before us, but it is not a challenge of survival 
anymore. It is a challenge of leadership, for it is not a dark 
and dangerous ideological foe we confront as we did for all 
those years, but now it is the overwhelming power of millions 
of people who have tasted freedom. It is our own incredible 
success, the success of the values that we hold dear that has 
given us the challenges that we now face.
    I have seen that success in many ways since I stepped down 
and took off my military uniform 7 years ago. I have been out 
across the country. I have traveled around the world. I have 
sat on the boards of some companies that are in the forefront 
of the transformation of our society. What I have seen is an 
economy that is flourishing, people in America who are creating 
wealth, people who are doing so very well as they take 
advantage of this new economic environment that we find 
ourselves in. I have also seen fellow Americans who have not 
yet shared in that dream, and I have tried to see what I could 
do to help them.
    I have seen more and more nations moving onto the path of 
democracy and the free enterprise system.
    The rise of democracy and the power of the information 
revolution combine to leverage each other. As a member of the 
board of directors of one of these transforming companies, 
America Online, I had a unique vantage point from which to 
watch the world start to transform itself. America Online and 
its various services have over 100 million people connected 
electronically. They can instant message. They can e-mail. They 
can trade photos, papers, ideas, dreams, capital, likes and 
dislikes, all done without customs posts, visas, passports, 
tariffs, guard towers, or any other way for governments to 
interfere. With the speed of light they can communicate. With 
the speed of light, the concept of freedom can travel around 
the world.
    If such ideas move around now at the speed of light, they 
are also like the light: Darkness cannot withstand them. 
Eventually they will flow into every dark place and illuminate 
that place for the betterment of mankind.
    Two of the most important of these ideas are democracy and 
capitalism. They are like twin lasers working in tandem all 
across the globe to illuminate the last dark corners of 
totalitarianism and dictatorship. The ideological ``isms'' 
which challenged us for the last 50 years have all died away--
fascism, Nazism, communism--leaving only the dregs of abused 
and misused power in their wake.
    Yes, dictators remain, but they are relics of the past and 
the ``isms'' they practice cannot destroy us, cannot overthrow 
us, cannot end our way of life the way the threat of the Soviet 
Union was able to do. These regimes and these dictators can be 
dangerous and they require our attention, but they cannot 
hurtle the Atlantic in 30 minutes the way I used to worry about 
Soviet forces doing just a few years ago.
    Democracy and free markets work and the world knows it. 
There is no finer example of this than America and her allies 
who together comprise the strongest economies in the world, 
helping to reshape the entire world by being willing to trade 
openly and encourage others to do likewise.
    There should be no question in any world leader's mind that 
the first and the most essential ingredient for success in this 
21st century is a free people and a government that derives its 
right to govern from the consent of such people.
    So, a guiding principle of President-elect Bush's foreign 
policy will be that America stands ready to help any country 
that wishes to help the democratic world, any country that puts 
the rule of law in place and begins to live by that rule, any 
country that seeks peace and prosperity and a place in the sun. 
In that light, there is no country on earth that is not touched 
by America, for we have become the motive force for freedom and 
democracy in the world.
    And there is no country in the world that does not touch 
us. We are a country of countries with a citizen in our ranks 
from every land. We are attached by a thousand cords to the 
world at large, to its teeming cities, to its remotest regions, 
to its oldest civilizations, to its newest cries for freedom.
    This means that we have an interest in every place on this 
earth, that we need to lead, to guide, to help in every country 
that has a desire to be free, open, and prosperous.
    So, Mr. Chairman, this is a time of great opportunity for 
us. We have the strength to take risks for peace. We must help 
the world that wants to be free.
    And we can take these risks because we are so strong. We 
are economically strong. We are politically strong. And 
underneath it all, we have an insurance policy that allows us 
to take risks, and those insurance policies go first by the 
name of the Armed Forces of the United States, the finest, the 
best in the world. And they will remain the finest under 
President George W. Bush. They will remain the finest because 
they will have the best people, the best equipment, the best 
training, and the best funding necessary to make sure that they 
are always, always ready for whatever challenges come their 
way.
    But the Armed Forces are just one element of this insurance 
policy, just one part of our national security team. There are 
many others. And if you confirm me, I will become the leader of 
one of the most vital elements.
    It is the State Department and its talented and dedicated 
professionals who are in the forefront of our engagement in the 
world. While the world has been growing more demanding and more 
complex when more and more nations demand and need our 
attention, we have cut the number of people in the State 
Department. We have underfunded our facilities. We have 
neglected our infrastructure. We need to do better.
    Many of you have visited Camp Bondsteel in Kosovo where our 
GI's are stationed. Senator Biden was there just yesterday. As 
Senator Biden and others will tell you, it is a superb, first-
class facility, put in almost overnight to make sure that our 
troops are taken care of. But if you visited some of the 
dilapidated embassies and other facilities in the region, you 
would wonder whether the same government was taking care of 
them. That is not right.
    We have exceptional people in the State Department, many of 
whom I have met personally and worked with personally over the 
years and a number of whom I have had the occasion to meet in 
the first few weeks of my transition. If we want them to do the 
people's work, then we must give them the resources they need 
to do it.
    In that regard, I want to thank you for what you gave the 
Department this past fiscal year under the encouragement of 
Secretary Albright. But I want to let you know that I will be 
coming back to you because I know that we do not have enough to 
accomplish the mission. We do not have enough and we need not 
just a little increase. We need a step increase. As soon as I 
have put together the specific programs and the dollar details 
to support these programs, and once I get the approval of the 
President, I can promise you I will be back. Put it on your 
calendars. If you approve my appointment and the full Senate 
approves it, I will be back. That is a promise.
    Now, I know you expect to hear how the Bush administration 
views some of the key issues that have been raised by members 
of the committee in my individual calls and Senator Biden has 
raised and you raised in your very fine AEI speech last week, 
Senator Helms. So, I would now like to turn to that.
    In what President-elect Bush has called ``a distinctly 
American internationalism,'' there is no inclination whatsoever 
to have our Nation withdraw from the world into a fortress of 
protectionism or an island of isolationism. As President-elect 
Bush has also said, ``America must be involved in the world.'' 
And we must be involved according to our national interest and 
not in some haphazard way that seems more dictated by the 
crisis of the day than by serious, thoughtful foreign policy. 
No ally, friend, or enemy will ever be unclear about where the 
Bush administration stands on a matter that touches our heart 
and soul and our basic interests.
    For example, to begin with, we believe strongly in NATO, 
that great alliance across the Atlantic Ocean. It is the 
bedrock of our relationship with Europe. It is sacrosanct. 
Weaken NATO and you weaken Europe which weakens America. The 
value of NATO can be seen by the fact that 10 years after the 
cold war, nations are still seeking to join the alliance, not 
to leave it. The alliance is as relevant to the future as it 
was to the past. It did not threaten Russia in the past and it 
does not threaten Russia in the future.
    Historic change is occurring in Europe. Europeans are 
striving in their own way and their own time to find their own 
more perfect union. We welcome a more integrated, robust, and a 
stronger Europe, an all the more capable partner in the 
challenging times ahead.
    Our European allies, as part of this change, are in the 
midst of important efforts to improve their defense 
capabilities. We will support any such effort, as long as it 
strengthens NATO and does not weaken NATO.
    What happens within that great alliance and what happens to 
it must comport with its continued strength, resilience, and 
effectiveness.
    To our west across the Pacific, a similar bedrock exists. 
It is our strong relationships with our Asia-Pacific allies and 
friends and particularly Japan. Weaken those relationships and 
we weaken ourselves. All else in the Pacific and East Asia 
flows from those strong relationships. As Senator Biden said, 
we are a European and a Pacific nation and we have to represent 
and defend our interests in both those theaters.
    With these fundamentals in mind, our obligations and our 
commitments to our alliances East and West, let me touch on the 
other countries that were mentioned by Senator Biden and I know 
are very much on the minds of members of the committee.
    First, China. China is a giant, a giant trying to find its 
way in the world with a Communist leadership still, yet with 
distinctly Chinese textures that belie any real categorization 
other than capitalism now weaves a strong strain throughout 
that society.
    Our challenge with China is to do what we can do that is 
constructive, that is helpful, and that is in our interests. 
Japan, South Korea, Australia, and our other allies and friends 
in the region have a stake in this process of nurturing a 
constructive relationship, and we will want to work with them 
not unilaterally, but work with our friends and allies in 
responding to a new and dynamic China.
    I hope that with full membership in the World Trade 
Organization, with increasingly responsible behavior in the 
region and in the world, and most vitally, hopefully with 
increased freedom for the Chinese people, China may yet fulfill 
a promise that Sun Yat-sen laid out almost 100 years ago.
    But in the meantime, we will treat China as she merits.
    A strategic partner China is not. But neither is China our 
inevitable and implacable foe. China is a competitor, a 
potential regional rival, but also a trading partner willing to 
cooperate in areas where our strategic interests overlap. China 
is all of these things, but China is not an enemy and our 
challenge is to keep it that way by enmeshing them in the rule 
of law, by exposing them to the powerful forces of a free 
enterprise system and democracy so they can see that this is 
the proper direction in which to move.
    The United States has long acknowledged the view that there 
is only one China. In that respect, Taiwan is part of China. 
How the People's Republic of China and Taiwan resolve the 
differences and interpretation of that view is up to them, so 
long as military force is not one of the methods used.
    In the meantime, we will stand by Taiwan and we will 
provide for the defense needs of Taiwan in accordance with the 
Taiwan Relations Act and subsequent communiques. We are very 
mindful of what Congress has given us as guidance in the form 
of the Taiwan Security Enhancement Act, and we understand that 
a strong Taiwan that is secure is the foundation for that 
prosperous country to continue to prosper and it is the 
foundation of stability and security in that part of the world. 
Let all who doubt, from whatever perspective, be assured of one 
solid truth: We expect and demand a peaceful settlement, one 
acceptable to people on both sides of the Taiwan Strait.
    Likewise, now when we look across the Atlantic, that other 
theater, we find another giant trying to find its way, and 
Senator Biden touched on this as well. Our challenge in this 
direction is to help the Russian people come to grips with 
their future, solidifying their democracy, restructuring their 
economy to support that democracy, joining the wider world in 
every respect, and moving positively and swiftly toward lower 
levels of nuclear weapons, greater stability on their 
periphery, and a firmer, more permanent peace for themselves 
and for the people of the region.
    Our relations with Russia must not be dictated by any fear 
on our part. For example, if we believe the enlargement of NATO 
should continue--and we do believe that--we should not fear 
that Russia will object. We will do it because it is in our 
interests and because freedom-loving people wish to be part of 
NATO.
    Instead, we should deal with Russia's objections and find a 
way to address them. NATO is not aimed at Russia. NATO is aimed 
at the peace of Europe, and Russia is European, after all.
    So, Russia is a great country, an Atlantic and a Pacific 
country, a country that can gain enormous benefits from its 
relationship with us and with the West in general. But that 
relationship can only be a strong and successful one if Russia 
does what it needs to do.
    And what it needs to do, as President-elect Bush has said, 
is to get on with reform, in particular by firmly establishing 
the rule of law, rooting out corruption, stopping the 
proliferation of missile technology and nuclear materials, 
ending the sales of destabilizing weapons to nations such as 
Iran and, in general, living up to the obligations it has 
incurred as the newest democracy with world power credentials.
    One such obligation can be found in Chechnya where they 
must achieve a political settlement, the only way to end this 
terrible conflict and to bring peace to the area. At the same 
time, we will hold the Russians to account for internationally 
recognized norms such as those of the Geneva Convention, and 
they must allow humanitarian assistance organizations to have 
access to the civilians who are suffering in the region.
    In the end, the world may well see the enigma inside the 
riddle wrapped up in the mystery that is Russia, finally 
deciphered, solved, and unwrapped. But the magician who does 
that cannot be us or anyone else in the world. It can only be 
done by the Russian people. And we will work with them and we 
will wish them well.
    Going back across the Pacific, we come to our bilateral 
relationship with the Republic of Korea, which was also touched 
on by members, a land seeking a historic reconciliation, one 
that we will support, as we have for the last 50 years, and we 
will help them facilitate this reconciliation.
    But as long as the dictator in the north continues to field 
far more conventional forces than any conceivable sense of 
self-defense would warrant and develops missiles and 
unconventional weapons, we and our allies in the region will 
remain vigilant.
    We believe that the reduction of tension between the North 
and the South is one of the keys to greater peace and stability 
on the Korean Peninsula. The ongoing North-South dialog that we 
have been witnessing recently is certainly a positive step in 
that regard.
    Secretary Albright has made me very well aware of the 
status of our recent discussions with the North Koreans. So, we 
are mindful of all the work that has been done and we will use 
that work as we review our overall policy on the Peninsula. In 
the meantime, we will abide and agree to the commitments made 
under the Agreed Framework, provided that North Korea does the 
same.
    In our review of the situation on the Peninsula, the Bush 
administration will also be looking at our overall defense 
posture.
    As you know, once confirmed, Secretary Rumsfeld will be 
conducting the comprehensive review of our military that the 
President-elect has called for. I know that he shares my view 
that our defense posture must match our East and West 
obligations, both across the Atlantic and across the Pacific. 
We must have sufficient military might for the Atlantic, mostly 
in NATO, for the Pacific, largely in Korea and Japan, and for 
our defense capabilities that will provide the deterrence and 
force projection that might be needed in other parts of the 
world.
    Our troops in Korea, our troops in Europe, our strong 
allied forces that work with us afford the same clear, 
definitive interest that it is necessary for us to show in both 
those regions of the world. And I know that this important bi-
directional aspect will be kept very much in mind by Secretary 
Rumsfeld. I believe that there is a need for forces to provide 
presence in both of these regions, and I believe we have to be 
able to deter and fight regional conflicts that might arise in 
both of those regions near simultaneously.
    We cannot do it alone. We need friends and allies to help 
us as we look to the security challenges of the new century. In 
the Pacific, for example, we are very, very pleased that 
Australia, our firm ally, has played a keen interest in what 
has been happening in Indonesia. So, we will coordinate our 
policies, but let our ally Australia take the lead, as they 
have done so well, in that troubled country.
    Indonesia, as you well know, is a State that extends, if it 
were superimposed on the map of the United States, from New 
York to San Francisco, and this nation is undergoing enormous 
change.
    Our relations with this hugely important country need 
careful attention. President Wahid is attempting to undo years 
of neglect, while at the same time hold together a fractious 
population, a population much affected by the flow of ideas 
that I mentioned earlier.
    Turning again once more to the Atlantic, President-elect 
Bush has promised to look closely at an area that I know is on 
the mind of so many of you, the situation in the Balkans, and 
especially the commitment of our troops in the Balkans. I can 
assure you that President-elect Bush understands the commitment 
and obligations that we have made to our NATO allies and to the 
people of the region. As we look at the possibility of reducing 
our troop levels in the region, this will be done carefully. It 
will be done as part of an overall review of all of our 
commitments overseas, and you can be sure it will be done in 
the closest consultation with our allies. It will be part, as I 
mentioned, of that overall review of where our troops are 
around the world.
    We must consider that when we deploy our troops, whether 
for peace operations or for potential conflict, they are 
increasingly vulnerable to more than just simply conventional 
weapons. Conventional weapons are the primary threat, but we 
also see weapons of mass destruction at the top end of missiles 
that are being developed by nations.
    We have an obligation, an obligation to our troops, an 
obligation to ourselves, an obligation to our allies and 
friends to move forward with missile defense on two fronts.
    First, theater missile defense, an important requirement to 
defend our forces. As you know, President-elect Bush has made 
it quite clear that he is committed to deploying an effective 
ballistic missile defense using the best technology available 
at the earliest date possible. We will be developing a plan for 
the way ahead including, as was noted, looking at the 
diplomatic ramifications of such a missile defense program.
    I believe it is important, as Senator Biden noted, to look 
at missile defense not just standing alone. It is one part of 
our overall strategic defense and offensive posture. When you 
are talking about strategic deterrence, what you are talking 
about is getting into the mind of a particular opponent and 
making sure that opponent realizes that he will never be 
successful if he decides to move down into the direction of 
threatening us or our friends with missiles or weapons of mass 
destruction. That deterrence in his mind comes from knowing 
that he would be committing suicide, that we have the offensive 
power to destroy him should he ever take such an action.
    I believe that that deterrence is enhanced if he also knows 
that if he was able to launch a missile at us, we have the 
capacity of intercepting that missile and knocking that down.
    When you put those two elements together, I think defense 
is strengthened, not weakened. Then when you add to that our 
command and control systems that give us assurance at what is 
happening and when you add on top of that our non-proliferation 
activities, I believe that deterrence is ultimately 
strengthened and not weakened.
    While we design this complete strategic framework and 
decide these very important issues on missile defense, there 
will be time to consult with our allies and our friends to 
explain to them what we have in mind, why we think it is for 
the benefit of mankind to move in this direction.
    We will let the Chinese and the Russians know that it is 
not directed at them, but at other nations that we have less 
confidence in and their ability to act in rational ways. I 
understand this will be a difficult discussion, but it is a 
discussion that we must move forward on because we are 
committed to missile defense and we will be coming back to the 
committee to share our thoughts with you as we get further into 
our analysis.
    It is in that context then that we believe that the ABM 
Treaty in its current form is probably no longer relevant to 
our new strategic framework, and we hope to persuade the 
Russians of the need to move beyond the ABM Treaty.
    We also need to review our approach to curbing 
proliferation. As you know, we will not be asking for the 
Congress to ratify the Comprehensive Test Ban Treaty in this 
next session. We are mindful of the work that was done by 
President Clinton's Special Adviser and my colleague, General 
Shalikashvili, who will examine that work, but we believe that 
there are still flaws with the treaty as it was voted down in 
1999. But nevertheless, we will continue to examine the 
elements of that treaty as part of our overall strategic 
review.
    General Shalikashvili gave us some good ideas with respect 
to the Stockpile Stewardship Program, which we will be 
pursuing, and at the same time, President-elect Bush has 
indicated he has no intention of resuming testing as part of 
our efforts. We do not see any need for such testing in the 
foreseeable future.
    Mr. Chairman, I have concentrated really on the two major 
theaters to the east and to the west. As I come to the end, let 
me pause and spend a little time in some other areas of major 
concern to us.
    One that is uppermost in our mind at this time is the 
situation in the Middle East where we have a major challenge to 
the peace process. I applaud the commitment of President 
Clinton and our past Presidents in their tireless efforts to 
find a resolution to this half-century-old conflict with its 
roots in antiquity. And President-elect Bush shares this goal 
and we will do our part to keep the peace process moving 
forward.
    We seek a lasting peace, as have all previous 
administrations, based on unshakable support for the security 
of Israel, the legitimate aspirations of the Palestinian 
people, our friendships in the Arab world, and a hard-headed 
recognition that the parties themselves must make the peace. We 
deplore the increased violence in the area and encourage the 
parties to do all possible to bring it to an end. You cannot 
successfully pursue peace in the midst of such violence.
    We also pledge to focus our efforts on the region as a 
whole and not just on the peace process standing alone. We are 
ready to work with all the parties in the region to achieve a 
comprehensive solution.
    Peace for Israel means peace with all of her neighbors, 
Syria included, where we need to build on the opportunity 
created by Israel's withdrawal from Lebanon.
    When we look at that whole troubled region, Mr. Chairman, 
there is no more tragic case than Iraq, a failed State with a 
failed leader. It is sad to consider what could be, what should 
be, if only Iraq would use its resources and its talented 
people for constructive purposes.
    This is the 10th year anniversary of the beginning of 
Desert Storm, a war we wished we did not have to fight. We 
wished the Iraqi leaders and their people had come to their 
senses back then and not caused this conflict to happen. But it 
did happen. We went into that war with clear political 
objectives, and those objectives were to kick the Iraqi Army 
out of Kuwait. And they are gone and the legitimate government 
has been restored.
    Unfortunately, Saddam Hussein is still in power, but what a 
mess he has made of his nation over the past 10 years while the 
rest of the world has moved on. While we have seen our economy 
flourish, while we bring up a new generation of youngsters 
ready for the Internet age, he sits there trapped in the past. 
Instead of seeking peace and prosperity for his people, we see 
a weakened Iraq that utters threats and pursues horrible 
weapons to terrorize its neighbors.
    We have seen what they will do and have done in the past in 
Tehran. We have seen it in Kuwait City, especially to the 
children of Kuwait. We must not forget how Iraq treated those 
innocent children. We saw some of the effects of that treatment 
on our television screens.
    The President-elect has made it clear that we will work 
with our allies to re-energize the sanctions regime. Critics 
will say that tightened sanctions mean more harm to the people 
of Iraq, especially children. No one cares for children more 
than I do. And I understand that a nuclear, biological, or 
chemical weapon of a Saddam Hussein threatens not only the 
children of Iraq, but the entire region, far more than 
tightened sanctions whose ultimate goal it is not to hurt Iraq, 
but to prevent them from having such terrible weapons in their 
arsenal.
    We need to be vigilant, ready to respond to provocations, 
and utterly steadfast in our policy toward Saddam Hussein, and 
we need to be supportive of opposition efforts.
    The burden is not on us or the United Nations. The burden 
has to be placed on Iraq to come into compliance with the 
agreement they made at the end of the gulf war. We owe this to 
its neighbors and we owe this to its neighbors' children that 
they are no longer threatened, that Iraq is ready to live in 
the world and not apart from it. Until Iraq makes that decision 
and lives by it, we will remain resolute.
    Mr. Chairman, as we continue to look at our various 
responsibilities, I would just like to touch on a region of the 
world that perhaps we do not spend enough time thinking about, 
talking about. I want to talk about Africa for just a few 
moments.
    In March 1999, when I was in Nigeria to help President 
Carter supervise the national elections, I was impressed by the 
newly elected President's courage and his commitment to 
bringing democracy to his troubled country. President Obasanjo 
is now confronting the pressures of massive indebtedness, 
ethnic division, and the twin legacies of colonialism and 
military misrule. We will need to help him to consolidate his 
gains, help that comes most vitally in the form of debt relief, 
investment and trade, and full support for the democracy he is 
trying to create.
    One of the most important actions the Congress undertook 
this past year was the passage of the African Growth and 
Opportunity Act. And I congratulate the Congress for that act. 
Free trade is important the world over, but different regions 
require different formulas for fostering free trade. This act 
is the right way to begin bringing Africa into the more 
prosperous world of free flowing capital and open markets.
    With powerful economies such as South Africa's and 
eventually Nigeria's and other transforming African States', we 
begin to change the lives of Africa's poorest people who are so 
desperately in need. And we need to help them. It is our 
obligation. As we have obligations in other parts of the world, 
I believe we have an obligation to the people of Africa.
    And then returning to the Western Hemisphere, there are 500 
million people who live in this wonderful hemisphere of ours, 
people with whom we share common borders, most economic values, 
and with the exception of that relic in Cuba, a pervasive 
belief that people who are free and govern democratically are 
people who will keep the peace and create and sustain a 
prosperity that will benefit all of us.
    President-elect Bush is especially alert to this region. As 
a Governor, he dealt frequently with Mexico, a neighbor whose 
recent election proved once again the sweeping power of 
democracy.
    We must never neglect our own neighborhood. I am so proud 
of what has happened in the last 12 years. When I was National 
Security Adviser just 12 short years ago, we had dictatorships 
all over the place. We had generals running countries. We had 
tyrants running loose, and now 12 years later, all of those 
nations, in one form or another, are on a path to democracy and 
the free enterprise system with difficulties. It is not an easy 
path. Only Castro's Cuba remains behind, destined to remain 
behind, trapped in the 1950's until they see the error of their 
ways.
    One country that will be uppermost in our mind is Colombia. 
Colombia is a country in difficulty. Their democracy is in 
difficulty. President-elect Bush has met with President 
Pastrana. Their visit was a good one, and President-elect Bush 
came away with a solid impression of the dedication that 
President Pastrana has to the key issues: fighting the scourge 
of illicit drugs that are threatening Colombia's very democracy 
and encouraging the insurgency that attacks that democracy.
    So, the new administration will support Plan Colombia, a 
plan to send in $1.3 billion of American aid to help the 
Colombian people deal with this emergency. At the same time, we 
have to do everything we can here at home to eliminate the 
cause of that emergency, and that is American citizens using 
drugs. We have to make sure that is an essential element of our 
strategy for Colombia as well.
    Mr. Chairman, members of the committee, I know I have taken 
your time, but I wanted to touch on some of the areas and 
particular relationships that I know were of greatest 
importance to you. I want to close by just touching on a few 
other areas that are cross-cutting.
    First, the United Nations. I too want to express my thanks 
to you, Senator Helms, and you, Senator Biden, and your 
colleagues for the superb work you did in bringing a solution 
to this problem and getting it off the table before the Bush 
administration comes in. I especially want to congratulate my 
good friend, Ambassador Dick Holbrooke, and also Secretary 
Albright and so many others for the wonderful work they did.
    I hope now to work with the committee to make sure we 
remove all the remaining problems that we have with our U.N. 
relationship. I have seen what the U.N. can do over the years. 
It is a great organization. It is deserving of our support. It 
has represented our interests and the interests of freedom-
loving people around the world. And I look forward to an early 
meeting with Secretary General Kofi Annan to let him know of 
our desire to work very closely with the United Nations.
    I also want to comment, Mr. Chairman, on the role played by 
non-governmental organizations. What a wonderful job they do 
around the world and how they support our foreign policy. I 
could not help but note that in your remarks last week to the 
AEI, you took note of that, to the extent of saying--and I was 
very pleased to hear this, Senator Helms--that you would be 
willing to increase foreign aid funding if we could find 
perhaps a new model in which to encourage non-governmental 
organizations to receive that funding. I want to say to you 
that I look forward to working with you and other members of 
the committee in finding ways to satisfy your concerns about 
the way we do business at USAID and at the State Department so 
that we can get that additional funding to help spread 
democracy and freedom around the world.
    Mr. Chairman, these are very exciting times and the State 
Department will do its best to assist President-elect Bush as 
he leads America's foreign policy. We understand also that 
there are cross-cutting issues that do not simply fit in any 
one region, whether it is terrorism or whether it is 
environmental concern, whether it is the tragedy of AIDS and 
tuberculosis and other similar scourges that are facing 
mankind. The State Department will not only be looking 
regionally, but I will try to do a better job of looking across 
those functional areas to make sure we discharge our 
obligations.
    In my discussions with you and other members of the 
committee, I know there has been concern also about the manner 
in which the State Department is managed. I can assure you that 
this will be a major priority for me. I may be the President's 
foreign policy adviser, but I am also the leader and manager of 
the Department of State. I have a responsibility to you, but 
more importantly, I have a responsibility to the men and women 
of the State Department to give them the very best leadership 
that I can. And I will be looking to you for that support.
    Mr. Chairman, I thank you for your indulgence. I think 
these are exciting times in which to be living, exciting times 
to watch the world start to respond to the power of democracy 
and the free enterprise system, exciting times to watch the new 
President take office and to bring with him a belief in those 
values, a new President who, when he takes his oath of office 
this Saturday, I think will make America proud as he speaks 
about the values which have fueled us from the days that the 
first Secretary of State designate appeared before the Senate 
for his confirmation.
    I am honored to be following in the footsteps of Thomas 
Jefferson and in the footsteps of George C. Marshall, two 
giants. I am in their footsteps. I can never be in their 
shadow, but I will try to do my very, very best. I am proud to 
be the first African-American to be Secretary of State of the 
United States.
    But I am very, very honored to be the first African-
American Secretary of State designate and Secretary of State, 
if you so confirm my appointment, honored to be following in 
the footsteps of Secretary Albright who did such a terrific job 
as the first woman Secretary. I think it shows to the world 
what is possible in this country. It shows to the world, follow 
our model and over a period of time, from our beginning, if you 
believe in the values that we espouse, you can see things as 
miraculous as me sitting before you to receive your approval.
    When I first entered the United States Army in 1958, just a 
few years ago, my generation, it would have been unthinkable, 
but it has happened and it is a tribute to the miracle of our 
Nation and the miracle of Thomas Jefferson and his colleagues 
who gave us this wonderful place that we try every day to make 
a more perfect union.
    Thank you very much, sir.
    [The prepared statement of Mr. Powell follows:]

                 PREPARED STATEMENT OF COLIN L. POWELL

    Thank you, Senator Warner, and you Senator Allen, for those very 
kind and generous introductory remarks. I look forward to working with 
both of you in the days ahead. The great State of Virginia is well 
represented in the United States Senate.
    Mr. Chairman, members of the committee, I am honored to have been 
nominated by President-elect George W. Bush to be America's 65th 
Secretary of State, and to be here seeking your approval and the 
approval of the full Senate of that nomination.
    I am pleased that you have asked my wife, Alma, to be here. This is 
a proud moment for us both and for our family.
    Mr. Chairman, these proceedings mark the 64th renewal of a long and 
honored tradition that began when the 26 Members of the first U.S. 
Senate met to consider the nomination before them, that of Thomas 
Jefferson of Virginia.
    When Jefferson took office in 1790, a cynical and tired Europe 
laughed in derision at the thought that ``popular government''--as it 
was called in that day--might work in even one country, much less the 
world.
    And all of us can remember just two decades ago when noted experts 
in academic journals wrote of the weakness and possible demise of 
democratic institutions in the face of dictatorial power.
    We know that those articles were appearing at the very moment when 
Jefferson's ideas of liberty and self-government were about to prove 
another generation of cynics wrong.
    Ideas that were going to, as Jefferson prayed, ``flow through 
time'' and ``spread their happy influence over the face of the earth,'' 
as people behind the iron curtain and around the world threw off the 
yoke of totalitarianism.
    Jefferson's ideas and Jefferson's prayers were ahead of the time in 
which he lived and ahead of the man himself.
    Let us pause during this week of celebration of the life of Dr. 
Martin Luther King, Jr., and reflect on how Dr. King helped to answer 
Jefferson's prayers of freedom for Black Americans whose forebears were 
held to be property, slaves, in Jefferson's custody.
    I am before you today as Jefferson's admiring successor, thankful 
for all the sacrifices that were made by Dr. King and so many others to 
make this American dream possible. A dream that I hope will continue to 
inspire my fellow Americans and people around the world.
    There is still so much more to be done here at home and overseas.
    President-elect George W. Bush understands that dark shadows still 
linger over the edges of the American dream for many. He intends to 
remove those shadows. He will be a president for all Americans. And he 
will be a leader who will faithfully represent the ideas of freedom and 
justice to the world.
    And for those who believe that America's emphasis on human rights 
in the world may wane during the coming administration, I say simply, 
keep watching. President-elect Bush will always be mindful of the 
sanctity of the individual as opposed to the state, and the precious 
rights that keep that sanctity intact. From political prisoners to the 
rights of women, there will be no diminishment of concern or action.
    As you know, Mr. Chairman, I am no strarger to this committee.
    I remember working late nights in 1987 with Senator Helms to finish 
the INF Treaty which resulted in the destruction of an entire class of 
nuclear weapons. I remember testifying at hearings chaired by Senator 
Biden on the CFE Treaty which reduced the conventional threat in 
Europe.
    We worked together then in a spirit of cooperation to benefit the 
nation. If confirmed, I promise you that I will follow that spirit of 
cooperation and bipartisanship in all my dealings with the committee 
and with the Congress.
    We will need to work well together because we have a great 
challenge before us. But it is not a challenge of survival. It is a 
challenge of leadership. For it is not a dark and dangerous ideological 
foe we confront, but the overwhelming power of millions of people who 
have tasted freedom. It is our own incredible success that we face.
    I have seen that success in the seven years since I stepped down 
from the chairmanship of the Joint Chiefs of Staff.
    More and more nations moving onto the path of democracy and the 
free enterprise system.
    Here at home a soaring economy, driven by the power of the 
information and technology revolutions.
    The rise of democracy and the power of the information revolution 
combine to leverage each other. Until recently, I was on the board of 
directors of one of the hundreds of companies in the front ranks of 
this information revolution.
    From that vantage point, I had a chance to see some of the 
wonderful developments that are transforming our world with 
breathtaking speed and dramatic depth.
    Over one hundred million people are connected by this company and 
its various services. They can instant-message, they can e-mail, they 
can trade photos, papers, ideas, dreams, likes and dislikes--all 
without customs posts, visas, passports, tariffs, guard towers, or any 
other way for governments to interfere. With the speed of light, they 
can communicate. With the speed of light, the concept of freedom can 
travel around the world.
    If such ideas move around now with the speed of light, they are 
also like the light--darkness cannot withstand them. Eventually, they 
will flow into every dark place and illuminate that place for the 
betterment of humankind.
    Two of the most important of these ideas are democracy and 
capitalism. They are like twin lasers, working in tandem all across the 
globe to illuminate the last dark corners of totalitarianism and 
dictatorship. The ideological--isms have all died away--fascism, 
Nazism, communism--leaving only the dregs of abused and misused power 
lying in their wake.
    In this refuse, dictators remain. But these are relics of the past 
and the ``isms'' they practice can't destroy us, can't overthrow us, 
can't end our way of life. They can be dangerous and require our 
attention, but they can't hurtle the Atlantic in 30 minutes and end our 
civilization.
    Democracy and free markets work and the world knows it. There is no 
finer example of this than America and her allies, who together 
comprise the strongest economies in the world.
    There should be no question in any world leader's mind that the 
first and most essential ingredient for economic success is a free 
people--and a government that derives its right to govern from the 
consent of such people.
    A guiding principle of President-elect Bush's foreign policy will 
be that America stands ready to help any country that wishes to join 
the democratic world, any country that puts the rule of law in place 
and begins to live by that rule, any country that seeks peace and 
prosperity and a place in the sun. In that light, there is no country 
on earth that is not touched by America for we have become the motive 
force for freedom and democracy.
    And there is no country in the world that does not touch us. We are 
a country of countries, with a citizen in our ranks from every land. We 
are attached by a thousand cords to the world at large--to its teeming 
cities, to its remotest regions, to its oldest civilizations, to its 
newest cries for freedom.
    This means that we have an interest in every place on this earth, 
that we need to lead, to guide, to help in every country that has a 
desire to be free, open, and prosperous.
    So, Mr. Chairman, this is a time of great opportunity for us. We 
have the strength to take risks for peace. We must help the world that 
wants to be free.
    And we can take risks because we have an insurance policy in 
force--the Armed Forces of the United States, the finest in the world. 
And they will remain the finest in the world, with the best people, the 
best equipment, and the best training.
    The Armed Forces are just one member of our national security team. 
There are many others. And if you confirm me, I will become the leader 
of one of the most vital members.
    It is the State Department and its talented and dedicated 
professionals who are in the forefront of our engagement with the 
world. While the world has been growing more complex and demanding, we 
have cut the number of people in the State Department, we have 
underfunded our facilities accounts, we have neglected our 
infrastructure. We need to do better.
    Some of you may have visited Camp Bondsteel in Kosovo where our GIs 
are stationed. It is a superb, first-class facility, put in almost 
overnight to make sure our troops were taken care of. But if you 
visited some of the dilapidated embassies and other State Department 
facilities in the region you would wonder whether the same government 
was taking care of them.
    We have exceptional people in the State Department, many of whom 
I've met personally over my years of public service or over the last 
few weeks of transition.
    And if we want them to do the people's work, we must give them the 
resources to do it. In that regard, I want to thank you for what you 
gave the Department for this fiscal year.
    But I will be coming back to you because I know that we do not have 
enough to accomplish the mission that is before us.
    As soon as I have put together the specific programs, and the 
dollar details to support those programs, I'll be back. Put it on your 
calendars: If you approve my appointment and the full Senate approves 
it, I'll be back. That's a promise.
    Now you expect to hear how the Bush team views some of the key 
issues in world affairs, so let me turn to that.
    In what President-elect Bush has called ``a distinctly American 
internationalism,'' there is no inclination whatsoever to have our 
nation withdraw from the world into a fortress of protectionism or an 
island of isolation. As President-elect Bush has also said, ``America 
must be involved in the world.''
    And we must be involved according to our national interests and not 
in some haphazard way that seems more dictated by the crisis du jour 
than by serious, thoughtful foreign policy.
    That said, as you well know, there has been a remarkable continuity 
in our world outlook over the years, no matter what political party was 
in power or who occupied the White House. It is one of the great 
strengths of our system.
    From the early days of our young republic when Secretary of State 
John Quincy Adams protested that ``we would not be a cock-boat in the 
wake of the British man-of-war,'' to the days of the great trans-
Atlantic Alliance that under our leadership has proven the strongest in 
world history, America has dealt with the world in an admirably 
consistent way.
    We propose no change in that regard. You will note much that is 
traditional and consistent in my presentation.
    There is one such tradition in foreign policy that we will adhere 
to closely--we will always be very, very clear about things we believe 
in strongly.
    No ally, friend, or enemy will ever be unclear about where we stand 
on a matter that touches our heart and soul and our basic interests.
    For example, we believe strongly in NATO. It is the bedrock of our 
relationship with Europe. It is sacrosanct. Weaken NATO and you weaken 
Europe, which weakens America. The value of NATO can be seen by the 
fact that ten years after the Cold War, nations are still seeking to 
join the Alliance. The Alliance is as relevant for the future as it was 
in the past. It did not threaten Russia in the past and will not in the 
future.
    Historic change is occurring in Europe, as the recent summit in 
Nice indicated. Europeans are striving in their own way and in their 
own time for their own ``more perfect union.'' This striving includes 
foreign policy and defense needs. We welcome a more integrated, robust, 
and a stronger Europe--an all the more capable partner in the 
challenging times ahead.
    Our European allies are in the midst of important efforts to 
improve their defense capabilities. We will support any such effort as 
long as it strengthens NATO, not weakens it.
    What happens within that great Alliance and what happens to it, 
must comport with its continued strength, resilience, and 
effectiveness. We will oppose any move that does not.
    To our west, a similar bedrock exists. It is our strong 
relationships with our Asia-Pacific allies and friends, particularly 
Japan. Weaken those relationships and we weaken ourselves. All else in 
the Pacific and East Asia flows from those strong relationships.
    With these fundamentals in mind, as we look to the Pacific we come 
first to China.
    China is a giant--a giant trying to find its way in the world, with 
a communist leadership still, yet with distinctly Chinese textures that 
belie any real categorization other than capitalism now weaves a strong 
strain throughout.
    Our challenge with China is to do what we can that is constructive, 
that is helpful, and that is in our interests. Japan, South Korea, 
Australia, and our other allies and friends in the region have a stake 
in this process of nurturing a constructive relationship--and we will 
want to work with them in responding to a dynamic China.
    With full membership in the World Trade Organization, with 
increasingly responsible behavior in the region and in the world, and 
most vitally with increased freedom for the Chinese people, China may 
yet fulfill the promise that Sun Yat-sen began almost a hundred years 
ago.
    But in the meantime, we will treat China as she merits.
    A strategic partner China is not. But neither is China our 
inevitable and implacable foe. China is a competitor and a potential 
regional rival, but also a trading partner willing to cooperate in the 
areas--such as Korea--where our strategic interests overlap. China is 
all of these things; but China is not an enemy and our challenge is to 
keep it that way.
    The U.S. has long acknowledged the view that there is only one 
China. In that respect, Taiwan is part of China. How the PRC and Taiwan 
resolve the differences in interpretation of that view is up to them--
so long as military force is not one of the methods used.
    In the meantime, we will stand by Taiwan and we will provide for 
its defense needs in accordance with our Taiwan Relations Act, which is 
the foundation for our commitment to that hard-working and prosperous 
democracy. Let all who doubt, from whatever perspective, be assured of 
one solid truth: We expect and demand a peaceful settlement, one 
acceptable to people on both sides of the Taiwan Strait. This is one of 
the fundamentals that we feel strongly about and that all should be 
absolutely clear about.
    Likewise, when we look out across the Atlantic, we find another 
giant trying to find its future.
    Our challenge in this direction is to help the Russian people come 
to grips with their future--solidifying their democracy, restructuring 
their economy to support that democracy, joining the wider world in 
every respect, and moving positively and swiftly toward lower levels of 
nuclear weapons, greater stability on their periphery, and a firmer, 
more permanent peace for themselves and for the people of the region.
    Our relations with Russia must not be dictated by any fear on our 
part. If we believe that the enlargement of NATO should continue, for 
example--and we do--we should not fear that Russia will object.
    Instead we should deal with Russia's objections and find a way to 
address them. NATO is not aimed at Russia; NATO is aimed at the peace 
of Europe. And Russia is European too, after all.
    And Russia is also Asian and, as we might expect of a country of 
eleven time zones and with enough strategic depth and courage to stop 
both Napoleon and Hitler, Russian influence goes both ways, east and 
west.
    So Russia is a country that can gain enormous benefits from its 
relationship with us and with the West in general. But that 
relationship can only be a strong and successful one if Russia does 
what it needs to do.
    And what it needs to do, as President-elect Bush has said, is to 
get on with reform--in particular by firmly establishing the rule of 
law, rooting out corruption, stopping proliferation of missile 
technology and nuclear materials, ending sales of destabilizing 
conventional weapons to nations such as Iran and, in general, living up 
to the obligations it has incurred as the newest democracy with world 
power credentials.
    One such obligation can be found in Chechnya, where the Russians 
have much to accomplish. Above all, they must achieve a political 
settlement, the only way to end the conflict and bring peace to the 
area. At the same time, they must observe internationally recognized 
norms, such as those of the Geneva Conventions, they must meet their 
commitments to the UN and to the OSCE, and they must allow humanitarian 
assistance organizations to have access to civilians.
    And we are prepared to do our utmost to help Russia in all its 
efforts to become a responsible member of the world community--as, for 
example, we have in the OSCE with respect to Chechnya.
    In the end, the world may see the enigma inside the riddle wrapped 
up in the mystery that is Russia, deciphered, solved, and unwrapped. 
But the magician who does that can't be us, or anyone else in the 
world. It can only be the Russian people.
    Looking back to the Pacific, we come to our bilateral relationship 
with the Republic of Korea, a land seeking a historic reconciliation, 
one that we support and will help facilitate.
    But so long as the dictator in the north continues to field far 
more conventional military force than any conceivable sense of self 
defense would warrant, and develops missiles and unconventional 
weapons, we and our allies in the Pacific will remain vigilant.
    In conjunction with Secretary-designate Rumsfeld, we will review 
thoroughly our relationship with the North Koreans, measuring our 
response by the only criterion that is meaningful--continued peace and 
prosperity in the South and in the region.
    We believe that the reduction of tensions between the North and 
South is one of the keys to greater peace and stability on the Korean 
Peninsula. The ongoing North-South dialogue is certainly a positive 
step in this regard.
    Secretary Albright has made me aware of the status of discussions 
with the North Koreans. So we are mindful of all the work that has been 
done and will use it as we review our overall policy on the Peninsula. 
In the meantime, we will abide by our commitments under the Agreed 
Framework provided that North Korea does the same.
    We are open to a continued process of engagement with the North so 
long as it addresses political, economic, and security concerns, is 
reciprocal, and does not come at the expense of our alliance 
relationships.
    And in our review of the situation on the Peninsula, the Bush 
administration will be looking closely at our defense posture.
    As you know, once confirmed, Secretary Rumsfeld will be conducting 
the comprehensive review of our military called for by the President-
elect. I know that Secretary Rumsfeld shares my view that our defense 
posture must match our east-west obligations. We must have sufficient 
military might for the Atlantic, mainly in NATO, and for the Pacific, 
largely in Korea and Japan. And our defense capabilities must also 
provide for deterrence and force projection in the Persian Gulf.
    Our 37,000 GIs on the Korean Peninsula, along with their well-
trained and well-motivated Korean counterparts, are a clear signal of 
our resolve and interest in the Pacific, as are our Japan-based 
soldiers, sailors, airmen and Marines.
    Our troops in Europe, and our strong allied forces, afford the same 
clear and definite interest in that direction.
    As Secretary-designate Rumsfeld studies our defense needs in this 
new century, I know this important bi-directional requirement will be 
uppermost in his considerations.
    I support the need for forces to provide presence in these regions 
and to be able to deter and fight regional conflicts which might occur 
near-simultaneously.
    Of course, the United States can't do it all alone--we need our 
allies and friends to help us with the security challenges of the new 
century. Looking to the South Pacific, we know that Australia, our firm 
ally in Asia and the Pacific, has a keen interest in what is happening 
in the region, particularly in Indonesia. So we will coordinate our 
policies and our actions in this important area with our long-time 
Australian friends.
    Indonesia, as you well know, is a state that stretches from east to 
west as far as New York is from San Francisco. And this nation is 
undergoing enormous change.
    Our relations with this hugely important country need careful 
attention. President Wahid is attempting to undo years of neglect while 
at the same time hold together a fractious population--a population 
much affected by that flow of ideas I mentioned earlier.
    Turning again to the Atlantic, President-elect Bush has promised to 
look closely at our commitments in the Balkans, with the hope of 
reducing our troop levels there over time and in consultation with our 
allies.
    This will be part of a much more comprehensive review of all of our 
commitments, not simply those in Bosnia and Kosovo.
    We must always be mindful of the uniqueness of America's armed 
forces. We possess the only military in the world that can go anywhere, 
any time, support ourselves over the long haul, and do it all in an 
overwhelming and decisive manner if need be. Tying down such forces is 
often imprudent. We need to consider these points whenever we feel the 
need to use our armed forces for peace operations that promise long or 
undetermined duration.
    We must consider also that when we deploy our military, whether for 
peace operations or potential conflict, they are vulnerable to more 
than simply conventional weapons.
    While such weapons constitute the primary threat to our men and 
women in uniform, our GIs are also vulnerable to weapons of mass 
destruction delivered by missiles, as are the militaries and civilian 
populations of our allies and our friends.
    Theater Missile Defense is therefore an important requirement for 
our forces. Working with Secretary-designate Rumsfeld, we will review 
where our technology is today for TMD and also for National Missile 
Defense.
    As you are aware, President-elect Bush has made it quite clear that 
he is committed to deploying an effective missile defense using the 
best technology at the earliest possible date. We will be developing a 
plan for the way ahead--including looking at the diplomatic 
ramifications.
    I believe it is important that we look at missile defense within 
the context of our entire strategic framework.
    This framework includes offensive nuclear weapons, our command and 
control systems, our intelligence systems, arms control including our 
non-proliferation efforts, and missile defense.
    No one thinking soundly, logically, would construct a strategic 
framework with offense only. Not the New York Giants and not America.
    If we can put together a complete framework, one that includes all 
the strategic dimensions, including defense, we will be that much 
better off in our relations with both friend and foe.
    I still remember the original purpose of such a defense--that is to 
start diminishing the value of offensive weapons. That's important if 
we are serious--and we are--in our efforts to make the world a safer 
place with fewer nuclear weapons and with the ones that remain having 
less currency.
    There is no question that today we still need the offensive 
component of our strategic architecture because, in my mind, the 
greatest deterrent right now is the clear fact that we have the 
capability to destroy any tyrant who could fire a missile at us.
    This is another area where studied ambiguity is useless. With 
respect to our offensive component we still need a president who can 
stand on a DMZ, gaze into enemy territory, and let it be known without 
a second's hesitation that should a missile come from that territory 
there is no question as to what will happen next.
    While we design this complete strategic framework and decide these 
important issues on missile defense, there will be time to consult with 
our allies and friends to solicit their views and to ensure their 
understanding of what we are doing and, in some cases, their 
participation. We will also discuss this issue with the Russians and 
the Chinese, as we continue to operate on the arms control front as 
well.
    In that context, the ABM Treaty in its current form is no longer 
relevant to our new strategic framework. We hope to persuade the 
Russians of the need to move beyond it.
    Important in this regard also is to reduce further the number of 
excess nuclear weapons in the offensive part of the framework. There 
are still too many in ours and in Russia's stockpiles.
    And in Russia there are still thousands of nuclear weapons that may 
not be secure. This challenge was addressed in 1991 by you, Senator 
Lugar, and by your fellow Senator then, Senator Nunn of Georgia. Under 
the resulting program, security at many Russian nuclear facilities has 
been improved and warheads have been destroyed.
    But a great deal of Russian nuclear material cannot be accounted 
for. We need an accurate inventory of all this material. And we need to 
increase and reinforce our efforts to dismantle as many of Russia's 
weapons as possible, as quickly as possible.
    I am confident that we can continue to count on strong 
congressional support for these efforts, as has been the case in the 
past.
    We also need to review our approach to curbing the proliferation of 
weapons of mass destruction, which will have a high priority in the 
Bush administration.
    In that regard, the President-elect does not plan to ask the Senate 
to take up again for ratification the Comprehensive Test Ban Treaty. At 
the same time, he has said that we will not resume testing as there is 
no need to do so for the foreseeable future.
    I have reviewed the report by President Clinton's special advisor 
and my colleague General Shalikashvili, and we will be reviewing the 
recommendations he makes, especially those relating to the Stockpile 
Stewardship Program.
    Our primary emphasis in our efforts to curb proliferation, however, 
will remain twofold: to constrict the supply of nuclear materials and 
the means to deliver them and to discourage other countries from 
believing any gains will accrue from possession of such weapons. These 
two fundamentals will be at the heart of our non-proliferation policy.
    Mr. Chairman, let me now turn to the Middle East where, as you 
know, we have a major challenge to the peace process. I applaud the 
commitment of our past presidents in their tireless efforts to help 
find a resolution to this half-century-old conflict with its roots in 
antiquity. President-elect Bush shares this goal.
    We seek a lasting peace based on unshakable support for the 
security of Israel, the legitimate aspirations of the Palestinian 
people, our friendships in the Arab world, and a hard-headed 
recognition that the parties themselves must make the peace. We deplore 
the increased violence in the area and encourage the parties to do all 
possible to bring it to an end. You can't successfully pursue peace in 
the midst of such violence.
    We also pledge to focus our own efforts on the region as a whole 
and not just on the peace process itself. We are ready to work with all 
the parties in the region to achieve a comprehensive solution.
    Peace for Israel means peace with all her neighbors, Syria 
included, where we need to build on the opportunity created by Israel's 
withdrawal from Lebanon.
    And as we look at the entire region, Mr. Chairman, there is no more 
tragic case than Iraq, a failed state with a failed leader. It is sad 
to consider what it could be, what it should be, if only it used its 
vast resources and its talented people for constructive purposes.
    But instead of seeking peace and prosperity for its people, a 
weakened Iraq utters threats and pursues horrible weapons to terrorize 
its neighbors.
    We have seen what Iraq did to Teheran; we have seen what it did to 
Kuwait City, especially to the children of that city. We must not 
forget how Iraq treated those innocent children. We saw some of the 
effects on our television screens. We saw the aftermath when the 
Marines moved into the city after Desert Storm.
    The President-elect has made it clear that we will work with our 
allies to re-energize the sanctions regime.
    Critics will say that tightened sanctions mean more harm to the 
people of Iraq, especially the children.
    No one cares for children more than I do. And I understand that a 
nuclear, biological, or chemical weapon in the hands of Saddam Hussein 
threatens the children of not only Iraq but the entire region far more 
than tightened sanctions whose ultimate goal it is to prevent such a 
weapon.
    The problem in Iraq is not with tightened sanctions. From its 
inception, the sanctions regime has included means by which Iraq could 
import whatever food and humanitarian assistance it required. The 
problem, Mr. Chairman, lies with a leader that continues to deny his 
people the basic necessities of life in a cynical attempt to manipulate 
public opinion both inside Iraq and in the wider world.
    We need to be vigilant, ready to respond to provocations, and 
utterly steadfast in our policy toward Saddam Hussein, and we need to 
be supportive of opposition efforts.
    The burden should be on Iraq to prove to the region, to the UN, and 
to its neighbors, and to its neighbors' children that they are no 
longer threatened, that Iraq is ready to live in the world and not 
apart from it. Until Iraq makes that decision and lives by it, we will 
remain resolute.
    America has no quarrel with the people of Iraq. We look forward to 
the day when that country rejoins the family of nations and resumes 
normal diplomatic and commercial relations with us and with the rest of 
the world.
    On the other side of the Persian Gulf, Iran is a different case--an 
important country undergoing profound change from within. We have 
important differences on matters of policy. But these differences need 
not preclude greater interaction, whether in more normal commerce or 
increased dialogue. Our national security team will be reviewing such 
possibilities.
    Mr. Chairman, as we continue to look at our responsibilities across 
the Atlantic, we need to maintain our outreach to Africa--and with more 
substance.
    In March of 1999 when I was in Nigeria to help President Carter 
supervise the national elections, I was impressed with the newly-
elected president's courage and with his commitment to bringing 
democracy to his troubled country--a country with enormous potential. 
President Obasanjo is now confronting the pressures of massive 
indebtedness, ethnic division, and the twin legacies of colonialism and 
military misrule. He will need help to consolidate his gains--help that 
comes most vitally in the form of debt relief, investment and trade, 
and full support for the democracy he is trying to create.
    One of the most important actions the Congress undertook this past 
year was the passage of the African Growth and Opportunity Act. Free 
trade is important the world over, but different regions require 
different formulas for fostering free trade. This Act is the right way 
to begin to bring Africa into the more prosperous world of free-flowing 
capital and open markets.
    Open trade is an enormous force, as you know Mr. Chairman. It 
powers more than just economic reform and growth; it creates better 
relations between nations. We prefer that the WTO lead the way in such 
matters but we are interested also in initiatives that expand trade at 
the bilateral and regional levels. Valuable in themselves, such 
initiatives also create way stations on the road to a new global 
accord.
    The African Growth and Opportunity Act is such a stepping stone. 
With powerful economies such as South Africa's, and eventually 
Nigeria's and other transforming African states, we can begin to change 
the lives of Africa's poorest peoples.
    We know also that Africans must do more for themselves. In Nigeria, 
this means full speed ahead with privatization and opening further the 
Nigerian economy. In Sierra Leone, Liberia, Angola, the Congo, and 
elsewhere, this means stopping the killing, taking the weapons out of 
the hands of children, ending corruption, seeking compromises, and 
beginning to work in peace and dialogue rather than war and killing. It 
means giving the profits from oil and diamonds and other precious 
resources to schools and hospitals and decent roads instead of to 
bombs, bullets, and feuding warlords.
    Returning to our own side of the Atlantic, here in the Western 
Hemisphere, there are 500 million people with whom we share some 
borders, most economic values and, with the exception of the relic in 
Cuba, a pervasive belief that people who are free and governed 
democratically are people who will keep, the peace and create and 
sustain a prosperity that will benefit us all.
    President-elect Bush is especially alert to this region. As a 
governor, he dealt frequently with Mexico, a neighbor whose recent 
elections proved once again the sweeping power of the changes occurring 
in our world--as you recently recognized, Mr. Chairman, along with 
several other committee members, in your sponsorship of Senate 
Resolution 335 congratulating the people of Mexico.
    We must never neglect our own neighborhood. We must help solidify 
democracy's hold, open markets even further, and encourage at every 
opportunity the kind of economic policies that support and bolster the 
greater freedom of the region's peoples. In this regard, NAFTA was a 
great step forward and a bilateral Free Trade Agreement with Chile will 
continue that progress.
    As a goal, President-elect Bush wants free trade agreements with 
all the countries of Latin America. We are well aware that the one-
size-fits-all approach is not always the answer, but the ultimate goal 
is free trade from the Yukon to Cape Horn.
    We have come a long way from the days of gangsters in Panama, 
communists in Nicaragua, and insurrections in El Salvador and 
Guatemala. We must stay on that road to progress. Making prosperous 
economies based on solid democracies is the best way to do that. And 
also helping where we can with humanitarian assistance, as is happening 
right now with Army medical troops and engineers from our units in 
Honduras in response to the tragic earthquake in El Salvador.
    With respect to bolstering democracy, we are especially interested 
in Plan Colombia.
    As you may be aware, President-elect Bush has met with President 
Pastrana. Their visit was a good one and the President-elect came away 
with a solid impression of his dedication and earnestness on two key 
issues: fighting the scourge of illicit drugs and ending the insurgency 
that threatens Colombia's democracy.
    We support the actions by the Congress and President to send aid to 
Colombia. We believe that this money, some $1.3 billion from America, 
should be used to help the Colombian government to protect its people, 
fight the illicit drug trade, halt the momentum of the guerrillas, and 
ultimately to bring about a sensible and peaceful resolution to the 
conflict that has ravaged Colombia for so long now.
    There is another country, Mr. Chairman, that I want to mention 
before I leave this regional perspective, a country that should grow 
more and more focused in the lens of our foreign policy. That country 
is India.
    We must deal more wisely with the world's largest democracy. Soon 
to be the most populous country in the world, India has the potential 
to help keep the peace in the vast Indian Ocean area and its periphery. 
We need to work harder and more consistently to assist India in this 
endeavor, while not neglecting our friends in Pakistan.
    As you know, this is a delicate process in the midst of what by any 
accurate account would be labeled an arms race between these two 
countries. Recently, however, there have been encouraging signs, 
including India's extended moratorium on operations in Kashmir and 
Pakistan's restraint along the Line of Control.
    Mr. Chairman, as I talk about these regions of the world I must 
mention the increasingly important and dramatically larger role played 
today by non-governmental organizations.
    As all of you are aware, NGOs have been around a long time. And 
over that time they have done much good work. I think about World 
Vision's programs in Africa and I remember some of my adopted children 
from my time at America's Promise, little 6th, 7th, and 8th graders 
from the District of Columbia, who actually fasted for 30 hours at a 
church near my home--St. Thomas' Episcopal Church in McLean, Virginia.
    Under careful supervision, they refrained from eating or drinking 
anything substantial while they sat through classes on the projects 
that World Vision was managing in several African countries. During the 
course of the day and late into the night, these children were 
profoundly moved by what they saw and heard.
    So moved, in fact, that they went door-to-door the next morning and 
collected hundreds of dollars for World Vision's programs in Africa.
    These youngsters recognized intuitively how important World 
Vision's work was to the young children and families of these African 
countries.
    We recognize that importance too. Today, NGOs are in every region, 
laboring away at their many tasks. As President-elect Bush has remarked 
about the vital nature of faith-based and voluntary private and non-
profit institutions and their role in America, so we must realize how 
necessary is the work of the NGOs to our wider purposes in the world.
    The Bush administration will ensure that there is always a place 
for NGOs in the developmental, humanitarian, and peace-keeping efforts 
we undertake. We need their professionalism, their focused in-country 
knowledge and expertise, and their dedication to good works.
    Senator Helms recognized such efforts just last week. And I salute 
his willingness to put more dollars in the foreign aid budget if we can 
make their dispensing more effective, more efficient, and closer to the 
need. And I will be looking to him and to other of the members to help 
me in the redesign, if need be, of the organizational structure for 
doing that.
    Let me say here that I know that many members of the committee are 
critical of the organization and management of the State Department. I 
will make this a top priority of my stewardship. We can't get the job 
ahead of us done unless the State Department operates in the most 
efficient manner possible. That is my responsibility. I am the leader 
and chief manager of the Department, as well as the President's 
principal foreign policy advisor. I will not shirk that responsibility.
    Mr. Chairman, members of this committee, one of President-elect 
Bush's principal foreign policy goals is that America go about its 
business in the world with the statesman-like demeanor required of the 
world's greatest democracy.
    We cannot do this well if we refuse to recognize one of the best 
tools for international diplomacy that American leaders of the past, 
along with other like-minded world leaders, saw fit to create, develop, 
and nurture.
    I mean the United Nations. In this regard, I am pleased to see the 
recent agreement whereby we will now pay our dues in accordance with a 
dues structure more in line with fairness, equity, and the idea that 
all should pull their weight in financing this important institution. I 
agree with the assessment of Senator Helms that this agreement is ``a 
real leap forward.''
    I also support our paying as promptly as possible the arrears that 
we have accumulated with the UN--so that this leap can be as far 
forward as we can jump.
    I know that you, Senator Helms, and you, Senator Biden, as well as 
other members of this committee had much to do with bringing about this 
agreement. I applaud your tireless efforts and the outcome they 
produced.
    I believe we will find great value in the United Nations in the 
future, as we have in the past. For while the future is full of 
promise, it also presents new and different challenges.
    The challenge of HIV/AIDS is one of these, as is the challenge of 
protecting and safeguarding the earth itself, the only livable 
environment we have.
    International organized crime--including trafficking in narcotics--
and international terrorism are two more such examples of these 
challenges that recognize no borders, no sovereignties. Our 
encouragement and support of international religious freedom is another 
issue that has no frontier.
    These challenges affect our lives and demand our attention. We must 
recognize, for example, that global infectious diseases such as AIDS 
have the potential to devastate economies, governments, peoples, and 
regions. Indeed, in much of sub-Saharan Africa that is too rapidly 
becoming the situation.
    In the next ten years, HIV/AIDS may kill one-quarter of Africa's 
population and reduce national economies by one-third--severely 
straining state structures many of which are already faltering. The 
increasing presence of this terrible disease in India and Russia bodes 
more devastation in the future.
    No longer is such devastation simply a cause for our sympathy, our 
charity, our reaching out to care for fellow humans--although these 
altruistic motivations are still vital to us as humans. Increasingly 
meeting such challenges successfully, appeals to even more basic 
instincts--caring for our own interests, paying attention to our own 
hope for survival on this earth.
    We must guard our citizens and our society against crime and 
terrorism as well. Nothing defeats our honest purposes in a more 
insidious way than organized crime, and international terrorism--the 
scourge of cowards with bombs and guns--must not be allowed to deter us 
from our steady course toward a freer and more prosperous world.
    Dealing with these non-traditional challenges will be as important 
as dealing with the more traditional ones.
    And I believe that in the future a revamped and reinvigorated 
United Nations will be a principal partner in meeting these new 
challenges.
    Mr. Chairman, members of the committee, the times are exciting. You 
can almost feel the change in the air. You can almost sense the 
transformation taking place.
    There are more people living in this world today than ever imagined 
possible by our forefathers--and they are freer than ever before.
    The resulting mosaic is beautiful, diverse, and full of promise. 
And our country is under a heavy obligation.
    Our preeminence in the two unstoppable world forces of democracy 
and capitalism, coupled with our unparalleled military power and our 
strong passion for peace and prosperity for ourselves and our friends 
and allies, places us under this heavy obligation. It is an obligation 
we must fulfill.
    We must help move our transforming world toward more and more 
freedom, toward increasing prosperity, toward a wider peace--while at 
the same time safeguarding and enhancing our own.
    What we do with our position of power over the next decades will 
mark this earth irrevocably for good or bad.
    It will do so both physically and spiritually, for our power 
extends over everything from economics to the environment, from music 
to the cinema, from literature to the sciences, from genetic adaptation 
to human frailty and disease.
    What a time this is for dedicated public service!
    Were our Founders alive today, they would rejoice at our prospects. 
Jefferson would be astonished at the incredible increase in our 
population--but mostly because we are largely in cities. Hamilton would 
also be astonished at our size--but would relish the revenue-gathering 
possibilities.
    And if Washington were here, well, he would be content. The old 
warrior-statesman understood the potential America possessed as well as 
any man alive at the time.
    His only significant concern, I believe, would have been what was 
his primary concern when he was President over 200 years ago.
    Washington called it ``faction.''
    To argue that politics stopped at the water's edge, or that there 
was no partisanship or special interests in foreign policy in his day, 
as some modern pundits do, would have made him roar with laughter, 
followed perhaps by a smoldering rage--as he further considered that 
assessment in light of his personal experience as President.
    The Jeffersonian preference for the French as opposed to the 
Hamiltonian preference for the British, all by themselves, offered to 
Washington's eight years in the Presidency as much ``faction'' in 
foreign policy as any President could want--or learn to hate.
    It would be disrespectful of our history, therefore, for me to sit 
here and ask you, and by implication all of your fellow Senators, to 
grant the President-elect and his national security team a bipartisan 
approach to foreign policy.
    More importantly, it would be disrespectful of our method, our 
proven political process whose main way of revealing truth to power is 
the exquisite mechanism of checks and balances built into its very 
fabric, its very essence.
    What I will ask for, then, is not bipartisanship in the conduct of 
America's foreign policy but dispassion and grace--characteristics so 
descriptive of our first President.
    Let us discuss our differences without the anger and bitterness 
that has sometimes characterized discussions in the past--and let us 
with grace and dignity agree to disagree, if that be the case.
    Above all, let us always remember the profound wisdom of our 
Founders--that in our grace and our dispassion and our reasonable 
discourse, no matter how much we may occasionally disagree, lies the 
surest foundation for our well representing the American people in the 
conduct of their foreign policy.
    If we do these things, I believe we can fulfill our enormous 
obligation to America and to the world we lead. I believe we can seize 
the historic opportunity that lies before us.
    As America's official advocate the world over, the Department of 
State recognizes this opportunity in all of its dimensions. As an 
important member of the Bush team, we will play our considerable part 
in fulfilling the obligations of leadership. We will help President-
elect Bush and all of you make America the leader she ought to be, must 
be, will be.
    Thank you, and I welcome your questions and comments.

    Senator Biden. Thank you, Mr. Secretary.
    Chairman Helms and I were just consulting here. We have 10 
or 12 people here. We are going to break at 12:30. Chairman 
Helms suggests he may forego questioning in the first round. I 
will just ask one question in this first round. Obviously, we 
are not going to get to everyone here. We had originally agreed 
that there would be 10-minute rounds. My instinct tells me we 
should just stick to that and everybody can figure that out 
from here as to when they are going to get to question. Is that 
appropriate, Mr. Chairman? Does that work for you?
    Senator Helms. Fine.
    Senator Biden. Do you want to ask questions first?
    Senator Helms. You go ahead.
    Senator Biden. Mr. Secretary of State-designee--my friend 
does not like the phrase.
    General, I would like to ask you just two questions and 
acknowledge, as I told you at the outset, I am going to be 
leaving. I am supposed to introduce the outgoing National 
Security Adviser at a function downtown, and I am committed to 
do that and that was going to be at 12 o'clock. I will come 
back in a second round and ask you the few other questions I 
have.
    You mentioned national missile defense. You know that is an 
interesting concern of mine. Let me ask you, if you could get 
an ironclad agreement ending North Korea's long-range ballistic 
missile development programs and its sale of long-range missile 
technology to countries like Iran, would that give you a few 
more years or more time before you would need to deploy a 
national missile defense, years that you could devote to 
building a system that would be more effective and pose fewer 
concerns to our allies and our potential adversaries?
    Mr. Powell. I think if we could move North Korea in that 
direction and make it an ironclad, verifiable agreement about 
which there is no question not only what they are doing but 
what they are helping others do, that certainly would be 
factored into any calculation one would make about the threat. 
But there are still other nations that are moving in this 
direction, particularly Iran, and until Iraq comes into 
compliance and we can be assured of what they are able to do, I 
would say at this point we should continue to move ahead as 
aggressively as possible. We can always make a judgment later 
as to whether to deploy or slow the deployment, but I think at 
this point it would be very unwise to bet on the outcome that 
this threat will not be there in a few years. So, the 
President-elect is committed to moving forward, and I know that 
Secretary Rumsfeld is committed to getting into the Pentagon as 
soon as he can and taking a look at the development programs 
and seeing how fast we can move forward.
    Senator Biden. As you know, Mr. Secretary, many of us who 
are skeptical about national missile defense have, nonetheless, 
supported the expenditure of billions of dollars a year on 
research and billions of dollars a year, including next year, 
on pursuing the best missile defense technology possible. As 
you already know, our intelligence estimates are not as urgent 
as they relate to Iran and Iraq in terms of the timing as to 
when they may pose a threat.
    So, I am not suggesting--and I read from your answer that 
you are not suggesting--that we do not move forward in terms of 
determining what is the best system possible, but as I 
understand your answer, the question of deploying such a 
system, whatever is decided upon by this administration, might, 
in terms of its timing, be impacted upon by what is happening 
in the rest of the world.
    Mr. Powell. I would say we should move forward as rapidly 
as possible with the technology, and when a system is ready to 
be deployed, I am sure that a prudent President at that time--
and I am quite confident it will be President George W. Bush 
who will make a judgment at that time--as to the nature of the 
threat. And if the threat is there and if the threat is real, I 
am absolutely confident he will move forward with deployment.
    Senator Biden. I appreciate that and I appreciate the 
answer.
    I yield to Senator Hagel.
    Senator Helms. No.
    Senator Biden. You are going to ask a question. I am sorry.
    Senator Helms. Time me for 3 minutes and hit me on the head 
with the gavel if I take longer.
    I just want to elaborate just a bit. I know you have 
noticed that Billy Graham is not going to be able to do the 
prayer at the inauguration and that his son, Franklin Graham--
now, do you know Franklin?
    Mr. Powell. Yes, sir, I do.
    Senator Helms. I am sure you have the same high opinion of 
him.
    Now, I am open to suggestion and I am open to working with 
you and others about how to do it, but we have got to stop 
pouring the taxpayers' money down a bureaucracy that is almost 
dysfunctional. That was the point I made at the AEI the other 
day. When you get time, after you become Secretary of State, 
let us get a bunch of folks together on both sides and see what 
is the best answer to that because this money ought to go to 
people who are sick and who are hungry and not for salaries of 
bureaucrats. I will not go further than that, but thank you for 
your expression of interest in what I said last week.
    Mr. Powell. Thank you, Senator. I look forward to those 
conversations. Thirty-seven percent of money now flows to those 
NGO's, but I look forward to see what more we can do.
    Senator Helms. Fine.
    Chris.
    Senator Dodd. Thank you very much, Mr. Chairman.
    General, welcome to the committee. I look forward to 
casting a vote both here in committee and on the floor of the 
Senate in support of your nomination.
    Mr. Powell. Thank you, Senator.
    Senator Dodd. I congratulate the President-elect for making 
a very wise, wise choice. I am pleased that your family as well 
is in support of this. I know these are not easy decisions and 
it is important to have that kind of backing and support.
    You have been very comprehensive in your opening statement, 
covering a wide range of issues that are going to be the 
subject matter, obviously, of your tenure, as well as the work 
of this committee in the coming years.
    I will leave it for other times, but I have been 
particularly impressed with how you conducted your retirement, 
in a sense, with the efforts you have made on behalf of young 
people in the country and what you found in the America's 
Promise program. You are going to be an awfully busy 
individual, but I hope you will find some time to continue your 
efforts in that regard and maybe even find ways to expand it. 
The Alliance for Youth is a group dedicated to strengthening 
the character and confidence of America's young people. There 
are so many worthwhile things.
    While the concentration is obviously on this country's 
relationship to the rest of the world, one of the real concerns 
I think many of us have--it may be a reflection, in a sense, of 
what has happened even on this committee. I have often made the 
point to audiences at home that Senator John Fitzgerald Kennedy 
and Senator Jacob Javits had to wait 9 and 11 years, 
respectively, before they could win a seat on this committee. 
Today we have sometimes a hard time getting people who are 
willing to be a part of the foreign policy debate. It could be 
a reflection, in a sense, of the country's declining interest 
in some ways or failure to realize the importance of our 
relationship with the rest of the world.
    I would hope that as Secretary of State you might find a 
way to increase the level of awareness of how important these 
issues are. They have been important. Maybe the generation that 
came out of World War II, young people who never would have 
left this country, all of a sudden became aware of the Pacific 
theater and Europe and the importance of our involvement in the 
globe. As we have seen relative peace, with obvious exceptions 
we all know about, it seems to have less of an interest in some 
of these issues by too many people. So, I hope you might find a 
way in which to incorporate the tremendous work you have done 
with addressing this concern I have about people's appreciation 
of foreign policy.
    These committee confirmation hearings are obviously an 
opportunity for you to give us some ideas of your interests, 
and it also gives us an opportunity to share with you some of 
our particular areas of concern. While I am deeply interested 
in a lot of the subject matters that have been raised, over the 
years I have tried to concentrate my efforts a bit on the 
Western Hemisphere, not at the exclusion of everything else, 
but I have always thought that it may be more productive to 
find an area in which you develop some expertise and some 
knowledge and apply your energies in those areas. So, as a 
result I guess of my Peace Corps experience back in the 1960's, 
I have tried to concentrate some effort in Latin America and 
the Caribbean. Obviously, given your family history, this is an 
area I presume of strong interest as well.
    Mr. Powell. Yes.
    Senator Dodd. You mentioned Colombia. Let me just start 
there, if I can, and just raise with you a couple of concerns. 
I support this plan, the $1.3 billion plan. It is troublesome 
and I am worried whether or not we will be able to sustain this 
over the coming years. A lot of that will depend upon our 
ability to build strong support in the Congress and regionally 
as well. I agree with you. We have seen wonderful changes in 
the last 12 years, with the obvious exception of Cuba, which is 
still very much a dictatorship.
    But there are troublesome signs in the region as well. 
Obviously, Colombia is a pivotal one.
    The recent news out of Ecuador where we have seen now 
incursions into their territorial sovereignty there. President 
Nuboa is a very fine individual, but there was a change.
    Peru poses some difficulties.
    Haiti obviously has not lived up to the promise that I know 
you and I certainly wanted to see, particularly with your 
involvement there back in the early part of this decade.
    So, I wonder if you might just share a little bit with me 
your thoughts on the Colombian issue, if you can, beyond your 
statement, which I appreciate very, very much, on how we might 
do a better job of regionalizing this issue, to the extent that 
we involve other nations in helping us develop a plan that 
deals with the narco-trafficking issue, and also whether or not 
you believe that President Pastrana is sort of on the right 
track with this dual approach of dealing with the narco-
traffickers while simultaneously trying to engage the counter-
insurgency groups, the two particularly that are the most 
significant, the FARC and the ELN, in Colombia. Let me start 
there with you, if I could.
    Mr. Powell. Well, thank you very much, Senator Dodd. First 
of all, let me say I agree with your earlier comments----
    Senator Helms. Would you make it very brief because I am 
trying to get to as many Senators as I can. It is an awkward 
situation to have two chairmen.
    Mr. Powell. Well, thank you very much, Senator Dodd. Thank 
you for your comments about America's Promise.
    I agree with you on trying to educate people on the 
importance of foreign policy.
    With respect to Colombia, I do support President Pastrana's 
approach to deal with both the narco-traffickers, the counter-
insurgency, and I also share your view that it has to be a 
regionalized approach. We cannot try to solve a problem in one 
part of Colombia just to see the problem pop up elsewhere.
    So, I think one of the things we will be doing in the new 
administration is to try to regionalize the approach, get all 
of the nations in the area to recognize that the problem is 
theirs as well as Colombia's.
    I support President Pastrana and his approach to the ELN 
and the FARC. He has got a tough call coming up with respect to 
the FARC. I am anxious to get down there and have a chance to 
make an on-scene assessment myself.
    Senator Dodd. Mr. Chairman, I did not hear you say the 3 
minutes, and I apologize. I thought it was a 10-minute round. I 
apologize to my colleagues. I did not mean to do that.
    Senator Helms. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    On the advice of our minority chairman, at least for 3 
days, I will henceforth refer to you, sir, as Secretary Powell.
    Thank you for your global tour de force. I think we are all 
grateful for your framing up what you see as your 
responsibilities as you enter this new journey. We will get 
into those, as you know, in a little more detail this 
afternoon.
    I think we are all grateful, in light of the stories in all 
of the newspapers this morning, that you have found gainful 
employment, and we are glad that Alma is going to be able to 
continue her modest lifestyle on that. That leads me to thank 
you and Alma once again for your willingness to take on a very 
big job in the interest of this country.
    Much has been said this morning, appropriately so, in 
calling up great Americans who have once resided in Virginia, 
namely Thomas Jefferson and George C. Marshall. The connecting 
rod with General George C. Marshall and you is I think most 
aptly stated in the soldier/statesman dynamic. Just like 
General Marshall, you have seen the worst of the world and you 
have seen the best of the world. You have prepared yourself 
exceptionally well the last 8 years as you have helped build 
character and confidence in our young people. When you really 
analyze what your job is--or really any of our jobs--it is to 
prepare the next generation. You know so well, because of your 
distinguished 35-year career, that that means that that is your 
greatest responsibility because we are only but stewards of 
this great government and land.
    So, I am particularly pleased--and I think I speak for all 
of us. We will soon determine that, whether you get all the 
votes or not. But I suspect there is little doubt about that 
that you are doing this, Secretary Powell, because there is 
nothing more important.
    You talk much in your statement about economic development, 
about trade, about opportunities, a unique time in the world, 
American leadership, active American leadership. Especially in 
regard to that particular phase of your statement, which was 
thread throughout, as you, of course, know, and in light of the 
story that appeared in the New York Times yesterday on what 
your soon-to-be colleague in the National Security Agency, the 
adviser to the President, Condi Rice, said about integrating 
economics and economic development with foreign policy, could 
you just in a brief answer explain how you intend to go forth 
and integrate trade and economics into foreign policy?
    Mr. Powell. I really do not think they are separable any 
longer. What I have seen in my 7 years in private life is how 
the real forces that are shaping the world are less political 
than they were, say, 20 or 30 years ago. What is really shaping 
the world is trade and economic dynamism. If you want to have 
people believe in democracy, if you want people start moving up 
that ladder, you have to give them the opportunity to earn a 
decent living and to create wealth. We have such an opportunity 
now as trade barriers go away, as those old political maps go 
away and we go away from the red and the blue side of this map 
to this grand mosaic.
    So, I intend for the State Department to play a very, very 
active role in international economic policy. I am going to be 
working closely with Condi Rice and with Larry Lindsey and with 
Paul O'Neill and Don Evans and everyone else. I think it has to 
be one team. They are no longer separable. They are linked 
together now.
    Dr. Rice is looking at the best model, along with Mr. 
Lindsey, to make that all happen, but I am quite sure you will 
see that we are knitted together as a foreign policy and 
economic team to push this concept of trade and economic 
advancement forward so that all nations can begin to create 
wealth, not a dirty word, a good word, wealth that allows them 
to rise up. When you help a poor country start to become 
wealthy and those people can start feeding themselves and then 
buying things, guess what? We can sell them those things. We 
are all linked together in this, and we cannot see it as a 
separate element that is not related to foreign policy. It is 
foreign policy.
    Senator Hagel. Thank you.
    Senator Helms. Mr. Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman.
    General, welcome to the committee.
    Mr. Powell. Thank you, Mr. Torricelli.
    Senator Torricelli. My time is brief, so I would like to 
share with you a few thoughts and return this afternoon with 
some specific questions, if I could.
    Your comments about what your nomination represents for our 
country is all true. It should simply be added it is, of 
course, more than that. It is a tremendous statement about you 
personally, your talents as an individual, your tenacity in 
your career. I like what your nomination says about our 
country, but I like also what it says about you as an 
individual.
    Mr. Powell. Thank you, Senator.
    Senator Torricelli. It does, however, leave you with one 
large problem: the plague of extraordinarily high expectations. 
And I am going to make it worse.
    This country does not need simply good management and 
continuity of policy from you. Providence has always provided 
for the United States at times of change extraordinary talent: 
Jefferson and Burns, Marshall and Acheson. At times of 
America's changing role in the world, extraordinary people have 
come forward to give definition to our role in the world and a 
voice to our policy. This burden of history now falls on your 
shoulders.
    It appears to me that our generation has not yet found its 
place internationally. We began the last century making the 
world safe for democracy and then had a role thrust upon us to 
defeat fascism and communism. Our generation needs purpose. And 
our role in the world is certainly more than to expound the 
benefits of materialism or even capitalism. Capitalism is an 
element of America, but it does not define who we are as a 
people or everything we can achieve. And if that is all the 
world knows about us, if the world only knows that we have 
military strength, an addictive culture, and a strong economy, 
they do not begin to understand the United States. And the 
world will miss an important message.
    I hope that as a unique figure in our country, at a time of 
enormous change and transition, that you can give definition to 
this generation's role in the world. I hope at least an element 
of that is a message of reconciliation between continents, 
races, economic systems, recognizing that there is no perfect 
model, that various blessings may have made America unique and 
even special, but it does not provide an example for everyone 
to follow in every way. Every nation and all people will find 
their own paths, but the United States, given our unique role 
in history, can help them find it and you can play an 
extraordinary role in the reconciliation among people in having 
them do so.
    I am excited about your tenure as Secretary of State and 
what it means for you but, much more than that, what it means 
for our country. It is going to be a great period in our 
history. On this committee, as we change chairmen and 
majorities, we do not change our commitment to a bipartisan 
national foreign policy. You will see us stand together with 
you shoulder to shoulder.
    Good luck in your tenure and I will see you this afternoon.
    Mr. Powell. Thank you, Senator.
    Senator Helms. Senator Smith.
    Senator Smith. General Powell, I look forward to casting a 
vote to make you Secretary Powell.
    Mr. Secretary, I will also return this afternoon to ask a 
question about the administration's policy on expansion of 
NATO, how you intend to put the genie back in the bottle in the 
Middle East, how we will stand by our democratic ally Israel.
    My first question to you I ask first because I hope you 
will remember it because it is a particular irritation to me. 
As we pursue the national interests of the United States 
abroad, I hope we will not forget our national values. As I 
read the first amendment, we care deeply about freedom of 
press, freedom of association, freedom to worship God. I think 
we had come to expect persecution of Jews in Russia. I hope we 
will not abandon them as we focus on other issues. Theirs is a 
vulnerable community.
    But even when we turn to western Europe, I was recently 
shown a list made up by the Nation of Belgium in which the 
Church of Christ, the Pentacostals, the Jehovah's Witnesses, 
the Seventh Day Adventists, the Latter Day Saints, and many 
other faiths that assemble every Sunday or Saturday in the 
United States put on a list of dangerous sects. The response to 
them now is to deny them visas to practice their religion in 
western European countries, specifically Belgium, even a law 
proposed in France now that would allow that government to 
confiscate the property of religions that I think just become 
unpopular.
    It seems to me that we will keep our alliances intact, but 
we ought not to shrink from our values. I wonder what might be 
the response of the Department of State to Senators like me who 
think we ought to do something more than just talk about it. 
Ought we to have a visa policy that is reciprocal, if they want 
to come and pursue interests of the press, religion, or 
whatever, in the hopes not that we would actually deny it, but 
encourage them to live up to the values that make them our 
allies? I wonder if you can comment on that.
    Mr. Powell. Well, Senator, I certainly share your concern 
not just because of our own constitutional first amendment 
considerations but the individual rights of men and women as 
enshrined in international documents. Where people should be 
free to pursue their faith in whatever manner they see fit that 
is not subversive or seditious, they should be allowed to do 
so. I would be troubled by any country, whether it is in 
western Europe or anywhere else, who denies its citizens that 
right.
    I would have to look carefully as to whether or not it made 
sense to start acting in a reciprocal way with respect to visa 
denial and make sure we just do not put ourselves in the same 
box that they have put themselves in.
    As you know, we do have an office in the State Department 
that looks at this. I am looking for a good candidate to 
replace the previous incumbent as soon as possible. As you 
know, we put out a report on an annual basis on the status of 
religious rights around the world. So, you can be sure it is 
something I will be looking at carefully, and I look forward to 
working with you on the issue.
    Senator Smith. Thank you, General. You might know that it 
was represented to me that Belgium in particular was pursuing 
this policy because that was where the European Union was 
going. I have gotten no indication from the European Union 
leaders that that is where they are going, but I hope we can 
put it out before it starts.
    Mr. Powell. I would like to look into that specific case.
    Senator Helms. Senator Feingold.
    Senator Feingold. Thank you, Senator Helms. I apologize for 
not being here. I was attending the Judiciary Committee hearing 
that involves a somewhat more controversial nomination.
    General Powell, it will be an honor to support you and vote 
for you in this committee. I am prepared to do that. As a 
Wisconsin Senator, I am also prepared to forgive you for the 
disparaging remarks you made about the cows on President-elect 
Bush's ranch when you accepted this position.
    I am delighted that you chose--and we discussed this in our 
first meeting--to have your very first briefing on any issue to 
be with regard to the countries of Africa and the situations in 
Africa. I know you referred at some length to Africa in your 
remarks.
    By the way, even of course in the last 24 hours the 
extremely disturbing news out of the Democratic Republic of 
Congo, a place that I and Ambassador Holbrooke and others have 
tried to devote a lot of attention to--it is getting worse. It 
is getting extremely difficult. As you well know, the 
implications for all of Africa of that crisis mean that it is 
referred to sometimes as Africa's first world war. I know you 
are aware of that.
    In that context, I want to ask you a bit about a comment 
that President-elect Bush made in the past. Last year in an 
interview on the News Hour with Jim Lehrer, President-elect 
Bush said that ``while Africa may be important, it doesn't fit 
into the national strategic interests, as far as I can see 
them.''
    Do you agree that there are no critical U.S. interests at 
stake in this vast continent, or could you explain what was 
meant by that comment? Obviously, with things like 
international crime, terrorist threats, trade investment 
opportunities, global issues, which you initiated the 
conversation about at our meeting like infectious diseases, 
AIDS, and environmental degradation and human rights issues, I 
think it requires some explanation.
    Mr. Powell. I think the President-elect was just touching 
on some of his top priorities and the things that sort of press 
in on you from day to day. But in my conversations with him, I 
know that he believes that there really is no region in the 
world that can be ignored. Priorities may come up and down, but 
I am quite confident that he will be interested in Africa, he 
will be interested in some of the conflicts that exist on that 
continent that need to be resolved. I know we have talked about 
the problem of HIV/AIDS and the devastation that that is 
wreaking across the southern part of the continent. So, I am 
confident that he will be engaged and he will see it as a 
priority. I would not have started out my transition by first 
having briefings from the African Bureau and, in the comments I 
made subsequently, if I was not confident that I was 
representing and speaking for the President-elect.
    Senator Helms. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Welcome, Secretary Powell. I look forward to working with 
you in that position.
    I am going to be back this afternoon to talk with you on a 
couple of cross-cutting issues, if I could, one Senator Smith 
raised about religious persecution, particularly in the country 
of Sudan, and also on trafficking in human beings, sex 
trafficking. It is a really ugly part of the globalizing 
economy that we are going to have to get on top of.
    But I want to direct your attention, if I could, briefly to 
two regional areas and ask your input and thoughts on this. One 
is in the South Caucasus in Central Asia and the other in 
India.
    Our policy in the South Caucasus in Central Asia, it seems 
to me, recently has basically been Russia-centric. We do not 
want to offend Russia. We do not want to upset them. So, we 
defer, particularly even in countries like Georgia, in some 
cases Azerbaijan, in some cases in Central Asia, our policies 
toward Uzbekistan, Kazakhstan, many of these countries that 
came out of the former Soviet Union that are really struggling. 
Now we are seeing in Georgia, in particular, the Russians 
shutting off energy as a threatening way toward the Georgians 
to try to get them to leave military bases in Georgia.
    I realize this, in many cases, is not a top-drawer issue at 
times, but still our focus toward Russia then determines what 
happens to these nations. And they are very important and they 
are strategic and they are at a very pivotal time.
    A second area I want to look at just briefly and make a 
comment and ask your thoughts, if I could get them, is toward 
India, largest democracy in the world, soon to be the most 
populous nation in the world, a country that during the cold 
war went to the wrong side, but that is over. It is time I 
think for us to build a stronger relationship there.
    This past administration has been focused almost entirely 
on CTBT in its India relationship. I would hope that now we 
would broaden that relationship and say we will lift the 
economic sanctions that we have on India. It is important as a 
nation. I think it really wants to be better tied to the United 
States. I think it will give us entre to work even closer, in 
some cases, with other countries in the region, as we develop 
separate policies toward India and Pakistan.
    So, Central Asia and the South Caucasus, if I could, and 
then the lifting of economic sanctions on India.
    Mr. Powell. Let me start with India first. In my prepared 
statement, I did spend a little time on India. In the interest 
of time, I did not cover it in my oral statement.
    I certainly agree with you that India has to be a high 
priority for foreign policy activities of the United States of 
America. During the cold war period and even when I was 
Chairman of the Joint Chiefs of Staff, we did not have to think 
much about India. They were somewhere else, trapped in another 
kind of world to us. But now it has all opened up and it is the 
soon-to-be largest country by population on the face of the 
earth. And it is a powerful country and it is a nuclear-armed 
country.
    So, I think we have to engage more broadly with India. We 
have to do what we can to constrain their nuclear program at 
this time. We have to help them with economic development so 
they can handle this increased population.
    With respect to sanctions, I have discovered over the last 
several weeks, as I have prepared for this job, that there is a 
wide range of sanctions and certifications and various 
constraints. What I am really going to have to do, before I 
answer your question directly, is get into office and, with my 
other colleagues in the administration, review all of these 
sanctions, and especially with respect to India, to see whether 
this is the time to move forward and remove the remaining 
sanctions that are in place. But I am not in a position to make 
that commitment now.
    In the Caucasus and Trans Caucasus, I certainly agree with 
you. We have to make it clear to those nations that just as we 
want nations anywhere else in the world to govern themselves 
and to be self-determining, we believe that for them as well. 
We have to make it clear to the Russians, even though they may 
have concerns in the periphery of the old Soviet Union and now 
the periphery of Russia, they cannot act in a heavy-handed way 
and they cannot intimidate these countries and they cannot 
threaten these countries. They should not think about trying to 
recreate the old Soviet Union in some smaller way. This will 
not further their interests in the West. So, I think we have to 
be clear in our dialog with the Russians that movement in this 
area and threatening activities such as cutting off gas to 
Georgia are not helpful. I am pleased that the Clinton 
administration, which immediately protested the most recent 
cutoff of gas to Georgia, succeeded with others in persuading 
the Russians that this was not the direction to move in.
    I think the Russians need to work with us in the West and 
we have leverage in that regard. If they want to be accepted 
into the Western economic system, if they want to benefit from 
a relationship with us, they have to act in accordance with 
what we believe are commonly accepted principles of behavior.
    Senator Brownback. Thank you.
    Senator Helms. Dr. Frist.
    Senator Frist. Thank you, Mr. Chairman.
    General Powell, welcome. I join my colleagues in 
congratulating you and also in anticipation of being able to 
work together with you over the next several years.
    A central challenge that we, how we view them.
    We are now, as you have heard prefaced by others, in the 
beginning of an 18th year of a war in Sudan which has claimed 
over 2 million lives and displaced over 4 million people. Many 
of us on this committee have visited that part of the world, 
and you see the starvation. You see the slavery, the 
indiscriminate targeting of citizens, of hospitals, of schools, 
all of which have become the common methods, extraordinary 
methods in our eyes, but the common methods that result in 
extraordinary loss of life and destruction of human dignity. 
This ethnic cleansing in many ways dwarfs what has gone on in 
other parts of the world that we hear more about that we talked 
about earlier today.
    This war, as we have followed it, has become more and more 
complex and more and more difficult as the Government of Sudan 
has begun initially and continues to clear inhabitants away 
from the oil fields in the south of Sudan, which you have 
mentioned, and in the middle of Sudan. This is all occurring in 
addition or on top of the earlier layers, more central layers, 
where you have had cleansing and pillaging in areas like the 
Nuba Mountains that I had the opportunity to visit and the 
other no-go zones or no-fly zones. There we see firsthand the 
human cost of suffering, the subjugation, the clearing of the 
oil fields, and the obliteration of an entire population in 
this region of the Nuba Mountains, the Nuba people.
    The history of the United States and our role has been very 
complex. It seems to be changing. There is no definite policy 
that has been spelled out. We have been extraordinarily 
generous in terms of putting food on the table, putting over a 
billion dollars of relief in the war-affected areas.
    Yet, we are faced with the problems of, No. 1, not really 
having determined the efficacy of this international response 
that the United States has, indeed, led, has it resulted in 
little more than just a massive feeding program, and whether it 
has become a substitute, in part, by other donor countries for 
the more difficult but necessary steps to actually end that 
war, to put a functional, viable peace process in place.
    The conduct of the Government of Sudan in its prosecution 
of the war is more the problem rather than our posture. That is 
what many people have thought and felt. But underneath all this 
is a real dissatisfaction on the part of Europeans, a 
recognition that the role of the United States is absolutely 
essential to effectively address the end of the war.
    You have this very complex process going forth, and we can 
come back to it this afternoon when we have more time for 
questions. But I want to use that as the introduction of the 
fundamental question to me, and that is, is this extremely 
difficult and expensive but not deadly challenge outside our 
national security interests as Americans? But fully, clearly it 
is in the center of our conscience as human beings. Is this 
something to which the United States should commit itself?
    Mr. Powell. It clearly is a troubled country and it is an 
area where we do have an interest because Sudan is also the 
location of a number of terrorist activities that cause us 
great distress. So, I think it is an area that we have an 
interest in.
    I will look forward to seeing what we can do to get a 
political process started that can try to resolve this problem. 
You have that delicate balance between putting food in, which 
helps people survive, but at the same time may also be 
sustaining the conflict for a period of time. I think we have 
to find that right balance where you are taking care of people 
who desperately need, who should not suffer because of your 
attempt to get the political process started and, at the same 
time, working with our European friends, the United Nations, 
and others, to try to get the Sudanese Government to stop 
acting in such a deplorable, horrible, terrible way with 
respect to its own citizens. So, it will be an area of national 
interest and special interest for me.
    Senator Frist. Thank you, Mr. Chairman.
    Senator Helms. Senator Kerry.
    Senator Kerry. Mr. Chairman, I am sorry. I apologize. I 
gather you are doing just a quick----
    Senator Helms. We are just doing snapshots now. You can 
elaborate after these folks have some lunch. I want these folks 
up there, the reporters, to have time to eat as well. We are 
having a 3-minute snapshot.
    Senator Kerry. Instead of just eating on us, they can eat 
real stuff.
    Mr. Chairman, thank you for the privilege of doing that 
then. I will not ask any questions right now. I would rather 
try to have some continuity and do it when we come back.
    I would like to just join very quickly in sharing the 
welcome and the words of praise that have been showered on you 
this morning, General. It is a huge standard to live up to now 
I guess, another one for you. But we are really--all of us on 
this committee I think--extraordinarily proud to vote for you, 
as we will. I think Joe Biden is correct. I think the Senate 
will embrace your nomination unanimously.
    I appreciate the time you spent. I think the most valuable 
time in this exchange is the private time that we have been 
able to share, and I am very appreciative for the time you took 
with me to explore many areas of the world.
    I am very heartened by what you said today about the State 
Department. Some of us who have had the privilege of serving on 
this committee for a long period of time now have been arguing 
for many years about the difficulties under which many of our 
Foreign Service officers labor and the extraordinary 
contradiction at this moment of globalization, which we herald 
in all of our speeches, which has such enormous implications 
for us as a country. We have actually been diminishing our 
capacity to effect personal diplomacy.
    I have shared with you one example in Hong Kong where we 
just are not able to keep up with the numbers of requests for 
proposals. It costs our American citizens jobs. It costs our 
companies profits and opportunities.
    I think if we can come together on this committee and 
adequately present the face of the United States as we would 
like it to be in the places that it ought to be, we are going 
to do a much better job of building relationships. There are 
particular parts of the world, as you well know better than 
anyone, that the success of your diplomacy often depends on the 
level of your relationships, and those take time to build. We 
do not do that as well.
    Countless times I have been in the Far East or other parts 
of the world and diplomats come to me or Presidents and Prime 
Ministers say to me, Senator, where is the United States? The 
Germans are here. The Japanese are here. The French are here. 
But we do not see your presence, even in places where we are 
consistently told by those same leaders we are essential to the 
stability of that particular region and we are the most 
significant player.
    So, there is a certain hubris in our execution, if you 
will. It is my prayer that this administration will succeed in 
taking us further. To her credit, Secretary Albright argued 
that to us several times in this committee. Mr. Chairman, to 
your credit you responded last year significantly, and I think 
it has made a difference. But there is more difference that we 
can make and must make. So, I found that most welcome today.
    Also, we talked about the structuring of the State 
Department itself in this modern age, the ability to attract 
the most capable people. We are lucky to get some of the most 
capable, and we do because they want to serve. There is sort of 
a natural instinct in some people to go do that even under 
difficult circumstances. But there are many more people we 
could attract if we were willing to pay more and be willing to 
be competitive and to change even the structure of what people 
get to do as young Foreign Service officers. It is sort of the 
old Department in many ways, and I think there are changes we 
could make.
    So, I welcome you and there are questions I would like to 
ask in several areas this afternoon. But we are delighted that 
you are going to take on this critical role.
    Thank you, Mr. Chairman.
    Mr. Powell. Thank you, Senator.
    Senator Helms. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Congratulations, General, and thank you for coming out of 
retirement and back into public service.
    Mr. Powell. Thank you, sir.
    Senator Chafee. We welcome you and look forward to your 
confirmation shortly.
    I have a question on our plans to go forward with national 
missile defense. Without passing judgment on it, I think it is 
a fact that many of our allies are opposed to us going forward 
with that. They believe that it would undermine their strategic 
stability, prompt new arms races, and upset international 
nuclear non-proliferation objectives.
    My question is, do you plan to confer with our allies and 
non-allies as we go forward with this?
    Mr. Powell. Absolutely, Senator. I have already begun to do 
so. I have had meetings this week with people who have been in 
town for inauguration activities from other countries, and I 
have had some very, very healthy discussions with some of our 
European allies already. I expect to be spending a lot of my 
time on this issue, conveying to our allies the progress of our 
technology, conveying to our allies the threat as it develops 
or does not develop, and making sure they understand that it is 
part of a total picture that, at the end of the day, will 
benefit the world and benefit them as well.
    Senator Chafee. Thank you, Mr. Chairman.
    Senator Helms. Thank you, sir.
    We welcome Senator Nelson to my left geographically.
    Senator Nelson. To the south geographically.
    Senator Helms. Right. Three minutes, please, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    General, it is a privilege.
    Mr. Powell. Thank you, Senator.
    Senator Nelson. In the State Department now there is an 
office having to do with Holocaust assets retrieval. I just 
want you to know of my personal interest in this by virtue of 
the experience that I have come out of over the course of the 
last 3 or 4 years. In my elected capacity in that time as 
insurance commissioner of the State of Florida, it suddenly 
dawned on me and some other insurance commissioners that for 
over 50 years European insurance companies had stiff-armed 
Holocaust victims' families and Holocaust survivors on any of 
those old European insurance policies. This really came to my 
attention at the time that there was the negotiation and the 
settlement through what was called the Volker Commission at the 
time on the Swiss bank accounts. But in fact, most of the 
European Jews' assets were not in Swiss bank accounts. They 
were in insurance policies.
    So, a number of us got together and realized that suddenly 
we had a jurisdictional hook, that European subsidiaries were 
doing business in our States. Because of that, we drug them, 
kicking and screaming, to the table, formed the International 
Commission on Holocaust Era Insurance Claims, went out and 
hired a luminary, former Secretary of State Larry Eagleburger, 
who still is in that, and in the process for the first time in 
about 60 years, some, not many, of those insurance policies are 
beginning to be paid. The question of valuation, the question 
of getting into the archives and getting the documentation, all 
of which those companies had refused.
    Now, I tell you this story simply to say that it is clearly 
in my interest from the experience that I have had--and there 
is a lot more having to do with Holocaust assets than just 
insurance policies, but it is clearly in my interest to want to 
keep that little office alive.
    Now, earlier an Under Secretary of State, Stu Eizenstat, 
had headed this up, and when he was promoted over to Treasury, 
the function went with him, although the office is still in the 
State Department. I would urge you to keep this office alive 
because what has happened in the last 2 years on this 
international commission is we started to make progress and 
those European insurance companies started digging in their 
heels and not pursuing it. If we keep the pressure up, then I 
think we are going to see justice finally be brought to a lot 
of these folks.
    After the war, even when they had a policy and they went 
back to those companies, those companies said we do not know 
you. Or they said, in the case of the families, the survivors, 
show us a death certificate. Well, Hitler was not giving any 
death certificates. So, you can see the emotion with which I 
approach this because I have lived it for the last 3 years. I 
urge you, General--and I want to work with you--to keep that 
little Holocaust office alive.
    Mr. Powell. Thank you very much, Senator. I understand the 
passion that you bring to the issue. Former Secretary 
Eagleburger has talked to me about the issue. We have had one 
conversation already. I also, as part of my transition 
briefings, had conversations with Ambassador Eizenstat and I 
know what he has been doing and how he has been trying to bring 
a lot of these issues to conclusion now.
    If I had any other doubts as to whether or not I need to 
get involved in this, yesterday as I was walking through the 
State Department--I have got this habit of sort of opening 
conference room doors to see what is going on inside. I did 
that yesterday and walked into about a dozen Austrian Holocaust 
survivors. So, they made it clear, in spades, that I needed to 
have a complete understanding of this issue. I will look at the 
welfare office immediately.
    Senator Nelson. Good.
    Senator Helms. Senator Allen.
    Senator Allen. Yes, Mr. Chairman, thank you.
    General, I very much enjoyed and appreciated your statement 
about trade and economic dynamism driving world affairs now 
more than some of the political/military approaches of the 
past. In my introduction of you, I mentioned how you had served 
on the board of AOL. Obviously, in your remarks, you get it. 
You understand how things are moving and, indeed, the Internet 
and technology. The Internet, in particular, is like 
Gutenberg's press as far as the dissemination of new ideas and 
freedom and letting people think for themselves. It is like an 
individualized empowerment zone for commerce, for thought, and 
it is wonderful. I think that is how we will spread our ideas 
to countries that are under the cloud of tyranny or 
totalitarianism or repression.
    The two things that I think are important, though, that I 
would like to explore with you is how we can continue to share 
our ideas. As Governor, I have worked on economic development a 
great deal from semiconductor companies to software companies 
to computers to communications and others. But two things that 
are needed in countries. No. 1, individual freedom and the 
other is the rule of law. The rule of law protects individual 
rights and it also protects property rights. To some extent in 
some countries, if our companies try to penetrate those good 
markets, they are worried about privacy or their property 
rights, intellectual property rights in those countries.
    So, hopefully this afternoon--and I know folks' stomachs 
are growling, so I am not going to trespass on time too long 
and I will try to stick to 3 minutes, Mr. Chairman--what I 
would like to be able to do is explore with you--and if you 
could share with us in the afternoon session--your views, No. 
1, on how the State Department can be involved in helping open 
up markets for United States based companies to benefit our 
employees here as well as have the benefits of improved 
manufacturing processes, communications, education, life 
sciences, medical sciences and so forth benefit the lives of 
those countries, and also what we can do, whether it is the 
State Department or others, to protect the intellectual 
property rights, especially the technology of our companies in 
our country, so they would have that confidence and credibility 
in enforcing those rights abroad.
    Mr. Powell. I could not agree with you more, Senator Allen. 
I am remembering an occasion when I was in the Soviet Union 
just as it was about to break up, and one of my interlocutors 
was trying to explain to me what Gorbachev was trying to do. He 
was not sure we were getting it. He said, you need to 
understand Gorbachev is the first lawyer to run the Soviet 
Union since Lenin. I said, is that good or bad? The point was 
he is determined to put the society on a basis of law because 
without law, you cannot have democracy. Without law, you have 
no recourse to dictate. Without law, commercial law, personal 
law, intellectual law, copyright law, without law, your society 
is not investing in anything and nobody will ultimately invest 
in it from the outside.
    That is probably what the Soviets and now the Russians 
should have done at the very beginning of the past decade, is 
put in place a body of law which could serve as an example to 
the other nations of the region of what it is going to take to 
give your people freedom to take risks because they are 
protected by law and investors to come into your country 
because they are protected by law.
    Senator Allen. Thank you, General.
    Senator Helms. Mr. Secretary, we are going to take a break 
now, but let me ask you one question. Did you know Secretary 
George Marshall?
    Mr. Powell. I did not have that honor, sir.
    Senator Helms. Is there anybody in this room who had 
contact with Secretary George Marshall?
    There is one back there. Old fellow, I am glad to see you.
    I knew George Marshall because I was city editor for a 
paper in Raleigh, North Carolina at the time. As for Thomas 
Jefferson, the only possible person who could know him would be 
Strom Thurmond.
    We stand in recess until 2 o'clock this afternoon.
    [Whereupon, at 12:43 p.m., the committee was recessed, to 
reconvene at 2 p.m., this same day.]
                              ----------                              


                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:01 p.m. in room 
SH-216, Hart Senate Office Building, Hon. Jesse Helms 
presiding.
    Present: Senators Biden, Sarbanes, Dodd, Kerry, Feingold, 
Boxer, Torricelli, Bill Nelson, Helms, Hagel, Thomas, Frist, 
Chafee, Allen, and Brownback.
    Senator Helms. The Chairman, Mr. Biden, is on his way in. I 
know he would want me to start at 2 o'clock. So the committee 
will come to order, and let us resume a 5-minute rule. I will 
do this for Senator Thomas and for Senator Sarbanes, and then 
after that we will start with the 10 minutes. Is that all 
right? We had the snapshots.
    Senator Sarbanes. Whatever.
    Senator Helms. Mr. Thomas, you were not here this morning 
and neither was the distinguished Senator from Maryland. You 
may proceed.
    Senator Thomas. Thank you, Mr. Chairman. Yes, I did have to 
leave.
    Welcome, General. It is nice to have you here. My questions 
of course will be centered primarily on Asia-Pacific rim, as I 
have been chairman of that subcommittee for some time. I guess 
I am particularly interested, in the waning days of the Clinton 
administration, there is a flurry of activity that could be 
viewed as a movement toward normalization in relations with 
North Korea, and I am in favor of that if we can do it.
    But I have always been a little wary and it seemed to me 
like maybe we are moving a little without having any particular 
movement in response or at least a movement that you could 
count on. So I guess I am interested in what the position of 
the Bush administration will be with the expectation of moving 
toward a missile program and normalization. What will we expect 
from North Korea if we are to give them such things as 
normalization of policy?
    Mr. Powell. I think we are still some time away from 
normalization of relations. Even if we were to get everything 
we were interested in with respect to missile programs or what 
they are doing with respect to exporting that kind of 
technology, we would still be left with a situation of a 
dictatorial regime that has a very large army poised on the 
border between North and South Korea.
    So the Bush administration will come in and work with North 
Korea and with our allies in the region, South Korea and Japan, 
in a very, very cautious way. If there are openings there, I 
think we should take them. I think we should move forward. We 
should see what is on Kim Jung-Il's mind, and we should not be 
afraid to engage. But we ought to engage, not with any sense of 
haste about getting normalization quickly and with clear-eyed 
realism about the nature of that regime, a regime that is 
essentially led by one person. The whole country looks to this 
one person for direction.
    We also have to make sure that any deal we might get is 
absolutely verifiable and we can monitor it, and only then can 
we be assured that it is something we should take to the Senate 
or to the American people or to the Congress in general and say 
this is a good deal for America.
    But the reality is that that regime is in trouble. That 
regime is unable to feed itself. It has an economy that bears 
no relationship to what is happening in the 21st century. I 
think they are going to have to keep moving in a direction of 
opening up in some way at some pace, and we should not be 
resistant to that opening up. We should encourage it and we 
should get in there.
    But we should also be very realistic that it not move too 
fast and we let our South Korean friends be in the lead. At the 
moment I do not think that there is any inclination on our 
part, nor was there on the part of the Clinton administration, 
to essentially start flowing additional resources into that 
society other than food, food which they need and food which we 
are probably going to give them anyway, in light of the 
humanitarian conditions that exist in that country.
    So the policy I am quite sure President-elect Bush will be 
following and I will be structuring for him is, not be afraid 
of changes taking place in North Korea, engage with them, but 
do it in a very, very realistic way, and to not give them 
anything unless we get something in return, something that is 
really valuable to us, something that moves them in an entirely 
different direction, away from missiles, away from the export 
of this kind of technology to other parts of the world, and in 
a direction that ultimately removes the conventional threat as 
well as the unconventional threat that exists directed toward 
South Korea.
    Senator Thomas. Thank you.
    I was thinking this morning, just a little bit different 
approach, but the Secretary of Energy is overseas now talking 
to OPEC in terms of production of oil and gas and to deal with 
them, to try and bargain, I suppose, to do something about that 
production area. I do not think the Secretary of Energy has 
much to bargain with. It seems to me like the Secretary of 
State, with those countries that we do a lot for, would be in a 
better position to do some bargaining on energy than the Energy 
Secretary.
    What do you think of that?
    Mr. Powell. It is an interesting idea. I think before 
giving the definitive answer I better pursue it with your 
colleague Spence Abraham to see if he would have any objection 
to the State Department----
    Senator Thomas. You could go together, you know. It just 
seems like we need some leverage, and we go to a country and do 
a lot of things for them, and yet when we go over there to talk 
about OPEC production and so on, why, they do not seem to pay 
any attention. We need some leverage.
    Mr. Powell. I agree that we should use whatever leverage we 
have, but over the long history of energy use and our demands 
for energy I think our friends in the region have tried to be 
helpful from time to time when it serves our interests and we 
needed them to be helpful. It always is a negotiation as to 
what the right price is that we are willing to support with a 
particular supply and a particular demand.
    We can also lecture ourselves about the amount of energy 
that we are increasingly using and the rate at which our use of 
energy is increasing, thereby placing a greater demand on the 
supply. So I think there will always be tension between these 
two sides of the equation, but we should use our relationship 
with those nations to get a reliable supply of energy needs, 
fossil fuels, from that part of the world at a price that is 
not unreasonable.
    Senator Thomas. In the Clinton administration Congress 
mandated the creation of an Office of Tibet Coordinator. 
Frankly, I do not think that has had much action. Not much 
activity has taken place, as a matter of fact very little. What 
do you think the role of that Tibetan Coordinator would be 
under your regime?
    Mr. Powell. It will be an important role. We have been 
looking at organizational structures during this transition 
period and I have about figured out how to man that office and 
the role it should have in helping us develop a policy that 
will hopefully bring some reconciliation between the people of 
Tibet, the Tibetans, and the Chinese.
    It is a very difficult situation right now, with the 
Chinese sending more and more Han Chinese in to settle Tibet, 
what seems to be a policy that might well destroy that society. 
I think we have to re-energize our discussions with the Chinese 
to let them know that this is another example of the kind of 
behavior that will affect our entire relationship and show our 
interest and solidarity with the Dalai Lama and the people of 
Tibet.
    Senator Thomas. Thank you, Mr. Chairman.
    Senator Helms. At this point let us go into the 10-minute 
round, with the caveat that Senator Sarbanes will have 15 
minutes, and then Senator Biden when he gets here, we will 
interrupt, put him in whenever he wants to go.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Helms. Yes, sir, we will let you go and then I will 
follow you.
    Senator Sarbanes. I appreciate that very much.
    Mr. Chairman and my colleague, I regret I was not able to 
be here this morning, but I was chairing the hearing for 
another nominee, and we are trying very hard to help the new 
administration by moving their nominees along as promptly as we 
can and trying to get them into place. We had a very cordial 
and successful hearing, I think, with Mr. Martinez, who has 
been nominated to be the Secretary of Housing and Urban 
Development.
    I got a report on the hearing that was held here this 
morning and I gather I am going from one love fest to another. 
That is all right by me because I certainly welcome this 
nomination. I have great respect for Colin Powell and for his 
long and distinguished service to our country, Secretary 
Powell. I am working hard now at accomplishing this transition. 
I know in a sense you will never leave the generalship behind, 
but you will be Secretary Powell, just like George Marshall was 
Secretary Marshall.
    He is now being asked to serve our country yet again in 
this very important and sensitive position as Secretary of 
State. The challenges of this job are very great, but I look 
forward to his dealing with them.
    I do want to urge on you confronting the immediate problem 
of getting adequate resources to carry out our foreign policy. 
I do not think we have provided the muscles for the active 
diplomacy which we have been trying to pursue and which I think 
we ought to pursue, and I hope you will make the case to the 
American people and to the Congress in terms of getting 
additional resources for the 150 account, resources for the 
Department to carry out its responsibilities.
    I am very concerned about providing embassy security around 
the world. You talked in your statement about the very loyal 
and dedicated people who make up the Department of State. We 
want to draw on their talent, obviously, and I think if they 
get a sense that finally they are going to be paid attention to 
and they are going to be given the means with which to do the 
job, they are a great resource for you in carrying out your 
responsibilities.
    Hopefully, we will be able to now normalize our 
relationship with the United Nations and other international 
institutions. I would regard that as a very important step 
forward.
    On occasions I have been involved in ambassadorial 
appointments. I just want to sound a warning bell. First of 
all, I think that the career people ought to have a crack at 
these ambassadorial appointments. I realize that every 
administration will want to make appointments outside of the 
career service. I do not object to that on principle as long as 
it is kept in some reasonable ratio. Otherwise I think it has a 
demoralizing impact on the Foreign Service.
    Having said that, I feel very keenly that the political--if 
there are political appointments, ambassadors for example, that 
they ought to bring a record of distinguished service which 
warrants making them an ambassador, going outside of the career 
service in order to make someone an ambassador. I think it is 
very important that their record reflects that, and I have, of 
course, as the chairman knows and others, have challenged 
nominees on occasion on that ground, would anticipate doing the 
same, nominees actually made by Presidents of both parties. So 
it is not engendered by a partisan concern.
    But we welcome this nomination. I look forward to 
supporting it. Now, Mr. Secretary, let me ask you this 
question. I am interested--I look through your statement and I 
know you talk about democratic values, but let me talk about 
human rights. Let me use that phrase in turn. What is your view 
of how integral a part of our overall diplomacy and our 
national interests the human rights dimension is?
    Mr. Powell. I think it is very important. I hope, if you 
look at my statement, you will find that pretty close to the 
front I put a paragraph there to make sure that no one 
misunderstood that President-elect Bush will be coming in with 
a clear commitment to human rights. I think it derives from our 
values. It derives from the God-given rights that all of us 
have, and you can see it in our own founding documents. The 
rights of men and women to live in peace, to live in freedom, 
the rights they enjoy to pursue their own destiny, I think have 
to be part of the essential value system that we use within our 
own nation and that we take to other nations as an example of 
the way one should behave and how one should treat one's 
citizens.
    So I think you will find a firm commitment to human rights 
within the Bush administration State Department.
    Senator Sarbanes. Do you think other countries and their 
leaders in considering their relationship with the United 
States should factor in as a very significant dimension their 
attachment to human rights? In other words, to what extent are 
we going to allow our relationship with some country to be 
shaped, not determined but shaped, significantly shaped, by 
their human rights performance?
    Mr. Powell. I think it should be an element that we apply 
in making a judgment concerning the nature of our relations 
with another country. A country that has no respect for the 
dignity of man or woman, a country that believes they can 
oppress their people, really is not following the kind of value 
system that we should honor and give particular currency to.
    So I think it should be a part of our dialog with those 
countries. But at the end of the day, they have to decide how 
they are going to run their countries. I think we should 
consistently press them on the issue. We have human rights 
reports that we put out on an annual basis that give evidence 
of how these various countries are behaving.
    I remember very vividly, if I may just go back briefly to 
the time I was National Security Adviser, every time Secretary 
of State Shultz and I went and met with the Russians, every 
single meeting, they knew that we would engage them across the 
full range of issues--arms control, bilateral relations, 
multilateral, regional problems--but the No. 1 item, pride of 
place in every discussion, was human rights, with lists of 
refuseniks who were not allowed to come out.
    We were always shoving that in their face, telling them 
that, if you want to have a complete relationship with us, you 
have got to understand that we will always present this element 
of that relationship in pride of place. I think that is a sound 
policy.
    The Russians would respond in those days by attacking us 
with respect to human rights: Who are you to lecture us? We 
showed them the kind of progress we have made in our society 
and what you can achieve when you believe in human rights and 
you accord dignity to every person.
    I will never forget the day when Foreign Minister 
Shevardnadze was lecturing us back across the table in Saint 
Catherine's Hall and I was on George Shultz's right and a good 
friend of all of ours, Ambassador Rozanne Ridgeway, was on his 
left. Shevardnadze was going on about ``how you treat your 
blacks and your women,'' and then he looked up from his notes, 
he looked at Roz and then he looked at me and he said: ``Oh, 
never mind; next point.''
    So by our example, by our example of what is achievable, 
you can show to the rest of the world a model. It goes back to 
some other points that were raised earlier, if you will permit 
me, Senator Sarbanes. Senator Torricelli raised something like 
this earlier. We have military strength, we have political 
strength, we have economic strength, but the greatest strength 
we have is the strength of our example, to show to the rest of 
the world what a nation as diverse as ours, drawn in from all 
over the world, what we can do because we respect the rights of 
individuals, and where we have not done that in the past we are 
going to improve ourselves in the future.
    I think that is a powerful model we should present to the 
rest of the world and lecture them on it and use it as a way of 
showing them, not that we are better than them, but how they 
can be better than they are now if they will follow these basic 
principles.
    Senator Sarbanes. I just note that Thomas Jefferson, to 
whom you referred at the outset of your statement this morning, 
said, and I quote him: ``The interests of a nation when well 
understood will be found to coincide with their moral duties.''
    Now, the Congress has on occasion put into the law, and 
those provisions exist there now, conditioning U.S. assistance 
or other forms of aid to increase on their human rights 
performance. I take it you find no difficulty with those 
requirements?
    Mr. Powell. It would depend on the particular requirement 
and the particular country. As long as the requirements and 
whatever conditions the Congress placed were in the context of 
our overall relationship--to go back once again to the Soviet 
Union, even though they might not have satisfied us in every 
way we would have wanted on human rights at a particular 
meeting, that did not mean we did not talk about other things 
or we did not engage with them.
    So I think it should be one of the tools available to the 
administration, available to the President and the Secretary of 
State, in discussing a full range of issues with another 
nation. But I would have to see the particular sanction and the 
particular country before I could say to you that ought to be 
determinative of what we do with that particular country.
    Senator Sarbanes. Well, this has been a bone of contention 
on occasion in the past between administrations and the 
Congress. I do not think the Congress does that lightly, and 
the arguments usually for it before it is done are quite 
strong. I do think it is a matter on which we place a lot of 
weight, and I hope you will keep that in mind.
    Mr. Powell. Yes, sir.
    Senator Sarbanes. On the embassy security issue, have you 
had a chance to look at that?
    Mr. Powell. I have taken a first look at it. I have gotten 
some experts to come in and make an assessment for me, an 
independent assessment of how best to manage that program and 
how to balance the needs for secure facilities for our families 
and diplomats overseas and how to also make sure that we have 
accessible facilities that represent the openness of the United 
States and encourage people to come and do business with us.
    Senator Sarbanes. Well, Admiral Crowe, of course, headed up 
a study group and made some very important recommendations. 
Last year the Congress actually provided the administration's 
request for embassy security, and I very much hope that this is 
a matter you will pursue very closely. Obviously, if something 
happens and we have not addressed it there is going to be a 
huge uproar over that. We need to be careful, just because 
nothing has happened, we do not turn away from the problem, 
because it could happen anywhere at any time, obviously.
    I want to just talk to you for a moment about the Cyprus 
issue, which has been festering now for over a quarter of a 
century. Several rounds of proximity talks have taken place 
under U.N. auspices. There has been an effective American team, 
including a high level U.S. Presidential envoy. At the moment, 
the Secretary General's call for reconvening those proximity 
talks at the end of the month seems to be in limbo because of 
the very intransigent position taken by the Turkish Cypriot 
leader, Mr. Denktash.
    How important a foreign policy priority do you think the 
Cyprus issue should be for the new administration?
    Mr. Powell. I think it is very important. It has been a 
problem that has been lingering, festering as a sore in that 
region, and is an irritation between those two countries most 
concerned with it, Greece and Turkey. So we will remain 
engaged. We will support the U.N. Secretary General's actions. 
We will encourage both parties to come to these proximity 
talks.
    We understand the differences of view that exist between 
Greece, that is interested in a bizonal, bicommunal federation 
along the lines suggested by the United Nations, and Turkey's 
desire for something slightly different. We hope we can play a 
useful role, since we have friendly relations with both of 
those nations, and encourage them to not only support the 
process, but to encourage Mr. Denktash to engage as soon as he 
possibly can.
    Senator Sarbanes. Well, the U.N.'s position is that the 
proximity talks should continue and that these are talks 
without preconditions. That has been a position the United 
States has supported and I take it that you continue to support 
that position?
    Mr. Powell. I expect to do so. I have not discussed it with 
the President, but it seems like the position we would support.
    Senator Sarbanes. What is your thinking on continuing a 
high level U.S. Presidential envoy on Cyprus?
    Mr. Powell. I have not made a judgment on that yet. I know 
we have had an envoy and other envoys in the region, really two 
who have been managing that account, and it is something I will 
have to examine and discuss with the President.
    Senator Sarbanes. Let me just close, then. I understand my 
time is almost up.
    Do you put getting these resources at the top of your 
priority list? I cannot overemphasize that to you. Otherwise 
you are not going to be able to do the job, I have to tell you.
    Mr. Powell. I do. It is an issue that I have already 
discussed with President-elect Bush. What we really need is a 
step increase, a significant increase in resources, not just a 
little bit of inflation adjustment. We have shorted those 
accounts rather severely in recent years and it is not in our 
interest to keep moving in this direction. If we do not want to 
see our youngsters have to solve some of these problems on the 
battlefield, then we need to fight them out beforehand in 
diplomatic channels.
    If we want our country to participate in this world 
economic revolution, then we have to arm our embassies to help 
us with trade matters, economic issues, the full panoply of 
issues that go well beyond just political and military issues. 
The State Department is in the front line of that.
    If I may, sir, your point on ambassadors, I take it very 
much to heart. We should never send somebody overseas to 
represent the people of the United States who is not qualified 
and competent and we have full confidence in, whether that 
person is a Foreign Service officer or a political ambassador. 
You can be sure that, working with the President, those are the 
only kinds of people who will be sent overseas to represent the 
American people.
    I am very, very anxious to make sure that our FSO's get a 
career track that allows them to look ahead and think one of 
these days, to go back to my own military model, I am going to 
be a brigade commander, a battalion commander. That is what 
they work for. We have to make sure that we give them that 
opportunity by keeping the number of political ambassadors in 
reasonable check.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Senator Helms. Thank you, Senator. Thank you.
    By the way, before the time begins to be charged, Howard 
Baker called me a while ago and he asked me to remember him to 
you, and he had all sorts of good things to say about you. So I 
have delivered the message.
    Mr. Powell. Howard must want something. I better call him.
    Senator Helms. Now then, the situation, let me state it for 
the record. Everybody has had their 5 minutes. In one I 
combined the 10 minutes with the 5 minutes for Senator 
Sarbanes. So we are starting on the 10-minute round now.
    Mr. Secretary, I was heartened by President-elect Bush's 
open and outspoken endorsement of the Taiwan Security 
Enhancement Act during his campaign. As you have already 
alluded to, the bill calls for close consultation with Congress 
on Taiwan defense sales, lifting restrictions on U.S. military 
travel to Taiwan, establishing direct secure communications 
with Taiwan's military, and reporting to Congress on the 
ability of the United States to respond to a military 
contingency in Taiwan.
    Now, I would like for you to discuss how the administration 
intends to implement those provisions.
    Mr. Powell. We have not had a discussion within the 
administration about the Taiwan Security Enhancement Act and 
exactly what position we will be taking once we are in. We are 
committed, as I said in my prepared statement and in my oral 
statement, to the defense of Taiwan.
    The real issue comes down to, it seems to my mind, how do 
we make sure that Taiwan is secure, is able to defend itself, 
but do it in a way that really does not create new conditions 
of instability because of the reaction of the Chinese. We have 
always watched this balance very, very carefully. I remember in 
my days as National Security Adviser and Chairman watching this 
balance very carefully.
    So what I would like to do is, once we get into office next 
week and have had our initial discussions, sit and talk with 
you, Mr. Chairman, and members of the committee, as to your 
thinking and our best estimate of what we think we need to be 
doing to make sure that Taiwan knows that we are interested in 
its security and defense and, as we have said for many, many 
years, we will take any threat to Taiwan as a matter of the 
gravest concern to the United States of America.
    Senator Helms. As the saying goes, when you are ready I am 
ready.
    Mr. Powell. Yes, sir.
    Senator Helms. Now let us talk about the International 
Criminal Court. I do not know that you have had much chance to 
think about that since you became the nominee. The 
International Criminal Court Treaty has raised the ire of a lot 
of people, including me, because the court claims the authority 
to indict and try and imprison American citizens, including our 
service people--Army, Navy, and all the rest--and national 
security officials like the Secretary of State, I might add, 
even though the United States has not ratified the treaty.
    Now, as a former Joint Chiefs Chairman and future Secretary 
of State--that future is upon us--can I have your commitment to 
work with Congress to decisively address the threat to American 
citizens and American sovereignty posed by this international 
kangaroo court?
    Mr. Powell. Yes. I had reservations about that treaty when 
it was in the development process when I was Chairman of the 
Joint Chiefs of Staff and it was coming along. I have 
reservations about it now, and I do not think you can be 
standing on tippy-toes waiting for the Bush administration to 
ask for any, any movement toward ratification of the treaty.
    As President Clinton said when he signed it, he recognized 
that there were difficulties with the treaty, special 
difficulties within the Pentagon, who as I understand it they 
were not supportive of that treaty, obviously, and he said in 
his signing statement that he signed it because he wanted to be 
able to influence future discussions on the treaty. But when 
you do sign a treaty, in legal terms you sort of bind yourself 
not to defeat the purpose and objectives of the treaty. But we 
have no plans to ask for ratification of this treaty.
    Senator Helms. We are going to send somebody down there to 
strike the signature of that ambassador. ``Cu-ber,'' as Jack 
Kennedy used to call it. First, do you agree that the embargo 
should be kept in place until there are free elections in Cuba?
    Mr. Powell. Yes, although I think there are things we can 
do, as you are well aware, that will allow the Cuban people to 
start to benefit from this new world. Anything we can do to let 
information get into that regime and resources from family 
member to family member into that regime, that Castro cannot 
get his hands on--because every time we have done something 
where he can get his hands on it, by the time he gets through 
laundering it he is the beneficiary of what came, as opposed to 
someone else.
    So Mr. Castro is an aging starlet who will not change in 
this lifetime, and we will have to keep containing him, and it 
is President-elect Bush's intention to keep the sanctions in 
place.
    Senator Helms. The key words in what you just said are 
Castro getting his hands on it. That is the thing that bothers 
me about some of these proposals to do business with Cuba.
    Second, what specific steps do you plan to take to increase 
the support of the United States for the dissidents in Cuba and 
help build a civil society on that island and get the Latin 
Americans and Europeans to take a strong stand in defense of 
human rights in Cuba? I am getting sick and tired of all these 
people who say, well, you know, we want to do business with 
Cuba, and they ignore what is going on in terms of human rights 
there. What is your opinion, sir?
    Mr. Powell. I do not have a list of items for you. Of 
course, this issue comes up every year with the human rights 
meeting that takes place where these matters are dealt with. 
But as we have in the past, we will continue in the future to 
point out to our friends, following up on the conversation I 
just had with Senator Sarbanes, that these rights are universal 
and they belong to the Cuban people, and no matter how much you 
might want to do business in Cuba, those of our friends who are 
anxious to do business in Cuba, you have to consider that it is 
one of the last surviving dictatorships on the face of the 
earth, run by a man who has never stood for election of any 
serious kind in almost 50 years, and that his day is passed, 
they are living in a time warp, and we should do nothing that 
encourages him or gives him the wherewithal to stay any longer.
    Senator Helms. I was encouraged when I heard candidate Bush 
advance the process--he said he is going to lead the European 
alliance to advance the process of NATO enlargement at the next 
alliance summit in 2002. Now, do you have any notion about how 
precisely this will be fulfilled?
    Mr. Powell. The President-elect is committed to NATO 
enlargement. As you know, there are nine nations that are now 
standing in queue requesting admission at the summit in 2002. 
In our NATO meetings later this spring and into the summer, we 
will have to decide what set of standards we are going to use 
for admission--some variation of the standards we used in the 
last round or whatever. But it is something that all of the 
NATO members will have to come into agreement on. I look 
forward to those discussions.
    Whether it should be all nine of them, one or more of the 
nine of them, is something we have not yet reached a decision 
point on. Of course, that will be part of the discussion and 
part of the creation of the standards, some idea of who will be 
able to meet those standards.
    I think I have to say in all candor that for three of them, 
the Baltic States, there will be quite a bit of discussion 
about the Russian reaction to that. We will listen to that and 
we will take it into account. But at the end of the day, I 
think we have to do what we think is right for the nations of 
the region and for NATO.
    Senator Helms. I know Russia, they are going to protest and 
stomp and cry and all the rest of it about the Baltic States. 
But that ought not to restrain us in doing what is right, and I 
hope that we will.
    Now, Kuwait and Iraq and all of that. At the press 
conference when President-elect Bush announced that he had 
selected you, you stated that sanctions on Iraq should be 
reinvigorated. I think that is the word you used. I want to 
stand up and say hurrah, hurrah. The Republican platform echoed 
this and as a matter of fact called for full implementation of 
the Iraq Liberation Act as a starting point in a comprehensive 
plan for the removal of Saddam Hussein. The key word there is 
``removal.''
    Now, tell me how you intend to re-energize sanctions and 
how you are going to proceed about removing Saddam Hussein? Or 
is that something you would rather do in closed session?
    Mr. Powell. I can start here. With respect to the 
sanctions, I think we have not clearly enough pointed out to 
our regional coalition partners and to the nations in the 
region that Iraq is threatening them with these weapons of mass 
destruction. Do not see it as the United States versus Iraq; 
you better see it as you that is at the other end of these 
missiles that these people might be putting together and the 
terrible weapons they are going to put on top of those 
missiles.
    I think we have to make sure they understand that clearly 
and take the threat to them. I think we have to make it clear 
to them that we have to keep the sanctions in place, we have to 
keep our hand on the money that flows from the oil for food 
program and to make sure that that money is not diverted to the 
purchase of weapons or materials that could be used for weapons 
of mass destruction.
    I think it can be done. I think that we can make that case 
to our friends in the region and to our coalition partners. I 
think we have to do it in a way that puts the burden on Iraq 
ultimately to prove to us that they do not have weapons of mass 
destruction. We have an inspection regime that is ready to go 
in under new U.S.-U.N. authority. But at the end of the day, it 
is Iraq that has to be held to account, not the inspectors. So 
I think I would press that point hard.
    As long as we are able to control the major source of money 
going into Iraq, we can keep them in the rather broken 
condition they are in now. Mr. Saddam Hussein can put a hat on 
his head and shoot a rifle in the air at an army day parade, 
but it is fundamentally a broken, weak country, one-third the 
military force it had some 10 years ago. You remember when it 
was three times larger they could not wait to surrender. I do 
not think it is in much better shape now, even though they can 
have an army day parade.
    So we really did what we said we were going to do with 
Desert Storm, bring him down to size. His only tool, the only 
thing he can scare us with, are those weapons of mass 
destruction, and we have to hold him to account. I think this 
case can be made to the world at large, and let them know we 
are not after Iraqi children, Iraqi leaders are after the 
world's children; and put the burden on them and put the onus 
on them.
    With respect to opposition activity, I am familiar with the 
act, I am familiar with the drawdown authority and the other 
moneys that are available. I have been briefed by the outgoing 
administration on some of the activities they have under way, 
and the President-elect and I and Dr. Rice and Mr. Rumsfeld 
will review the entire range of activity once we get in and see 
how best to proceed.
    It is easy to say let us just go in and take over the land, 
but we really have to make sure we have an understanding of how 
this is actually going to be operationalized and that there 
really is some sound basis for believing that people could be 
successful once they go onto Iraqi territory. We have to make 
sure that our friends in the region are supporting us.
    We had a bad experience in Kurdistan, in the Kurdish area, 
a few years ago where we thought we were doing something good 
and discovered it all got rolled up rather quickly, and we do 
not want to repeat that mistake.
    Senator Helms. Well, we have got to learn a better way to 
encourage the opposition to be effective. I meet with them all 
the time. They come over here two or three times a year. I know 
you probably have, too. But they seem to me to be sort of 
aimless, and they want to do, but they do not know how to do. 
But we will have to work on that.
    My time is up. Senator Dodd. Tens minutes, we are on 10 
minutes.
    Senator Dodd. Thank you very much, Mr. Chairman. Thank you, 
I appreciate it. Again, I apologize for this morning when I 
went over a little bit on the allowed time.
    General, thank you again for being with us. I will 
reiterate my best wishes to you that I made this morning. Let 
me, if I can, run down a couple of these subject matters. You 
responded to the Colombian issue and I appreciate that very 
much.
    There is not any particular logic to this. I will stay 
within the region and then go to some more generic questions 
beyond the region. The inauguration of President Fox, I was 
there along with a delegation from the House and the Senate. My 
colleague from Rhode Island and I were part of the Senate 
delegation that witnessed the inauguration of Vincente Fox. One 
of the outstanding issues between our two countries over a 
period of time--and you and I had a chance to briefly discuss 
this in private--is the certification process with regard to 
narcotics.
    I for one, along with John McCain, Kay Bailey Hutchison and 
others, have raised the question of the effectiveness, despite 
the good intentions behind that process, of whether or not we 
are actually achieving the desired results by decertifying 
countries or then waiving the certification and creating a lot 
of turmoil. Again, I do not question the rationale behind it 
and the determination. We lose 50,000 people a year in this 
country in drug-related deaths, no small item at all. 
Certainly, dealing with the transportation, the growing, and 
all the other issues are critically important, and Mexico has a 
major problem on its hands, as we do.
    I am going to be proposing a suspension of the 
certification process, not to eliminate it, but to suspend it, 
to see if we cannot come up with a better way to deal with 
this. I notice that our colleague from Texas, Phil Gramm, was 
in Mexico recently and he made a similar statement, that he 
thought the certification process--I do not want to put words 
in his mouth, but the gist of it was--was not working very well 
and that we ought to try something new, particularly the new 
administration here.
    Without trying to pin you down on a piece of legislation 
you have not seen, I wonder if you just might quickly share 
some views on the certification process generally and, if you 
have any ideas, whether today or at a later date, on how we 
might craft something as an alternative that would work with a 
sense of cooperation and not judgmental, since we are the major 
consumers, as you have already pointed out in your remarks.
    Mr. Powell. I would very much like to work with you, 
Senator Dodd, and other Members of the Congress on this whole 
certification issue. All certifications and sanctions regimes 
have a noble purpose from their origins. That is why we have 
them. They are trying to change behavior and change behavior in 
the right way. But there are cases where it becomes self-
defeating and where it shows a degree of American hubris and 
arrogance that may not at the end of the day serve our 
interests all that well. Particularly when we end up waiving it 
all the time, it becomes a little hypocritical, to be frank.
    We have not had a chance yet, as you would expect, to 
discuss this within the administration, so I cannot speak for 
the President-elect. But I would certainly like to engage with 
you to see whether or not all of the various sanctions and 
certifications that exist now are relevant and serving the 
original purposes.
    If there is one thing that I have been rather astonished 
with during my transition briefings in the State Department, as 
I go through these huge books tab after tab after tab, almost 
every tab dealing with some particular country, some particular 
functional area, has a certification, a sanction, or some other 
procedure, which makes it a little difficult for the 
administration to conduct, I think, foreign policy as 
effectively as we might.
    Understanding that in many instances in the course of our 
history those sanctions and certifications have been useful and 
they have worked, so I do not want to rule them all in or rule 
them all out. But I would look forward to a discussion on the 
subject.
    Senator Dodd. I appreciate that. I would note that the 
certification process comes up fairly quickly in the calendar 
year.
    Mr. Powell. Yes.
    Senator Dodd. So we will try and craft something, talk with 
your folks at the Department and others in the next couple of 
weeks to see if we cannot put something together, rather than 
wait sort of down the line, and then we are scurrying around, 
as has been the case historically, and it creates some 
confusion.
    In that regard, there is also the summit coming up in 
April. I suspect this would be a major issue anyway, so it 
might be worth our while to have something on the table that we 
are working on at that particular juncture.
    Just as a related matter, and I will leave this, I suspect 
my colleague from Nebraska may raise this with you since we 
have worked together on it along with Senator Lugar. That is 
the unilateral sanctions regime generally. You have just 
alluded to it. I could not agree with you more. Again, there 
are good intentions behind these. They have had some benefit 
from time to time. But too often we find ourselves isolated on 
these matters.
    There is nothing wrong with that from time to time, where 
we feel--being alone is not necessarily bad. But we need to 
rethink how we are going to apply these. We have offered some 
legislation. Senator Helms graciously gave us a hearing in the 
last Congress to raise these issues. I will move on to the next 
subject matter, but Chuck may want to address this.
    I want to jump, if I can, to Chile. This is a more current 
matter. In fact, I have a letter that I will be sending to the 
President-elect. But there has been a decision by the Clinton 
administration. They have just announced that they are prepared 
to approve a sale of F-16 aircraft to the Government of Chile, 
at a cost of some $600 million.
    For the last 20 years we have had a prohibition on the sale 
of sophisticated weaponry in the hemisphere. We have applied 
this across the board. All administrations, to their credit, 
have lived with this. This is the first breach in that, in a 
sense.
    I have no objection to selling F-16's per se to Chile and 
understand they need to modernize their equipment. What 
concerns me is there is a degree of sophistication in the 
armaments in this particular transaction which I think is going 
to immediately sort of trigger what you would anticipate, and 
that is our good friends and allies in other places seeking 
parity in terms of these matters. I know of no hostilities that 
are raging here within the region.
    Again, I am not going to ask you here today to make a 
judgment call on this. But I would love to have you take a look 
at this one right away. It is pending. It needs to be thought 
through a little bit in my view before we end up with an arms 
race in this hemisphere, in light of all the other problems we 
face in some of these countries. This would add a complication 
to it.
    Again, I have no objections to modernizing military 
hardware and equipment in these countries, but to the extent 
which we do so does raise some serious concerns. I do not know 
whether you want to comment on this or not.
    Mr. Powell. Well, I am not familiar with that particular 
sale and I will leave it with the Clinton administration. But I 
will certainly be willing to take a look at it when we get in.
    Senator Dodd. I appreciate that.
    On Haiti, again you played a very critical role, along with 
President Carter and Senator Nunn, back a number of years ago 
to start Haiti down a road toward democracy. I commend you for 
your courage and your willingness to join in that particular 
effort. It has not worked out as well as we had hoped in a 
number of areas and we could have a good just discussion on 
that subject alone.
    In late December, the Clinton administration negotiated an 
agreement with Haiti in which the United States would release 
some $600 million in international aid if Haiti agreed to eight 
specific conditions addressing economic, electoral, anti-
narcotic, and human rights reforms, agreed to. On December 27, 
a few days ago, President Aristide accepted those terms and 
called for closer ties between our two countries.
    I wonder if you might think it is time for us to re-engage 
Haiti here, to test the determination, if you will, by 
President Aristide, to live up to those conditions. Since you 
know a lot about it, I thought I might want to spend a minute 
or so on it.
    Mr. Powell. I am familiar with the paper and I had a chance 
to review it and Secretary Albright and I discussed it. I was 
aware that President Aristide had sent a letter back accepting 
those eight conditions. I was asked whether or not he could 
expect that we would also find those eight conditions to be an 
acceptable road map, if you will.
    What we said to the Clinton administration, which I am 
confident they have communicated to President Aristide, is that 
we will look at that as an appropriate road map to get started, 
but we do not rule out that we might have other conditions or 
other things we might want to add to that. Those are pretty 
demanding conditions.
    Senator Dodd. Yes, they are.
    Mr. Powell. I think we have to engage with President 
Aristide. It seems that our goals remain what they were some 10 
or 12 years ago, how to get that democracy and that economy 
started and how to keep the Haitian people at home and not on 
the seas heading toward Florida. That is where we came in.
    Senator Dodd. We have a very good ambassador there right 
now, I might point out, who is working very hard on these 
matters.
    How much time do I have left, Mr. Chairman? I do not want 
to open up a subject matter that----
    Mr. Bowman [committee staff]. One minute and 6 seconds.
    Senator Dodd. Well, I will just mention Peru to you and I 
will come back to a couple of larger issues. On the Peruvian 
issue as well, obviously a lot of turmoil here. We in my view 
at least bear some, share some of the responsibility with what 
has happened with Vladimir Montesinos, the former intelligence 
chief there, and this sort of odyssey of his around the region.
    It is going to be important, I think, to support current 
policies engaging or encouraging the reform process in that 
country. Again, I mentioned this region to you already in terms 
of so many common interests overlap for these countries and it 
seems to me we need to find some way to deal with some of these 
common interests in a more regional fashion than we have been. 
I just would put that on your agenda.
    They have got upcoming elections in April and I am sure you 
would agree that we can try and at least engage that process to 
encourage the reforms there.
    Mr. Powell. Absolutely, Senator.
    Senator Dodd. Mr. Chairman, let me stop there and I will 
wait and bring up a couple other subject matters the next time.
    Senator Helms. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Secretary Powell, I want to pick up on a couple of points 
that my colleague Senator Dodd mentioned. I also want to go 
back to Senator Sarbanes' points, which you and I have spoken 
about privately, about finding the resources that your 
institution needs to do the job. I think it has been well 
covered this morning, but I just wanted for the record to add 
my voice to that in support.
    You will find this United States Senator very willing to 
work with you on this because I think those front line people 
that we have, those Foreign Service officers, are critical to 
our national security interest and our interests around the 
world, and I think we have, as I think your quote was, you are 
on short rations over there. Sir, you are right. So we will 
look forward to your coming up here as one of your top 
priorities to address that.
    Mr. Powell. Thank you, Senator.
    Senator Hagel. Second, on Senator Dodd's point on sanctions 
and certification issues, which you and I talked about as well 
in my office last week. Would you care to elaborate a bit on 
how you might approach getting your arms around this? We have 
got them everywhere, and you know the statistics on this, on 
how many unilateral sanctions that we throw on countries. We do 
not like this, so we are going to show them, are we not? And 
they laugh at us and we only hurt ourselves, not in every 
instance.
    But I have been rather vocal over the last 4 years about 
speaking out against our own unilateral sanction imposition. 
Sanctions that are multilateral, like in Iraq, it is a 
different story. But I would be interested in hearing, 
Secretary Powell, how you intend to get your arms around this 
issue.
    Mr. Powell. Well, one, I would encourage the Congress to 
stop for a while. I mean, stop, look, and listen before you 
impose the sanction. They just keep coming. I think I have seen 
about half a dozen new ones even before I took office in the 
last couple of weeks. So I would encourage discipline, self-
discipline, on the part of the Congress, that when you are mad 
about something or when there is a particular constituent 
interest, please stop, count to 10, call me, let me come up, 
let us talk about it before you slap another bureaucratic 
process on me.
    It is not just the certification and the sanctions. It is 
the people involved in doing all of this. I have got battalions 
of lawyers and experts and analysts who ought to be worrying 
about a regional strategy for the Andes who instead are writing 
long reports about who should be certified or not certified. 
That is not the best use of our talent. So I would encourage 
restraint and discipline on the part of the Congress.
    I do not know that there is a single law you could pass 
that wipes it all out or you give us a new way of looking at 
them. Some of the proposals I have heard about, the mechanics 
of those proposals might cause us even greater difficulty than 
the sanctions in the first place.
    I would also like to participate with you in discussing how 
to get rid of most of these. For gosh sakes, please, give them 
all a sunset clause, make them all go away at the end of a 
year. If there is still merit at the end of a year or end of a 
particular period or some action-causing event, then let us 
make it go away and not just keep repeating it and having 
bureaucrats at the State Department spending all their time 
doing things like this so that you can call them bureaucrats at 
the State Department spending all their time doing things like 
this.
    Senator Hagel. I guess your answer is we should look at our 
own house.
    Mr. Powell. Yes, sir.
    Senator Hagel. I got you. That is why you were a general 
and I was a sergeant.
    I was interested in your testimony this morning on your 
reference to Iran. I am not sure you read it all verbally, but 
I did read it. I want you to know occasionally we do read what 
you write. If I could, just for the benefit of those not having 
the verbiage in front of them like I do, you talk about ``Iran 
is a different case, an important country undergoing profound 
change from within. We have important differences on matters of 
policy, but these differences need not preclude greater 
interaction, whether in more normal commerce or increased 
dialog. Our national security team will be reviewing such 
possibilities.''
    I am encouraged to read this and I would be interested if 
you could embroider around that statement a bit and tell us 
more about it.
    Mr. Powell. We have serious problems in our relationship 
with Iran and I am not going to minimize them. That statement 
does not attempt to minimize them. Whether it is their pursuit 
of a nuclear capability or their support of terrorism or the 
way they treat human rights issues in their own country, these 
are significant differences.
    But at the same time, we can see in recent years that there 
is change happening in Iran. We have those who hold power, the 
old ayatollahs, but there is a President who was elected to 
office--elections. He was elected to office because the people 
of Iran were expecting a little more moderation, a little more 
openness in their lives. So the people of Iran I think are 
starting to speak, especially the young people of Iran are 
starting to speak, that they think there is a broader world out 
here, the kind of world I talked about this morning, that 
perhaps has a place for them.
    To the extent that our policies can take into account the 
serious difficulties we have with the offensive policies, but 
at the same time give encouragement to the people of Iran, that 
Iranians are not our enemies, that we are trying to make life 
better for them, we are trying to give them insight into the 
world that is waiting for them out here, to the extent that we 
can nuance our policy in that regard, I think it serves our 
interests and the interests of the region.
    Senator Hagel. Thank you.
    Staying in the Middle East, I also noted in your testimony 
this morning your general comment: ``Peace for Israel means 
peace with all her neighbors, Syria included, where we need to 
build on the opportunity created by Israel's withdrawal from 
Lebanon.'' Could you talk a little more about that as to the 
approach you might take? I know it is early, a lot of dynamics 
in this. But certainly peace has eluded us, not because we have 
not put effort into it in the Middle East.
    But I think in my opinion that statement is exactly where 
you should begin, the complete peace.
    Mr. Powell. I will have to be guarded because there are 
still negotiations ongoing and President Clinton is still fully 
engaged in this process, and we wish him all the best in what 
he is doing. But it seems to me that there are a number of 
pieces to this. One is the Syrian piece and one is the 
Palestinian piece.
    A few years ago we were moving down the Syrian track, and 
then that did not pan out at the time and we moved to the 
Palestinian track. But the only way you will get a 
comprehensive settlement is to do both of them. I hope that we 
will find a set of conditions at some point in the future where 
if we get one the other one will quickly follow and fall in 
place, and then we are on our way to a comprehensive solution.
    I think the Israeli withdrawal from southern Lebanon 
removed one of the great irritants that was standing in the 
way, obstacles that was standing in the way of the Syrian 
piece.
    But it all begins with making absolutely sure that Israel 
is secure, the only democracy in the region, a nation we have 
supported for 50 years. It has to be secure and it has to feel 
that it is secure and that it can defend itself. We cannot 
expect Israel to do much in conditions of violence, where their 
security is at risk, where both sides are responding to the 
violence.
    The one thing we will start to do right away, as President 
Clinton has been doing for these many, many months, is to 
encourage both sides to get the violence under control. I 
believe it is in the power of both sides to do it. Especially I 
believe it is in the power of the Palestinian leadership to do 
so, Mr. Arafat to do so. So we will call on him to do that and 
encourage him to do that. Only then can we see what the next 
step in this process is going to be.
    The new administration is going to be in a position where 
it will have to wait and see what happens in the Israeli 
election. It will be also a function of what the Clinton 
administration is able to do in these last few days. But we 
will not be standing by idly. We will be watching, we will be 
following it all, we will be engaging.
    I have started to talk to people from the region already, 
starting to come up with our plan, how we will organize 
ourselves to deal with this account. We will be ready to move 
forward as soon as the parties in the region are ready to move 
forward.
    Senator Hagel. Mr. Secretary, I have probably 15 seconds 
and I wish to ask a question on behalf of our colleague Senator 
Lugar, who sends his regards. As you know, he is out of the 
country. He has asked me to ask this. How in your opinion would 
the proposed free trade agreement with Singapore help the 
United States engage with Asia?
    Mr. Powell. I think it shows that these kinds of agreements 
benefit both sides. I think it is a further example to the 
nations in Asia of what you can accomplish when you knock down 
trade barriers and make it easier for people to trade with each 
other. It is an example of the kind of success we are enjoying 
here in the North American Free Trade Area, and it is part of 
our march toward free trade agreements that we hope will, here 
in our own hemisphere, sweep from the southern tip of South 
America all the way through Canada in due course. I think it is 
the path of the future for us to have open trading systems.
    Senator Hagel. Thank you.
    Senator Helms. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    General Powell, one of the most anticipated aspects of the 
next administration's foreign policy is the high threshold for 
military intervention which you and the President-elect have 
espoused. As you know from our previous conversation, I 
essentially share that position. I believe that an extremely 
thorough and thoughtful vetting process, a clear set of goals, 
and a clear exit strategy are critical prerequisites to any 
U.S. military intervention.
    Although I certainly am proud of the Clinton administration 
record on foreign policy, this is an area where we have 
disagreed. As I think through the ramifications of this 
position, though, it seems to me that it actually puts a 
premium on supporting strong multilateral organizations and 
institutions. If we are to view the Australian-led intervention 
in East Timor, which was then followed by a United Nations 
force, as a model for the future--and you and I I think agree 
that in many ways it was a model--that suggests that we have to 
have an interest in supporting strong and competent regional 
and international entities.
    I feel in a sense, although some do not like to label it 
this way, that this is really the opposite of isolationism. 
Would you share this view, and would you flesh out the 
diplomatic strategy that has to accompany a policy that has a 
very high threshold for military intervention?
    Mr. Powell. Perhaps you might be referring to what is 
sometimes called in the press the ``Powell doctrine.'' I do not 
know. I thought you would never ask. ``High threshold'' is OK. 
It is not the choice of terms that I would have made.
    But the doctrine that I think and the guidelines that I 
think that President-elect Bush will be following reflect a 
point of view that says before we commit the Armed Forces of 
the United States, make sure we have a clear political 
objective, we know what we are trying to accomplish with the 
use of those Armed Forces, and once that clear political 
objective is established, such as kick the Iraqi Army out of 
Kuwait, such as get rid of the Government of Panama totally--
not just kick an army out, but get rid of an entire government; 
that is what we did in 1989, on 12 hours notice, with 
overwhelming, decisive force--once you have established a clear 
political objective, then it seems to me very wise to achieve 
that objective, if military force is required, in a decisive 
way.
    That is what I tried to do in the days when I was Chairman 
of the Joint Chiefs of Staff. It does not say you never 
intervene. It does not say that maybe you cannot meet those 
tests and you have got to go anyway. That is why we have 
Presidents, to make those kinds of choices and those kinds of 
decisions.
    But it seems to me the bias in decisionmaking before you 
make those kinds of choices, because CNN says you have got to 
do something, it is very wise to go through the process that 
says, what is it we are trying to accomplish, is military force 
the way to do it, are there others who can do it? If we have 
people in the region, such as Australia, that had a greater 
direct interest in what was happening in East Timor and the 
capacity to act, then perhaps we can just give them support, 
help them, give them financial support, provide whatever 
logistic support they need, and use that kind of regional 
grouping to handle it, rather than America feeling it has to 
respond to every 911 call that is out there.
    We have seen the same thing in Africa, as we are trying to 
train up Nigerian and other battalions to handle peacekeeping. 
So I think the threshold really is what is it we are trying to 
accomplish and let us apply the decisive force to it, let us 
not fool around, let us apply decisive force because that tends 
to get it over with quickly and it tends to save casualties in 
the long run.
    There is another aspect to it. When people think you are 
going to act that way and you think that way, they are less 
inclined to put you in the position of acting that way. 
Therefore I think that has a stabilizing effect.
    It was a reporter who called this all the ``Powell 
doctrine.'' It was never written down as the Powell doctrine 
and I guess I should be flattered. But in reality, at the time 
it was the national security policy of the United States of 
America and, frankly, I think it just makes pretty good common 
sense.
    Senator Feingold. Whether you refer to it as the ``Powell 
doctrine'' or not, I welcome it and look forward to working 
with you on it.
    Mr. Powell. Thank you.
    Senator Feingold. Returning to Africa, and we spoke briefly 
this morning about the situation in Congo. It is inextricably 
linked to Africa's recent history, the crises in Rwanda and 
Burundi that have unfolded in recent years. Many people feel 
that the cycle of conflict in the region cannot be resolved as 
long as there is no accountability for crimes against humanity 
in the region. I strongly agree with that feeling.
    Therefore, if we do not do that there is no imperative to 
distinguish between legitimate and illegitimate activities. 
What would be your plan for addressing the need for some 
accountability in Central Africa?
    General Powell. I think we have seen the successful use of 
independent tribunals of the kind that we saw at work in The 
Hague, and that might be appropriate for some of the 
circumstances in Africa. The situation in the Republic of the 
Congo today is very confused. It is not even clear there is a 
President there any longer, and I am not sure if the situation 
has clarified in the course of the day.
    The Congo I think is going to be one of the difficult, most 
difficult peacekeeping tasks the United Nations or the region 
or the world has ever faced, because it is hard to create a set 
of conditions where other nations are going to want to send 
their troops into such a situation, a situation that is very 
unsettled. You do not know who is on what side. It is not clear 
that you have created conditions of stability that will allow 
any country to send its young people in.
    Because it is not just American parents who wonder what 
happened to their youngsters. It is any parents from any 
country when they are asked to send their youngsters in harm's 
way.
    The Congo is not a nice little place like Sierra Leone or 
even a little place like Bosnia or Kosovo, by those standards. 
It is a huge place, and the number of people who could get 
sucked up in such a mission is very, very large. So I think we 
have to be very careful, as the Secretary General is being very 
careful, before deciding whether or not there are conditions 
that would permit the introduction of such a force.
    If such a force goes in, I hope a regime of accountability 
goes in, whether it is through internationally established war 
crimes tribunals or through the legal systems of the countries 
involved themselves.
    Senator Feingold. Let me just add that our firmness in 
places like Rwanda and Sierra Leone with regard to 
accountability will ultimately send a critical message to 
whatever shakes out in terms of Congo.
    General, with regard to Indonesia. In March 1997 you made a 
trip to Jakarta and you were quoted endorsing a sale of F-16's 
to Indonesia, a sale that was subsequently canceled, in large 
part because of congressional concerns and concerns from civil 
society groups about the Indonesian military's long history of 
gross human rights violations, particularly in East Timor. You 
asserted that halting arms sales to Indonesia was a punitive 
act that would not be useful.
    But many observers believe the restrictions on our military 
relationship with Indonesia helped to pressure the government 
to ultimately allow East Timor's referendum and to begin at 
least acknowledging that human rights abuses are serious issues 
that have to be addressed.
    How do you view your statement at that time in retrospect? 
In fact, at what point do U.S. arms sales and military 
relationships run the risk of legitimizing, aiding and abetting 
forces that behave in a manner that is, as you indicate in 
other areas, are utterly inconsistent with internationally 
recognized human rights norms and our own national values?
    Mr. Powell. I think you have to look at any arms sales 
against that kind of measure. Is it a sale that benefits the 
nation? I mean, is it really in their national self-interest to 
have such a sale? Does it contribute to their security? Is it 
principally defensive, as opposed to offensive, where they 
would use it aggressively against a neighbor? But every nation 
has the right of legitimate self-defense, and if they do not 
buy it from us they have many other sources from which they can 
get such weapons.
    In 1997 when I was on a private trip to Indonesia and made 
that statement, it seemed to me at that time in the 
relationship that existed between our two nations it was a 
reasonable sale to make, and I did not directly relate it to 
the circumstances in East Timor. Whether or not it was the 
cancellation of that sale and the cutback of military to 
military exchanges that caused the solution to come about, I 
have not made that judgment. I have not studied the situation 
that carefully.
    Senator Feingold. Thank you.
    Finally, on China. I appreciated your comments in response 
to other Senators and your comments about Tibet, where you said 
that it certainly would affect our entire relationship with 
China. Given the fact that in recent years the United States 
has supported resolutions condemning human rights violations in 
China in the U.N. Commission on Human Rights and the fact that 
conditions have actually deteriorated according to the State 
Department, can Congress expect that the Bush administration 
will sponsor a resolution on China at this year's annual 
session of the U.N. Commission on Human Rights in Geneva?
    Mr. Powell. I really cannot speak for the President-elect 
yet. It is a No. 1 item on our plate. It will be taken up in 
the first couple of weeks of the Bush administration. But I 
would like to withhold comment on that until I really have had 
a chance to sit down with my colleagues at State Department, my 
colleagues in the NSC, and then make a recommendation to the 
President.
    Senator Feingold. Thank you, General Powell.
    Thank you, Mr. Chairman.
    [Senator Feingold's prepared statement follows:]

           PREPARED STATEMENT OF SENATOR RUSSELL D. FEINGOLD

    General Powell, I am truly delighted to have you before this 
committee as the President-elect's designee to be Secretary of State. 
Your powerful and particularly American personal story, your 
unquestioned integrity, and your deep commitment to serving this 
country make you an excellent choice for this post. Please accept my 
congratulations on your nomination.
    You have an opportunity to be one of the most influential 
Secretaries of State in history. The President-elect has openly 
acknowledged that he does not have a great deal of experience in 
foreign affairs, and throughout his campaign, he sought to reassure the 
American people by stressing his intention to appoint the very best 
advisors to help him. Your presence in the next Administration will 
often be a decisive one, and, despite your military background, as 
Secretary of State, you will be a critical counterweight to the strong 
and capable leadership at the Pentagon.
    And you confront extraordinarily complex challenges. Today, an 
unprecedentedly diverse array of international events and trends have a 
direct impact on American security, prosperity, and values. A recent 
assessment of the National Intelligence Council takes into account 
resource scarcity, demographics, epidemiology, science and technology, 
as well as more traditional indicators in its examination of the 
future. Every region of the world contributes to, and is affected by, 
these global dynamics. Here I must point out that, despite the words of 
the President-elect, sub-Saharan Africa is excluded only at our peril. 
Our world is far less predictable than it was only fifteen years ago, 
and wise, pro-active diplomacy is needed now more than ever before.
    As America's most senior diplomat, you will project not simply the 
strength of the American military or the U.S. economy, but the strength 
of our national values. The same commitment to individual rights that 
this country has pursued at home must guide the U.S. abroad, informing 
your work as you seek to balance our interests in justice and in order. 
Without order, justice cannot be pursued. But history also teaches us 
that unjust orders rot from within. To reflect our values and to secure 
our future, America must continue to advocate for universally 
recognized human rights worldwide.
    As you work with our allies to contain threats, you will also be 
charged with the nuanced work of sending the signals and invoke the 
symbols that help to create a global context in which America can 
thrive in this new century. The Helsinki Accords, and the role they 
eventually played in triggering changes within the Soviet bloc, still 
stand as a powerful example of the potency of ideas and commitments, 
even when they begin as mere words on a page. I hope that you will 
consider sending a powerful signal and bolstering a critically 
important idea by attending one of the key human rights-related events 
of 2001, the World Conference Against Racism in Durban, South Africa. I 
can think of no better American representative to that conference than 
Secretary Powell.
    Perhaps the most anticipated characteristic of the next 
Administration's foreign policy is the high threshold for military 
intervention which you and the President-elect have espoused. I share 
this position--I believe that an extremely thorough and thoughtful 
vetting process, a clear set of goals, and a clear exit strategy are 
critical prerequisites to any U.S. military intervention. In fact, I 
understand this position to be one of embracing burden-sharing and 
appreciating the importance of regional leadership throughout the 
world. The strong U.S. support for the Australian-led intervention in 
East Timor, where the United States did not contribute combat forces, 
but did provide critical logistical support, is an example of how this 
policy can work. A healthy respect for and support of multilateral 
institutions is a logical extension of this position. Similarly, this 
policy also will insist upon a strong and reinvigorated foreign 
service, because smart, preventative diplomacy is critical to a foreign 
policy that sets a high threshold for intervention. As their services 
are needed more than ever before, I am certain that the dedicated men 
and women who serve our country in embassies and consulates abroad will 
rise to the occasion.
    I will offer one final piece of advice. I strongly encourage you to 
forge strong bonds with the Congress on both sides of the aisle. There 
is a great deal of expertise and institutional memory, not to mention 
good will, here on this committee and elsewhere in the Congress. You 
are looking at a diverse pool of potential allies in any number of 
important foreign policy initiatives. But be aware that when members 
are convinced that State's legislative affairs bureau sees itself as a 
curtain to be drawn over State's operations and deliberations, 
suspicion and mistrust quickly develop, hampering any policy agenda no 
matter how strong or how bipartisan. Openness and consultation early on 
can go a long way toward avoiding problems down the road.
    General Powell, soon to be Secretary Powell, I genuinely look 
forward to working with you in the years ahead.

    Senator Helms. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    General Powell, during the campaign and during the 
transition, much of the discussion on the future of Africa 
policy has been on the persistent question that we mentioned 
this morning about what is or what is not in the national 
interest of the United States. I think it does pertain again to 
what we are going to have to face again and again, and that is 
this continent of Africa and the varying situations that are 
there that you and I have discussed earlier today and 
previously.
    The topic is so easy to discuss and begin to discuss in the 
abstract, but then there are those specific occasions where it 
becomes crystallized. A country that I just want to briefly 
mention and a circumstance is what is happening in Zimbabwe 
now. We have seen the decline in the economy, the lack of 
stability, the decline in stability. This whole outlook in 
Zimbabwe I believe represents just such an occasion where our 
interests are really self-evident, pretty much by virtue of the 
starkness of the threat that is presented to them.
    Yet I am concerned that the United States has not acted in 
a way in the past to defend the interests under question. We 
have seen this very rapid collapse of Zimbabwe, the sole 
product of a ruinous campaign by President Mugabe and the 
ruling party to hold onto the power in the face of very popular 
demands for fundamental economic reforms, the democracy that we 
spoke of earlier today. To make matters even worse, Zimbabwe 
has over 11,000 troops in Congo, for no obvious reason other 
than access to the vast natural resources there.
    We have the internal implications for the 11 million people 
of Zimbabwe, but we also have this collapse, this chaos, 
reflecting the more fundamental concerns of the entire southern 
Africa region, with implications for the region itself, for 
Africa as a continent, and back upon the United States. 
Zimbabwe's collapse would I believe send shock waves of 
instability throughout southern Africa and southern Africa, 
which you spoke to in your opening statement, is a region of 
the continent that holds many of the best prospects for 
economic growth and stability on the continent.
    It does not seem that we can count on Zimbabwe's neighbors 
to provide a solution. They are apparently frozen, unable to 
act decisively and to counteract Mugabe's destructive behavior. 
That leaves us with the best hope of stopping this slide and 
the region's potential destabilization being the remarkable 
opposition and democratic reform movement, that is not terribly 
dissimilar to those in Poland in the 1980's and in Serbia in 
more recent years.
    The decline of Zimbabwe has these negative implications for 
southern Africa. But if we had the triumph of democracy there, 
it would have equally and even probably even more powerful 
implications for the continent.
    I guess all of that leads me to your approach, your 
perspective on the United States and how we should view 
democracy in Zimbabwe, and what should we be prepared to do?
    Mr. Powell. It is a very difficult question. It is very 
distressing to see what has happened in Zimbabwe just in the 
past year or so, President Mugabe's efforts to break up the 
farms and expropriate territory that has been held by families 
for long periods of time. Even though I can understand some of 
the frustration that might exist among the black population of 
Zimbabwe, that does not seem to be the way to solve that 
problem. He is using it as a way to solve his own political 
problems as well, and that is troubling.
    I would have hoped for a stronger response from the other 
nations in the region, and you indicated that you hoped the 
same thing. We did not see it happen. I think we have to speak 
firmly about it. I do not know that we have any magic solution. 
I think that this is another area that we will have to review 
quickly when we get in and see how we can stiffen regional 
reaction to Mr. Mugabe's efforts, to see if we can get a 
solution to the Congo which will let those 11,000 troops go 
back where they belong and do more productive things than sit 
in someone else's country, and try to hope that the examples 
that are emerging from South Africa, from Nigeria, from Ghana, 
from Burkina Faso and other places where they are demonstrating 
that you can have legitimate democratic transfers of power and 
when you do that you are embraced by the rest of the world, 
there is a payoff for this and you start to enhance the welfare 
of your people and you become part of a larger community when 
you act in this way.
    So I will be very interested in seeing how we can take 
advantage of these successful nations. Not every nation in 
southern Africa is a disaster. Some of them, we should be very 
proud of the progress they have made and try to build on that 
progress and use those examples and our own example to the 
entire region as a model to be followed.
    Senator Frist. I think what you just mentioned about the 
optimism of Africa--we see so much of the responsiveness of the 
United States being to the humanitarian crises, to the grinding 
poverty that tends to drive very much of what our policy is, 
all being crisis-driven, all response-driven.
    I guess that to me has been one of the most frustrating 
aspects. With Zimbabwe, Senator Feingold and I proposed last 
year a very simple act called the Zimbabwe Democracy Act, and 
we will likely be introducing it later this year, a very simple 
plan which links U.S. support for access of the government to 
financial institutions. We would very much like to work with 
you in that regard.
    Mr. Powell. I would like to do that.
    Senator Frist. The optimism is something that I think is 
important. The opportunity is there. You mentioned AIDS and we 
have not talked very much about that. You and I have had the 
opportunity to discuss both the trends there, the overall 
environmental degradation, the raging wars that are going on, 
all of which affects our policy.
    But let me just close with this whole question of where 
might there be opportunity in Africa, is it determined by 
successfully addressing these crises, or should we be looking 
at other areas for real opportunity?
    Mr. Powell. There is no reason not to consider helping in a 
crisis if you can bring, through our efforts, a crisis to a 
conclusion. But there are a number of these crises which are so 
persistent that I start to fear we may not be able to be 
successful. I think we really have to make an investment in 
those countries that are moving in the right direction and show 
the benefits of such movement.
    Just because they say they are democratic, such as South 
Africa, and it is, and Nigeria, and it is becoming, that is 
probably the time when it needs the most help to show that 
democracy really works. So it is not just a matter of saying, 
great, you had an election, now let us go worry about a crisis. 
It is great, you had an election, you are moving in the 
direction we want you to, the way you should move, that 
benefits your people, and we will help you.
    So I think the answer to your question is you just cannot 
walk away from some of the terrible crises that are there. But 
at the same time, do not deceive yourself as to what you might 
be able to do, and make sure you are investing in the success 
stories so that they remain success stories and do not slide 
backward.
    Senator Frist. I might just close, Mr. Chairman, and point 
out that, going back to Zimbabwe for 1 second, that the 
struggling democracy there is effectively, it seems to be 
effectively, using the Internet in the manner that you noted in 
your opening statement. The Internet really does seem to be 
exposing the assault on democracy that has so often been hidden 
in obscurity across that continent, where you do not see it on 
CNN quite as much and you do not see the public outcry that you 
see in other parts of the world.
    Thank you, Mr. Chairman.
    Mr. Powell. If I may, doctor, we did not get a chance 
earlier to talk much about HIV, but you and I did have a better 
opportunity earlier. I want to congratulate the Congress for 
the additional resources that have been provided to fight that 
terrible pandemic in Africa, and it will continue to receive 
our attention when the Bush administration comes in, because it 
is not just a health crisis; it is an economic crisis, it is a 
family destruction crisis. It is something that will absolutely 
contaminate the continent for decades to come. That is already 
a fact, and we have got to make sure we do everything we can to 
keep it from getting any worse and from spreading to other 
parts of the world, as you and I discussed.
    Senator Frist. It is one of those opportunities. It is a 
true crisis, but it is a crisis that, if we prospectively 
invest both appropriately in this country and there, that that 
opportunity can be turned around to something which will be a 
huge benefit to that continent and to the world.
    Mr. Powell. Thank you, doctor.
    Senator Helms. Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    If I could just comment quickly, because Senator Frist and 
I collaborated last year on the AIDS initiative. We did not 
succeed, regrettably, in getting the tax initiative component 
of that, which is the real incentive for the pharmaceutical 
companies to actually create the vaccine. So while we put a 
very significant amount of money out there for delivery and for 
education, prevention, and so forth, we are still shy of the 
kind of effort we need to guarantee there is really something 
to deliver.
    So I think if we could enlist your support in perhaps 
making that a top priority as we move into a tax cut, which 
gives us a tax vehicle, I think it would be very, very helpful, 
General.
    Mr. Powell. I look forward to working with you, Senator. I 
am familiar with the issue.
    Senator Kerry. I know you are and I just wanted to mention 
that.
    If I could shift back to perhaps what you have called, and 
all of us understand to be, one of the most important 
relationships we have, which is China. There are a number of 
criticisms that have been leveled at the last years of 
engagements. It is inevitable that any administration will find 
itself at the end of a number of years with soft spots, I 
suppose.
    I like your characterization. It is one that a number of 
people have sort of chatted about the last couple of years of 
this: Not a friend, not an enemy, but sort of what is China? In 
our discussion, I mentioned to you, and I think you agreed with 
me, that there is really great, great potential in the 
relationship with China to do much more than we are doing, I 
think, even as we disagree about certain things, and we will 
clearly.
    Would you share with the committee and perhaps with those 
who are listening carefully to what you say here today where 
you think the areas perhaps we could have a much more 
productive relationship and the ways, and perhaps also, 
conversely, where you see us needing forcefully perhaps to 
agree to disagree even as we seek out that ground to build the 
relationship and not create the enemy that they are not today?
    Mr. Powell. I think there are a number of areas where we 
can expand the relationship--cultural exchanges, education. The 
more Chinese youngsters who come to the United States to study 
in our schools, the better the relation will become as those 
youngsters bring back not just an education, but another view 
of a different kind of life.
    The more that we can have these cultural, education 
experiences, the more youngsters who will go back and want to 
see transparency in their society. They are going to want to 
talk to other people in the world on the Internet. They are 
going to want satellite dishes for their homes. They are going 
to want to be able to start the kinds of businesses that allow 
them to create wealth.
    Cultural, educational activities, continued opening of our 
trade relations. Forty percent of China's exports now come to 
the United States. It has created a tremendous trade imbalance 
for us. But at the same time, it has proven that power and 
wealth does not come out of the barrel of a gun any longer; it 
comes out of trading.
    I went to China for the first time in 1973. I was the first 
American officer among about four American officers who went 
into China after President Nixon opened it. When I think what 
China was in 1973 and what it was when I went back in 1985 and 
what it is now, it is quite remarkable, the changes that have 
taken place. We ought to encourage those changes and cause them 
to spread.
    Sooner or later, the generation that is in power now, that 
is trying to keep a society from flying off the way the Soviet 
Union flew off, a proud country with 5,000 years of history, 
that is not threatening us directly, but it is not yet a 
partner certainly and it is not yet what I would call a full 
friend, but a powerful nation--I think we should engage them, 
then, with trade, with economic activity, with cultural and 
educational activities, and continue to demonstrate to them how 
the rule of law and the rule of human rights is not something 
that we are lecturing them about, but something that will 
benefit them, the power that exists in that society when they 
release the talents of their men and women, a very 
entrepreneurial people who really do like to do business and 
are so very, very good at it.
    All of these things will help lead China in the direction 
we wish to see it go. We can do all of these things, I think, 
and not feel that we are being Pollyanna-ish, by also being 
firm on things that concern us: export of missile or other 
kinds of weapons technology to nations that gives us pause, the 
way they treat Tibet, their relations with other nations in the 
region.
    We can speak firmly to them at the same time that we are 
encouraging them in all these other directions. But I think it 
is not wise to think that China will move at our pace. China 
will move at its pace, and they will make decisions that they 
see in their interest. We have to continue to show them that 
this direction is in their interest.
    Senator Kerry. Might I respectfully also suggest, General--
and I appreciate the things you said--that there may be some 
opportunities in areas of international--of global 
environmental confrontations, as well as issues of the human 
condition, such as Senator Frist referred to in Africa and 
elsewhere, where it seems to me that the G-77 and the developed 
countries might bridge some of the divide that seems to create 
such hostility and constant sense of almost conspiracy, that we 
are seeking to hold them down.
    You see this in the Kyoto process, you see it in other 
processes. I think that through the United Nations, where they 
sit with us on the Security Council, et cetera, there are a 
number of opportunities to build a better understanding of how 
we could work together to solve some of those kinds of 
problems.
    Mr. Powell. I would certainly agree with you, Senator. They 
have been poisoning several generations of Chinese citizens 
with some of their environmental activities and they need to 
pay more attention to these sort of issues than perhaps any 
other industrializing nation I know of.
    Senator Kerry. You mentioned earlier in your testimony not 
wanting to do something unilaterally with respect to the number 
of countries in the region, and I wonder if that same principle 
against unilateral activity would not apply to a unilateral 
deployment of a weapons system that the Chinese and others 
believe threatens them.
    I was somewhat surprised--this is not a government policy, 
but it comes right off the Web site yesterday of the Space 
Command. In it, it is sort of in full color in the other thing, 
but it talks about the ``Joint Vision 2010 operational concepts 
of dominant maneuver, precision engagement, full dimensional 
protection, full spectrum dominance,'' et cetera, of space. It 
is all talking about military.
    When you read something like that, if you are in another 
country, not sharing our politics and everything, it seems to 
me it is very easy for people to draw perceptions which certain 
people can play up within their political system to their 
political ends. A unilateral move, it seems to me--and you have 
gamed this much more than I have, at the Pentagon and 
elsewhere. It seems to me you are always thinking about how 
does the other person see what we are doing and what are the 
consequences of that.
    Certainly, ``Thirteen Days,'' which is now playing to good 
reviews, is an example of that. What is going to happen if they 
do this and we do that, and so forth, and we have to find a way 
out.
    Is there not at least some truth to the fears people have 
of perceptions of a unilateral move by the United States 
creating countermoves and counterneeds that have their own 
series of implications that could be in fact diminishing 
security rather than increasing it? I wonder if you do not feel 
that that could enter into the equation of this choice.
    Mr. Powell. It certainly would enter into the equation. For 
every action you take, every weapon you develop, somebody will 
try to respond in due course if they feel it increasingly 
threatens them one way or another.
    One of the reasons that we are moving forward with missile 
defense is we feel that we have put ourselves in the position 
of perhaps being threatened by such systems and we are 
therefore responding.
    We will try to persuade our Chinese interlocutors that this 
system is not intended, nor does it have the capacity--they may 
not believe this initially, but we will try to persuade them--
have the capacity to destroy their deterrent force, the 
deterrence they think that is needed. I also am reasonably sure 
that they are going to modernize that force, make it more 
survivable, make it mobile perhaps, make it harder to get, 
which puts more of a premium on defense against those kinds of 
systems as they become more mobile. But that is yet further 
down. That is nothing to worry about now. That is not what we 
are designing.
    So I am sure they will try to make their systems more 
mobile and they will try to make them more survivable. They may 
even double the number of such systems. Some people have 
speculated--and I think we chatted about this--perhaps that 
they would increase by a factor of ten. I hope we will be able 
to persuade them that that is not an appropriate response to 
anything that they are going to see us doing. I hope we can 
persuade them that it is not a threat to them or a threat to 
their interests.
    Senator Kerry. You mean increase their missiles by a factor 
of ten?
    Mr. Powell. Yes.
    Senator Helms. Senator Chafee.
    Mr. Powell. There has been speculation. I do not personally 
believe that case, but there has been speculation.
    On the Space Command and full dominance, as Secretary 
Rumsfeld also reasonably concluded in another important report 
he just finished, we have to be worried about space because 
space is really the new dimension of warfare: air, land, sea, 
and space.
    If Saddam Hussein knew how much we depended on space and 
how vulnerable we were up in space 10 or 15, 10 years ago, it 
might have been a different war, if he knew how easy it might 
have been to blind us, if he had the capability to blind us. He 
did not.
    Senator Kerry. Could I just make one addendum, Mr. 
Chairman, and then I will stop?
    Senator Helms. Yes, sir.
    Senator Kerry. If I could just say, I could not agree with 
you more, except that there may be the opportunity for a major 
initiative by the administration to create a verification 
protocol sufficiently intrusive, mutually agreed upon, that 
what you can do is protect space for communications and 
surveillance, which strengthens everybody, and preclude it from 
being available for weapons.
    Now, that depends on the protocol, on the intrusiveness, 
and the verification regime. But if that were a goal, you are 
moving in one direction versus the possibility of it being a 
platform for actual delivery. That is where I think we need, 
hopefully, to followup very closely as a committee and an 
administration.
    I thank the chair.
    Senator Helms. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    How is your stamina? I admire you. It has been a long day.
    I would like to followup on Senator Kerry's question about 
the national missile defense. I had a question before we broke 
for lunch and you said yes, you had been in consultation with 
some of our allies. Are you surprised at the strength of some 
of our allies' stand on us implementing a national missile 
defense system? Even Canada, our good neighbor to the north, is 
opposed to this. Are you surprised at some of their feelings on 
this and the strength of it?
    Mr. Powell. No, I am not surprised. I understand their 
feelings. I know that we have to do a better job of explaining 
to them and communicating to them how it will all fit together, 
and we have to persuade them of the adequacy and the 
effectiveness of the technology as it comes along. So we have 
got a lot of work to do, and I think we have the time to do 
that work as Secretary-designate Rumsfeld does his work in 
bringing forward the technology and making his assessment and 
providing recommendations to the President.
    So I am not surprised and I do understand their concerns. 
But I have also been through several things like this over the 
years, where people see something new come along and they are 
terrified. It is going to shake old patterns of behavior, it is 
going to be terrible, everything is going to be blown apart. 
But if it is the right thing to do, you do it anyway.
    I remember in the mid-eighties when we decided that the 
proper thing to do--and it references my opening comments--was 
to deploy our Pershing II missiles and our ground-launched 
cruise missiles because the Soviets had put SS-20's into the 
field. There was a heck of a hullabaloo and our European allies 
at that time were going nuts. It took quite a selling story. It 
was a heck of a challenge to get those missiles introduced.
    Some of you who have been on the committee long enough will 
remember Greenham Common and some of the other sites in England 
and Germany where we had such trouble. But lo and behold, we 
were able to do it by convincing our friends that this made 
sense. Within a few years after we met and checked the Soviet 
challenge, those missiles were on their way out again and the 
Soviet Union was on its way out.
    So sometimes you have to go through these political 
barriers and you have to go through these barriers of 
understanding if you think you have got a system that really 
does make sense and it is your obligation to sell it.
    Senator Chafee. In that light, in your opening statement 
one part that you were not able to read for lack of time, at 
the end you said: ``Mr. Chairman, members of the committee, the 
times are exciting. You can almost feel the change in the air. 
You can almost sense the transformation taking place.'' In view 
of that, I think with the world changing and the preeminence of 
the United States of America around the world, I think it is 
all the more important that as we go forward with this national 
missile defense that we work closely with our allies, and even 
our non-allies, as we go forward.
    That is all the questions I have.
    Mr. Powell. Thank you, Senator.
    Senator Helms. Senator Boxer, please.
    Senator Boxer. Thank you very much.
    General Powell, thank you for being with us today. You have 
been heaped with praise, so I will not repeat it, other than to 
say thank you for your service to our country in so many 
capacities.
    Mr. Powell. Thank you, Senator.
    Senator Boxer. And you are breaking yet another barrier. It 
is quite exciting.
    We met yesterday and so I do not feel the need to have you 
answer questions at length here. As a matter of fact, what I 
would like to do until the red light goes on is just lay out 
things I am going to be working on in this committee, in some 
cases ask you for a quick comment or perhaps a longer answer in 
writing, and that would suit me fine.
    We talked about the passing of Senator Alan Cranston and a 
service that was just held in my State and I know you knew him, 
and that he worked so hard on nuclear arms reductions. I 
thought it would be perhaps nice in his memory for his family, 
since I know you spoke with him fairly recently, that you might 
say a word or two about his commitment to nuclear arms 
reduction.
    Mr. Powell. I did speak to Senator Cranston not too long 
ago, and we have kept in touch over the years. His dedication 
to a world without nuclear weapons was known to all of us. We 
disagreed on how we wanted to get there. We disagreed on 
methods from time to time. He was a spirited interlocutor. He 
was a great American who meant nothing but the best for the 
American people and this Nation.
    Even though we disagreed on how to get there and what the 
world required right now, we both had the same goal in mind, 
and that was at some point, some point in the future, we would 
see a world where there were no nuclear weapons, there was no 
need for any, there was no need for missile defense, there was 
no need for strategic offensive forces, that mankind had moved 
beyond that.
    In the spirit and in the memory of Senator Cranston, I 
would say to his family, I hope that day is reached in our 
lifetime. But until then, I also think that we have to remain 
strong and guard our interests.
    Senator Boxer. I really thank you for those words, and I am 
going to send them to his son Kim because I know it would mean 
a great deal to the family.
    I know that in my absence you were speaking about the AIDS 
situation. We spoke about it at length, and I know Senator 
Kerry and others on this committee, Senator Smith and our 
chairman, have just been magnificent in pushing this forward. I 
was proud to work with Senator Smith on a piece of that AIDS 
issue.
    We also talked about tuberculosis and, since I know you 
have discussed the AIDS question and I know how dedicated you 
are to helping particularly the developing countries, I wanted 
to put some facts out there on tuberculosis, because sometimes 
we do not realize the threat that it is. With the chairman's 
help, we started on this path of more funding, and if we can 
reach some agreement on how to get even more help through 
nonprofit agencies, maybe we can continue.
    There are nearly 2 million TB-related deaths worldwide each 
year. One-third of the world, as I mentioned to you yesterday, 
is infected with tuberculosis, one-third. Someone in the world 
is newly infected with TB every single second. Each year 8 
million people worldwide become sick with TB. Theree million 
are in Southeast Asia. Another 1.5 million occur in sub-Saharan 
Africa. TB is the world's leading killer of women age 15 to 44. 
Three times as many women in this age group die from TB than 
die from HIV-AIDS, and we know that is a horrific epidemic.
    I wanted to close this portion by saying that nearly 40 
percent of the TB cases in the United States are attributable 
to foreign-born individuals. So we have a tremendous 
responsibility, it seems to me, not only a moral 
responsibility, but to our own people, to help. As we look at 
what our priorities are this year, Mr. Chairman and members of 
the committee, I hope we can work together. Senator Smith and I 
were planning on continuing our work on this. I would welcome 
your help.
    In the rest of the time I have remaining, I talked a lot 
with Secretary Albright about the condition of women in the 
world. You and I had a chance to go over that. I am looking 
forward to some of your written responses. Women in this world 
are suffering greatly. Women in this country are moving up and 
women around the world have a long way to go, as they say.
    Sexually transmitted diseases afflict five times more women 
than men. There are 78,000 deaths and millions of injuries from 
unsafe abortions worldwide. Some 130 million girls and young 
women have undergone female genitalia mutilation. Around the 
world, at least one in every three women has been beaten, 
coerced into sex, or abused in some other way. Our colleague 
Senator Wellstone has taken the lead in a lot of these areas.
    As many as 5,000 women and girls are killed annually in so-
called ``honor killings,'' many of them for the ``dishonor'' of 
being raped. We saw rapes in the war in the Balkans and we 
tried to shine a light of truth on that. An estimated two-
thirds of the 300 million children who do not have access to 
education happen to be girls.
    These statistics are overwhelming and I know you agree with 
me that they are tragic. Former Secretary, almost former 
Secretary of State, Albright cited her interest in the 
condition of women and girls around the world as something she 
hopes will be a legacy.
    So first, just a brief question: Would you agree to be 
debriefed from her or her people on this whole issue and try to 
focus special attention on it, because you are going to be so 
busy with very large issues having to do with arms agreements 
and the like that have been raised, which I share a great 
concern about? Will you keep this on your mind?
    Mr. Powell. Yes, very much, not only as a legacy to 
Madeleine, but also as something that is very important and we 
have to pay attention to. I have been briefed on some of the 
programs we have and the offices that we have in the State 
Department. I have already started to examine where they are 
and make sure that they remain intact.
    Senator Boxer. I am very pleased. I know there are some 
contentious issues--family planning. You will be happy to know 
I am not going to get into those today, in deference to you and 
my chairman. We will have to work on those issues. We have 
great respect for each other, but big disagreements in the area 
of family planning, and I hope that we can avoid some of these 
contentious battles.
    Another area of disagreement that I will be working with 
you on along with my chairman, although again we disagree, is 
the Convention on the Elimination of All Forms of 
Discrimination Against Women. I would love to have a written 
report from you on that. I think it is a powerful tool that 
would assist you as Secretary of State in pushing other nations 
to grant equal rights for women. Again, I do not want to ask 
you today to give me your views on it, and I know you will 
carefully consider them, but I would love to have them in 
writing.
    Do I have a few minutes left, Mr. Chairman? Do I have about 
2 minutes left of my time?
    Mr. Bowman [committee staff]. You have 2 minutes and 40 
seconds.
    Senator Boxer. Thank you very much.
    Another area of great interest to Senator Brownback and me, 
and we have worked across the aisle, is the Taliban militia in 
Afghanistan. Again, it is very much tied to discrimination 
against women and girls. I wanted to ask you--I think I know 
your answer, but just for the record--what is your opinion of 
the treatment of women and girls under the Taliban regime and 
will the rights of women and girls of Afghanistan continue to 
be a priority under your leadership? Can you answer today, what 
more we can do?
    Mr. Powell. The treatment is atrocious, bordering on 
barbaric, and it will be a priority of my stewardship of the 
Department and of the President's stewardship of the Nation.
    Senator Boxer. I am very pleased because, again, Senator 
Brownback and I plan to put together some legislation and in 
doing so we will talk to your people and see, and our chairman, 
to see if we can get some support.
    Last points where we have some disagreements. It looks like 
we do not have too many yet. I would say that, as one of the 
few people who opposed the Clinton administration on the 
Colombia issue, against most of my colleagues here and against 
the administration, I just wanted to tell you that I am going 
to be watching it very carefully in terms of the human rights 
abuses in Colombia, what they are doing with the funding.
    I have a bill, drug treatment on demand. We are sending 
$1.3 billion into Colombia, but we would not have a problem if 
our kids really did say no and our people got treatment. We 
have more people waiting for treatment than are in treatment. 
So I think it is a distorted sense of priorities. I also think 
it is a dangerous policy.
    I know that you were very forthright in your statement. You 
do not agree with me on that. But we will be talking more about 
that.
    So let me say, I have other questions I will put in the 
record. I am excited at this position that you are going to 
hold. I think we are going to be able to confirm you very 
swiftly, and we all look forward to working with you in making 
this a better world, because that is what it is all about. 
Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Powell. Thank you, Senator.
    Senator Helms. Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman, very much.
    General, having already praised you at great length and to 
a great extent this morning, one set of praiseworthy remarks 
are my quota for the day, so I will go right to the substance 
of it if I could.
    Although I have enormous affection for President Clinton 
and believe his administration has done a great deal for our 
country, I will confess there were times in Bosnia and Kosovo 
when I was not always supportive of his actions. History may 
judge me wrong or it may judge him right. But in understanding 
the views of the President-elect and of yourself, we may find 
ourselves in a similar position.
    But I come to the issue that, whether or not it was right 
or wrong or I might have done things differently or you would 
have at the time, we now have the reality of American forces in 
place, the credibility of our country on the line, and a set of 
dependencies with our allies. So I take it that therefore, even 
though each of us might have done things differently those 
years ago, as I understand your testimony earlier before I 
arrived at the committee today, it is your belief nevertheless 
that we approach this with some hesitation and understanding of 
the commitments we have made to our allies and look at this 
through that prism.
    Mr. Powell. Yes, sir.
    Senator Torricelli. Let me move through a series of issues 
then somewhat unrelated, in the interest of time, to try to be 
efficient. On the question of NATO enlargement, I understand in 
the vacuum created after the collapse of the Soviet Union there 
is an enormous temptation to expand NATO. Indeed, a larger NATO 
can offer stability against whatever internal difficulties may 
arise.
    But I personally would suggest the philosophy that NATO is 
more than just a set of opportunities for nations; it is also a 
set of obligations. Everything is not to be received. As we 
look at the array of nations who are in the next round for 
possible entrance into NATO, some bring very little military 
strength. Some are spending very little in GNP to increase 
their military strength. Some by virtue of geography or region 
or other factors would be very difficult for NATO forces to 
actually defend, as indeed we would have to commit ourselves to 
defend.
    Could you speak to this a little bit, about what you look 
for in a nation that would join NATO in terms of their 
capabilities, the commitments they would make to enhance their 
capabilities, their obligations, and how we should see our 
capacity to meet our obligations under co-defense, rather than 
just simply expanding because of the temptation to do so?
    Mr. Powell. As I said earlier in my testimony, Senator 
Torricelli, what we have to do this year is to come up with a 
set of standards that we will use to measure these nations 
against to see which ones, all or none or one or more, will be 
admitted to NATO when we have the summit meeting in 2002. I 
think the standards, though, will run along the lines that we 
have used previously and along the lines you suggested, that 
they bring strength to the alliance, military strength.
    It is not necessary that it be a huge force. Iceland brings 
nothing to military defense except for facilities. But they are 
part of a great political alliance as well as a military 
alliance, and they have been a valuable member for all these 
years without a single soldier. So I think we have to see 
strength not only in terms of manpower, but in terms of the 
strategic environment that is created when you are in NATO 
rather than outside of NATO.
    I think it is important that all NATO members who have made 
a military commitment to the alliance, they are going to 
increase their forces or their capability, have to not just say 
so, but then show it is so through the appropriate increases in 
their GDP. We spend 3 percent of our GDP on our military 
forces, thank heavens down from where it was 10 years ago at 5 
to 6 percent, and we should expect anybody who wants to be part 
of this great political and military alliance to make the same 
kind of commitment. I think that ought to be a fairly strong 
measure.
    Of course, we have to understand that once you are a member 
of NATO that all nations come to your defense in time of 
conflict. I see the map of Europe and I am trying to imagine 
some of these nations who might access, and some would be more 
difficult than others to be part of a collective defense. But I 
do not think it is out of the question, particularly when you 
consider collective defense against what kind of forces, which 
nation are we talking about.
    Senator Torricelli. Well, for example, let me pose this 
question to you: that if indeed x theoretical country wanted to 
join NATO, which indeed may have very little of its own 
indigenous military forces, but has other political advantages 
for joining the alliance, whether the question would get posed 
to your successor at the Joint Chiefs of Staff to ask, if 
indeed this country were in the alliance and the United States 
were to pledge its lives and its honor to defend this country 
in time of war, do we and our allies indeed have the 
capability, not the desire but the actual forces on the ground, 
to keep our commitments if x theoretical country were in NATO?
    It appears to me that that is a question that to date in my 
judgment has not been asked as we consider some of these 
questions, creating the situation where one say in a very 
different political environment, against a threat I would not 
identify--it could be from anywhere--we may be tested and we 
may fail.
    Mr. Powell. I think that is a fair analysis, and if I were 
still in the Chairman's office I would want to deal with a 
question such as that. It is not clear that old NATO ever had 
all of the capability it would have needed to defend itself 
notwithstanding its political statement and its desire to do 
that. In fact, we were forever, as you will recall, Senator, 
having NATO enhancement programs and burden-sharing programs 
and everything else to try to buildup our capability, and 
finally it rested on a nuclear offensive force that would 
really be the essence, the guts of NATO defense at the end of 
the day.
    So we may be reaching for a bridge too far by thinking that 
we can come up with a collective defense program that gives you 
an absolute guarantee that you will be able to defend against 
any particular threat from any particular country x.
    But I am persuaded by the fact that, if there is a nation 
out there in Europe that has come out from behind the Iron 
Curtain, that is starting now to live by the principles of 
democratic government and free enterprise system, is willing to 
make whatever commitment it can to the collective defense, and 
it is not so far out of the collective umbrella that we have no 
hope of defending it, and it wants to be part of this 50-year-
old alliance that connects Europe not just to other parts of 
Europe--the power of NATO is that it connects Europe and these 
freedom-loving nations to the United States and to Canada, it 
connects them to North America.
    That is the telling item for me. These nations want to be 
part of that.
    Senator Torricelli. I do not disagree with that judgment. I 
just want us to temper our enthusiasm with some small dose of 
military reality.
    Mr. Powell. Well, when I was wearing the uniform I found my 
enthusiasm tempered quite a bit by a variety of things, to 
include that, because sooner or later, if anything happened, 
they do not turn to the Secretary of State; they come to the 
Chairman of the Joint Chiefs of Staff, which is a source of 
great relief to me right now.
    Senator Torricelli. Let me add, because my time will expire 
quickly, I want to go through several things very quickly if I 
could before that light goes off. The Security Council of the 
United Nations is a perfect reflection of the power structure 
of the world in 1945. It reflects those who had power, those 
who had colonies and spheres of influence, and indeed was 
accurate for its time.
    It is no longer accurate. It is a question whether or not a 
world body can genuinely reflect the peoples of the globe and 
offer real stability and a chance for a forum of peace with no 
Latin American and on African representation, with the 
subcontinent largely absent. Could you just philosophically 
give me your views on the subject?
    Mr. Powell. Well, the permanent membership of the Security 
Council, which was established at the founding of the United 
Nations back in 1945, has served us rather well over the last 
50-odd years, but I do not think it is chiseled in stone so 
that it could not be changed. I think it is a subject of 
legitimate discussion. It comes up quite frequently, and I have 
a very open mind as to how it might be appropriate to modify 
the permanent and the rotating membership structure of the 
Security Council to more properly reflect the power centers of 
today and the influence centers of today.
    Senator Torricelli. I am glad that you do because I would 
not like to see our country become the defender of the status 
quo in an institution which must be made current if it is to be 
effective.
    On the question of Cuba, it would be my own philosophy 
that, while the United States is always prepared to have a 
change in the relationship, generally we will not do so any 
longer unilaterally. If George Bush were to make a unilateral 
concession to Cuba with the best hopes and dreams of 
reciprocation, he would not be the first American President. 
Indeed, almost every American President has for 40 years, and 
none of them have gotten anything in return.
    I would like your philosophy of this, simply stating my own 
that we would continue with an outstretched hand, but we want 
something in return. We want an election, we want respect for 
human rights. The burden is on Castro to change this 
relationship, not on the United States.
    Mr. Powell. I agree and talked to that earlier, and the 
point being that those things that we have done that were able 
to reach over the regime and touch the people, in terms of 
money going from family to family, have probably served our 
interests and the interests of benefiting the lives of the 
Cuban people, but anything that goes to the regime and does not 
give us anything in return, that uses it for its own purposes, 
we should not move down that path and try to do that any more.
    Senator Torricelli. I think my time has expired, Mr. 
Chairman.
    Senator Helms. Thank you, Senator.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. General, I see 
Alma's gotten worn out by all of this.
    Let me get your views on the issue of this International 
Criminal Court and the statute and ask you a few questions and 
get your overall view of it. Do you share the concerns of your 
predecessor Secretaries of State Kissinger, Baker, Eagleburger, 
as well as your soon to be colleague Rumsfeld when he was 
Secretary of Defense and Secretary of Defense Caspar 
Weinberger, when they stated: ``Americans prosecuted by the 
International Criminal Court will be denied basic 
constitutional rights guaranteed them under the Bill of 
Rights''?
    If--good, get some nourishment. If the ICC----
    General Powell. Junior Senators do not get coffee.
    Senator Allen. They just get plain old tap water.
    Senator Helms. Would you please get the Senator from 
Virginia a cup of coffee.
    Senator Allen. Oh, no, no. I do not need it. Hey, you have 
got to be tough.
    Senator Helms. Unless that is a milkshake.
    Senator Allen. You heard, you do not even need the canteen; 
you can go all day without drinking.
    At any rate, if this International Criminal Court statute 
does come into force by the ratification of 60 signatory 
States, what do you believe can be done to protect the United 
States servicemen and women from prosecution before this court, 
if you do share the concerns of your predecessors?
    Mr. Powell. I do share those concerns. I understand the 
desire on the part of many to have such a court in being and we 
have seen some of the good work that individual war crimes 
tribunals have had. But this kind of tribunal gave me great 
pause as Chairman of the Joint Chiefs of Staff, because when we 
bring our young men and women into the Armed Forces of the 
United States and we send them off, sometimes to defend the 
Nation, but sometimes to defend someone else's nation, 
sometimes to do a mission that the U.N. has deemed appropriate 
and we want to be a part of that, it seems to me to be a very 
difficult thing to say to an American family, oh, by the way, 
that youngster may not have the constitutional rights that were 
given to him at birth or her at birth.
    So I have always been troubled by that aspect of the court. 
I could not quite square it with my understanding of the 
obligations we had to those youngsters and to their families.
    Now, if the treaty is ratified and it goes into effect, 
that is very troublesome. I think it adds a new element to the 
kinds of deployments we might involve ourselves in and the 
kinds of risks we might put our youngsters in. As the Congress 
has indicated, some Members of Congress have indicated, it 
might be appropriate to pass legislation that protects them in 
some way. I am not prepared to take a position on any such 
proposals or any such legislation, but I would be more than 
happy to discuss it with the members of this body or any other 
body of the Congress.
    Senator Allen. That was going to be my followup question. 
Go ahead and take a slug of coffee on my time. It is even worse 
to have a cup of coffee and have it in front of you and cannot 
take a sip of it.
    I would ask you on behalf of the Chairman to be, soon to be 
Chairman Helms, who introduced legislation that passed Congress 
along with the senior Senator from Virginia, John Warner, and 
Leader Lott, where they did at least put forward a bill which 
would provide American servicemen and servicewomen with 
protection. There are 27 countries that have ratified it. You 
would be willing to work with us to make sure that the men and 
women in uniform who are serving our interests and indeed 
serving the interests of other countries would be protected in 
the event that you do have 60 signatories?
    Mr. Powell. As a general principle, but until I have had a 
chance to review any proposed legislation and share it with my 
colleagues and get the President's views on it, I certainly am 
not in a position to commit to a particular piece of 
legislation.
    Senator Allen. Has the President-elect had any position on 
this International Criminal Court that you are aware of?
    Mr. Powell. The new administration will be opposed to the 
International Criminal Court. We read carefully what President 
Clinton said in his signing statement, recognize that he 
realized it could not be ratified, take note of the fact, 
though, that once America signs a treaty such as this we are in 
some ways expected not to defeat its purpose, intended purpose, 
and the expectation is that we would ultimately ratify it. But 
in this case, I do not think it likely you will see this 
administration send it up for ratification.
    Senator Allen. Thank you, General.
    Most of the questions, Mr. Chairman, that I was going to 
ask on NATO and others have all been addressed. That is what 
happens when you are the most junior member. Most of the 
questions have been asked, and I am not going to trespass on 
the committee's or the General's time any further.
    Thank you, General. Thank you, Mr. Chairman. I yield back 
my time.
    Senator Helms. A little bit of housekeeping, Mr. Secretary. 
Having consulted with other Senators on this committee, I 
believe all of us feel that we have had an adequate opportunity 
to question our distinguished guest. In consultation with my 
colleague Senator Biden, we have agreed to reconvene at 2:30 
p.m. on Thursday in room 419 Dirksen for a business meeting to 
consider further Secretary-designate Powell's nomination.
    I guess you are just waiting with bated breath to see how 
that vote is coming out.
    I ask all Senators to have their questions prepared for the 
record concerning Secretary-designate Powell and get them to 
the committee staff no later than the close of business today, 
to enable you, sir, to furnish replies as soon as possible. So, 
that is the end of the statement.
    Senator Biden. Thank you, Senator Helms.
    General Powell, I have a couple more questions and I am 
told Senator Dodd may have a couple more if he comes back. I 
will not keep you long.
    Senator Helms. May I interrupt?
    Senator Biden. Please.
    Senator Helms. I want you to tell me something about Tibet. 
What are we going to do to furnish some help for those 
beleaguered people over there?
    Mr. Powell. I have been following and studying the 
political issue, but I would rather provide for the record any 
comment.
    Senator Helms. That would be fine.
    [The following information was subsequently supplied:]

                                 TIBET

    Question. I want you to tell me something about Tibet. What are we 
going to do to furnish some help for those beleaguered people over 
there?

    Answer. We are deeply concerned about persecution of Tibetan 
Buddhists. Advancing the human rights of all of China's citizens, 
including Tibetans, is one of our key goals in China. We urge Chinese 
leaders to preserve Tibet's unique cultural, linguistic and religious 
heritage.
    The State Department provided $1 million in FY 2000 to the Bridge 
Fund, a non-governmental organization undertaking projects in Tibetan 
parts of China aimed at cultural preservation, sustainable development, 
and environmental conservation. The Department intends to continue its 
support for this program in FY 2001.
    The Ngawang Choephel Exchange program for Tibetans resident in 
India supports 25 academic exchanges designed to assist the advancement 
of Tibetans through health, education, and economic and community 
development.
    Human rights abuses in Tibet influenced our decision to sponsor a 
China resolution in the UN Commission on Human Rights this year, in one 
of the first decisions of this Administration. We described our 
findings on repression in Tibet and other parts of China in our annual 
human rights report in February.
    We will continue to press the Chinese Government to cease human 
rights abuses in Tibet and other parts of China.

    Senator Helms. Have you met His Holiness?
    Mr. Powell. Not yet.
    Senator Helms. I want you to do that and I will arrange it.
    Senator Biden. Thank you.
    I would make an observation that my staff made to me. I do 
not know how many Secretaries of State that have been before us 
for confirmation since you and I have been here, and we came 
the same year, Mr. Chairman. But I must tell you, I am 
impressed. I have not seen any notes slipped to you and there 
has not been a binder in front of you, and this has been a tour 
de force on your part and you should be complimented publicly 
for that. Not that there is anything wrong with having binders 
in front of you and notes and the rest, but it is nice to know 
that you have the confidence to state your views that have been 
formed over a long period of time.
    A couple things. Nonproliferation, we mentioned it before. 
I do not expect you to have a specific answer, but I would 
like, if you have an insight, tell me. If not, for the record. 
As you know, there was a task force that was chaired by Howard 
Baker, a friend of yours and a friend of mine, former leader 
here, and Lloyd Cutler, well-respected negotiator in Democratic 
administrations, a leading lawyer in Washington, that warned 
that the most urgent unmet national security threat to the 
United States today is the danger that weapons of mass 
destruction or weapons-unstable material in Russia could be 
stolen or sold to terrorists or hostile nation states and used 
against American troops abroad and citizens at home. That was 
the conclusion of the report on terrorism.
    They went on to make a very strong recommendation, which I 
happen to agree with. I am not asking you to agree to the exact 
number, but on that committee, by the way, were former Senators 
McClure of Idaho and Simpson of Wyoming. They called for a $30 
billion program, over the next 8 to 10 years just to secure or 
destroy Russian excess nuclear weapons material and technology.
    Would you just give me your general sense? I am not asking 
you to sign on to $30 billion, but what do you think? How 
urgent is this issue?
    Mr. Powell. I think that they are right on. Huge inventory 
of weapons and other material that is excess to any conceivable 
needs they might have in the future, left over from 
decommissioning all of those theater nuclear weapons of years 
ago and weapons systems that are now excess and far above the 
START I and now the START II limits. So I agree with them 
entirely. But as you noted, I cannot buy into a specific number 
at this time.
    Senator Biden. I am not asking you to. I am not sure I buy 
into the specific number. But we do agree, though, that there 
has to be a significant effort?
    Mr. Powell. Yes, no doubt about it.
    Senator Biden. It is not an incremental thing.
    With regard to the Balkans, I was with one of your old 
buddies who is now SACEUR, General Ralston. I sincerely hope, 
and I am sure you will, that you will get a chance to confer 
with him relatively soon after your confirmation if you have 
not done it already, about the Balkans. I have one question. 
Not to go rehash who was right, who was wrong, what 
recommendations were made, what should have been made: Have 
your views at all about the sustainability of an air war, 
completely an air war, been altered at all by what happened in 
Kosovo? That is the question.
    Mr. Powell. I have always believed that if you go to war 
you should go to war with all the assets at your disposal: air 
power, ground power, naval power. I believe if a potential 
opponent knows that you are going to use everything that you 
have, you are coming with everything that you have got, not 
only do you have a deterring effect, but you are probably going 
to influence his behavior, rather than if you suggest to him 
you are only coming in one dimension.
    As I said to President Bush at the beginning of Desert 
Storm and, frankly, during the period of Desert Shield as we 
were building up and the question came, why do you need so 
much, why do you need so much, the answer was: We want to make 
this a given that we are going to win. I hope that the Iraqi 
Army breaks the first time they are bombed. If they do not 
break on day one, I hope they break on day five. But if they do 
not break as a result of air power alone, then you cannot be 
left standing there with nothing else.
    Air power, at the end of the day air power relies on the 
enemy deciding when the conflict is over, just as the Serbians 
decided when the conflict was over. When you add the other 
dimensions, especially ground power, you take the initiative 
away from the enemy. What we told President Bush in 1990 and 
1991: If we go into Desert Storm, this outcome is no longer in 
Saddam Hussein's hands; it is in our hands.
    I just think that is a preferable way to conduct a 
conflict. But I also, and said so at the time of the bombing--
President Clinton looked at his political situation and came to 
a different conclusion of what he would be able to do 
politically. But if I had been left to my own devices, I would 
not have just conducted an air war, and perhaps it might have 
been a shorter war.
    Senator Biden. To be clear, I think we are talking about 
the political situation meaning NATO, not the political 
situation at home. Or are you referring to that?
    Mr. Powell. I am referring to all the political elements 
that the President had to take into consideration.
    Chairman Biden. That was one of the few things I was deeply 
involved in day to day and, as you well know, two of our major 
allies were adamant about not mentioning ever the possibility 
of ground forces, and it was a great source of--and I happened 
to disagree. I mean, I actually introduced a bill here with 
John McCain for the use of ground forces.
    Mr. Powell. I remember.
    Senator Biden. But I think, as you well know, General, you 
are going to be faced and the President will be faced if there 
are similar circumstances, where our NATO allies do not always 
have the same--I mean, it is a real tough deal. When everybody 
was telling me about we never want to conduct a war like that 
again, a war by committee, a war where we have to, I point out 
that is what General Eisenhower did. He conducted a war by--the 
reason he ended up being, I think, one of the most 
underestimated Presidents in American history is that this was 
a guy who was an incredible general and an incredible 
politician while he was a general, while he was a general.
    I mean, to keep that gaggle together was not an easy thing 
in terms of the decisions to be made, where to invade, when to 
invade, what to do. He was not over there just deciding this is 
where we go. I do not know--there is a lot of revisionist 
history going on in this place where people think, well, you 
know, it has got to be run by an American general and an 
American general calls all the shots. We have never--we did not 
call all the shots in World War II.
    We ultimately got our way, but it took a lot of cajoling. 
He showed up, he spent time with Churchill, he spent time with 
Montgomery. He spent time with a lot of people. His patience 
must have been the patience of Job. I mean, he could have been 
a majority or minority leader of the Senate.
    But at any rate, I know, and I mean this sincerely, I know 
your colleagues, former colleagues in the military in Europe, 
are anxious to talk to you.
    Mr. Powell. You would acknowledge that toward the end of 
the air war a ground campaign was being prepared.
    Senator Biden. Exactly right. I think, quite frankly, if 
you will recall, what happened at the very end, when in the 
name of deploying forces in Macedonia in order to be ready if 
he capitulated, to go in, immediately to move, the purpose of 
that was to send a signal, we are mounting a force and we are 
coming.
    But the point I am making is it required that veil, because 
had the President said straightforwardly what the reason for it 
was, not so much at home, but to our allies, we would have had 
a problem. I know you know that. One of the things that gives 
me reassurance, and I mean this sincerely, even though we have 
had differences in degree, I think you turned out to be right 
in the gulf and I was wrong in the gulf. I respectfully think I 
was right in the Balkans and I am not sure whether you were 
right or wrong, but I hope you conclude that we are in for the 
deal here.
    But one of the things that gives me reason for--gives me 
great solace is I know you know the Europeans. You had to do 
this. You had to do this every day. It is not an easy marriage. 
It is the most important one we have, as you pointed out, but 
it is not an easy one. I really mean it. I feel so much better 
we have a Secretary of State who did it day to day, understands 
it. I know you have kept up, but in the 7 years you have been 
gone it ain't gotten easier. So I look forward to you hearing 
what they have to say.
    I have a number of other questions. I am not going to take 
the time now to ask them. I will just speak to one. Again, if 
you would rather not answer it now I understand, but it is 
something I think a lot of people, starting with myself, are 
wondering about. That is that you are as an administration 
going to be, not reconsidering, but considering what type of 
national missile defense is most appropriate, when it could be 
deployed, how it will affect--as you said, any prudent 
President would look at how it will affect our allies as well 
as our adversaries.
    I guess less than a question, more of a plea. I hope you 
will look outside the box here. What has been discarded as sort 
of poppycock was Putin's assertion about boost phase, maybe we 
could work something out. I am skeptical whether we could, but 
I hope we would not dismiss out of hand that prospect. I would 
give it a 1 in 10 chance.
    But I think if we begin to think in ways that we have been 
unwilling to--for example, the whole notion of tieing a missile 
defense to an offensive reduction and some combination thereof. 
There may be a formula here, General, as you well know, to be 
able to combine the two and actually render all of us more 
secure by convincing--for example, as you know better than I 
do, China has 18 ICBM's. That is all they have, city-busters, 
can do a lot of damage.
    I do not want to see them go to 200, 500. I do not want to 
see them MIRV. I do not want to see them with new guidance 
systems. I do not want to see them that, in their own 
interests, they have to do it. Now, they may do it anyway. I 
hear that as well. But again, I have been looking at the 
intelligence for this for the last 12 years as well as anybody 
can here.
    I just hope you think outside the box here a little bit, 
again not to do anything based on faith, not to do anything 
based on trust. You know, as Ronald Reagan used to say, 
``Trust, but verify.'' But I really hope you will be willing to 
look outside the box a little bit.
    Mr. Powell. I will, Senator, and I take your comments very, 
very much to heart, Mr. Chairman. I think it is important to 
look outside the box and see if there are not other solutions 
out there that we can factor into our considerations.
    Senator Biden. Senator Hagel and then Senator Dodd.
    Senator Hagel. Thank you, Mr. Chairman.
    Secretary Powell, you mentioned and Senator Biden just 
referred to the Balkans. I note in your testimony this morning, 
and we have discussed this, as you have with others, that there 
will be I suspect an immediate--that is my word, but I would 
suspect it is a high priority for the Bush administration--
comprehensive review, as you stated in your testimony this 
morning, of our troop commitments, not just in the Balkans, as 
you note, but everywhere.
    Could you elaborate a bit on that as to--I know there are 
other players in this as well as the Secretary of Defense, Dr. 
Rice, the Vice President, I suspect--what might be the 
timetable on this, when we might expect some kind of a policy?
    Mr. Powell. I wish I could, Senator Hagel. But I think I 
would be tromping on Secretary Rumsfeld's turf on that, so I do 
not want to put him in a box. He and I are getting together 
tomorrow morning to talk over many of these issues, but at the 
moment I would be reluctant to put a specific timetable on what 
is essentially his work.
    Senator Hagel. Well, obviously it is in your portfolio as 
well as Secretary of State. But I appreciate what you are 
saying.
    It was suggested this morning, and I do not believe 
overstated, that most of the Senators on this panel, if not all 
Senators in this institution, have had calls or meetings or 
conversations with a rather nervous group of allies in Europe. 
I do not think I am telling you anything you do not already 
know, but obviously this will be, I suspect, a high priority.
    Mr. Powell. I think I can say it is not going to be some 
long, extended, year-long review. We know where they are, we 
know the nature of the missions, we know the sort of 
disruptions that are caused in our force structure. So I would 
not think it would be a very, very long survey. But Secretary 
Rumsfeld has got to get in, he has got to get his team in so he 
can get started on that work.
    Senator Hagel. Thank you.
    On the issue of ABM, which has been referenced just here a 
couple of minutes ago on national missile defense. You note in 
your testimony this morning: ``The ABM Treaty in its current 
form is no longer relevant to our new strategic framework. We 
hope to persuade the Russians of the need to move beyond 
that.'' Could you talk a little bit about that?
    I assume what you mean here is we need to scrap the ABM, 
resolution what are we saying here?
    Mr. Powell. We might be able to move beyond its current 
understanding by modifying it. It may be necessary ultimately 
to walk out of the ABM Treaty and abrogate our 
responsibilities. I do not think we are there yet. I think we 
have got a long way to go and we have a lot of conversations to 
have with the Russians over this.
    But the point I was making is that the framework that that 
treaty was designed for was a framework that really is not 
relevant now. We are moving forward with the capacity to 
develop missile systems, missile defense systems, and the only 
way we can eventually move forward to that goal is to see the 
ABM Treaty modified or eliminated or changed in some rather 
fundamental way from the manner in which it has been 
implemented since it was signed in 1972.
    Senator Hagel. Well, I know you connected that, as you 
must, to any form of national missile defense and all the other 
dynamics, our allies, which you spoke to rather clearly I 
thought this afternoon.
    An area that did not get much coverage, I noticed, in your 
testimony this morning and not much here in the conversation we 
have had today is Central Asia, Turkey. As you know--we talked 
a little about this--I was in Kazakhstan last month for a 
tropical vacation and that is an area that I think we need to 
spend a little bit more time focused on, Central Asia, 
geopolitically, strategically, energy.
    As you know so well, that is really the southern buffer 
zone for the Russians from Islamic fundamentalism, which they 
are very concerned about. One of the thoughts that I have had, 
and I have discussed this with others in that area and the 
Russians, is that that surely is a common denominator self-
interest issue that we have with the Russians and with many of 
our Middle Eastern allies as well. Islamic fundamentalism is 
not good for most of those countries, and it is creeping and it 
is dangerous and it breeds more terrorism.
    Would you talk a little bit about that and maybe link in 
the Turkish connection?
    Mr. Powell. I could not agree with you more. I think Turkey 
has been one of our steadfast allies for so many years, and I 
am very proud of the relationships that I have had with Turkish 
leaders over the years and the Turkish Armed Forces and I hope 
to be able to use those relationships as I begin my stewardship 
as Secretary of State. So I am committed to a strong Turkey, a 
Turkey that is making a major contribution still in Europe. I 
hope that some of the problems that currently exist between 
Turkey and its other European partners with respect to how to 
integrate the EU and the non-EU contributors, NATO 
contributors, to the European defense and security initiative 
can be worked out, and I hope I can perhaps play a role in 
that.
    But when you go from Turkey then to the east and to all of 
those other nations that you are talking about, you are getting 
into a breadbasket of instability, with great oil reserves, 
which will attract attention and attract those who wish to 
exploit wealth from that region. It is a region of great 
concern to the Russians because it is their soft underbelly.
    I think that may be an area that we can talk to them and 
discuss with them how we can be helpful. But we will have to be 
cautious and careful so that they do not think we are tripping 
on what they consider, as you well know, their ``near abroad.'' 
So I think we can begin delicate conversations that suggest we 
have a mutual interest in increasing stability in that region 
of the world and making sure we get a sensible solution to 
bringing out the wealth of that region for the benefit of the 
rest of the world and to provide wealth to those nations, who 
so desperately need it.
    Senator Hagel. If I might, just one additional comment, Mr. 
Chairman.
    As you know, Mr. Secretary, the Clinton administration put 
into place an ambassador for that region. I think the focus 
there has been somewhat hit and miss, but Secretary Albright 
did understand, and I think President Clinton did, the 
importance of that, and I would hope you all would look at 
reinvigorating that commitment. Thank you.
    Mr. Powell. I will. I am well aware of the ambassador and 
the role being played by the ambassador in the region and will 
take a look at it as I realign the troops of the State 
Department.
    Senator Hagel. Thank you.
    [A press release by Senator Hagel follows:]

                   [Press Release--January 17, 2001]

         Senator Hagel to Support Powell for Secretary of State

     Support Comes After Personal Meeting and Confirmation Hearing

    Washington, DC.--U.S. Senator Chuck Hagel (R-NE) added his 
enthusiastic support today for the nomination of Secretary-designate 
Colin Powell as Secretary of State. Hagel met with Powell last week and 
participated in his confirmation hearing today in the Senate Foreign 
Relations Committee.
    ``Over the next four years the U.S. will be confronted with 
geopolitical, military and economic challenges around the world. These 
challenges will require leadership, understanding and statesmanship. I 
believe Secretary-designate Powell is extraordinarily well-prepared to 
meet these challenges,'' Hagel said.
    ``Not since the distinguished service of General George Marshall 
has a soldier-statesman come to this position with Secretary-designate 
Powell's degree of experience. Like General Marshall, Secretary-
designate Powell has seen the best and the worst of the world. As I 
have traveled around the world, I have found Secretary-designate Powell 
is respected by world leaders as a man of dignity and a man of his 
word. His skills as an effective manager will be an essential tool in 
the State Department,'' Hagel said.
    Hagel met with Powell to discuss many issues that will face him as 
the next Secretary of State. During today's hearing, Hagel asked Powell 
to comment on the need to integrate trade and economic policy into 
foreign policy, sanctions reform, climate change, U.S. policy toward 
Iran, peace in the Middle East and American leadership in the world.
    A son of immigrants, Secretary-designate Powell served as Chairman 
of the Joint Chiefs of Staff, the highest military position in the 
Department of Defense, from October 1, 1989 to September 30, 1993. He 
is the recipient of numerous military awards and decorations, including 
the Defense Distinguished Service Medal (with 3 Oak Leaf Clusters), the 
Army Distinguished Service Medal (with Oak Leaf Cluster), the Bronze 
Star Medal, and the Purple Heart. Among the civilian awards he has 
received are two Presidential Medals of Freedom, the Congressional Gold 
Medal and the Secretary of State Distinguished Service Medal. He also 
received an honorary knighthood from Her Majesty Queen Elizabeth II of 
Great Britain.

    Senator Helms. Gentlemen, our friend is about to lose his 
voice, so be as brief as you can, please. First, Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    I appreciate your patience, General, in trying to cover 
these last few areas here, and we will get it done and get you 
on your way here. A couple of quickies.
    Let me just mention again, I am not interested in engaging 
in a discussion about it. Again, we talked about this. Northern 
Ireland, there is a great sense of optimism, I think, within 
both communities, both traditions in Northern Ireland, over the 
Good Friday Accords and where we are heading with that. I am 
not suggesting it needs any immediate attention specifically, 
except to the extent that I would hope that the new 
administration would see the value in trying to at least offer 
their good offices where appropriate to assist in achieving the 
goals contained in that historic accord and bring an end to one 
of the long outstanding conflicts in Europe. We talked about 
it. Again, I do not expect you to----
    Mr. Powell. I certainly agree with you and we will.
    Senator Dodd. I appreciate that.
    Again, I just want to mention briefly, I know Senator Biden 
and Senator Helms have raised it, and that is with regard to 
the Department itself and moves that you want to make in order 
to get this up to speed. I underscore the points. We have some 
tremendously valuable people who serve in our State Department, 
but I think you will find a willing committee up here to be of 
assistance to you when you lay out some plans on how we can see 
to it the Department is able to function more expeditiously.
    I could not help but notice here in the audience Barbara 
Larkin and Kay King, who have been terrific and done wonderful 
jobs. Barbara worked here on this committee for a number of 
years and has been a remarkable contact for all of us, been a 
great asset, I know, to the present Secretary, and I wanted to 
mention her and Kay as well and thank them for their service to 
the country.
    Mr. Powell. May I make an observation, Senator. I have been 
transitioning into the Department for the last several weeks 
now and I want to take this opportunity to put in the record 
and thank Secretary Albright and all of the people on the 
outgoing Clinton team for the courtesies they have shown to me 
and for all the wonderful work they have done.
    I am glad that you have taken note of Ms. Larkin and Ms. 
King and the other colleagues behind me. I would have done it 
at the end, but thank you, Senator, because they have been 
helping me enormously, even though they are part of the 
outgoing administration. So it has been a very, very fine and 
smooth transition and handoff down at the Department of State.
    Senator Dodd. I appreciate your comment.
    Mr. Powell. I would like to express my appreciation to them 
as well.
    Senator Dodd. Thank you.
    Again, I do not know what the intentions are with regard to 
the naming of a special envoy, special assistant. I do not know 
what the proper title has been. But Mack McLarty and Buddy 
McKay have occupied an office. I am not quite sure where their 
office is, but in dealing with Latin American issues. Again, if 
you would just give some thought to that. I realize you can 
start making a case where every region of the world could make 
a case for that. But they have been tremendously helpful, both 
of them have been, and I know you will consult them.
    Mr. Powell. I know both of them and they have both done a 
terrific job. I am studying that now. To be to the point, 
Senator, there are a very large number of envoys running around 
and I have to make sure we really need them.
    Senator Dodd. I do not disagree with that.
    Mr. Powell. Because part of my plan with the State 
Department is to put our Foreign Service officers in charge of 
the work of the Department, to motivate them, to give them a 
sense of responsibility and let them know we trust them, we 
have confidence in them.
    There will be no new studies, no more new group of wise men 
coming together to tell us how the State Department should be 
organized.
    Senator Dodd. I can hear the cheering now.
    Mr. Powell. I am drowning in studies. They are all fine, 
they are all noble. It is now time to do something with them 
and not commission another study. So we are going to start 
doing things and share with you what we plan to do, whether it 
is reorganization--it is not going to be a grand scheme of 
reorganization. We are just going to start fixing things, the 
recruiting system, the embassy building system, one by one by 
one, like coral coming up out of the water, I hope.
    Senator Dodd. You will hear loud applause from this side of 
the dais on a lot of that. So I commend you for it.
    The last two issues I want to raise, the chairman has 
raised both of them and expressed his opinion about them. 
Senator Helms and I have worked together for 20 years on this 
committee and we have had our agreements, we have had our 
disagreements on some issues. These are two on which we have 
some disagreement.
    One is regarding Cuba, that he has talked about already. 
There has been unfortunately, I think on the part of some 
anyway, a desire to sort of demonize those of us who have 
looked for an alternative way of creating what Zbigniew 
Brzezinsky called the ``soft landing,'' the transition, when it 
comes--and I think it will come sooner rather than later--in 
Cuba and how we might engage the 11 million people in that 
country, the overwhelming majority of whom do not support Fidel 
Castro, but would like to see a policy developed in this 
country which would speak to them.
    We passed last year with 72 votes in the Senate of the 
United States lifting the embargo on food and medicine. It was 
John Ashcroft and myself who offered the amendments to lift the 
embargo. I do not know what John is calling himself today, but 
he was a conservative back then when he was offering that. My 
colleagues Senator Hagel, Senator Warner, Senator Roberts, and 
there were a number of others. Obviously, with 72 votes, this 
was not just a Democratic Party initiative.
    Again, I am not asking you here to embrace a particular 
point of view and I realize it is difficult and there are a lot 
of emotions associated with this. I have great respect for the 
exile community and what they have been through. We had Mel 
Martinez, the new designate to be HUD Secretary, before us 
today, and the compelling story of what he has been through and 
his family has been through. So none of us carry any brief for 
a government that has caused so many people to have to leave 
their homes and the destruction that has been caused to human 
beings as a result of the leadership of Castro.
    But we are also looking for ways in which we might create a 
different dynamic so that we can start to figure out a way to 
bring some opportunity to people there. Again, I just want to 
express from my point of view this is an issue I think we ought 
to engage. I think it is important, and it needs to be in the 
best interests of the United States and not particularly 
interest groups, as important as they are. So there is a 
difference of point of view on that.
    The second issue is the International Criminal Court. I 
heard your strong words here. When President Clinton signed the 
international agreement, he committed the United States not to 
work against the purposes or objectives of the treaty. Again, I 
would not vote for the treaty to ratify it as it is presently 
worded, for the very reasons that you have outlined, that there 
are some legitimate concerns about what would happen to men and 
women in uniform in the country.
    But as it presently exists, right now it is an ad hoc 
operation. We have these conflicts and then we have ad hoc 
tribunals. As someone who was an infant of about a year or 2 
years of age when my father went to a place called Nuremberg 
and was executive trial counsel there, I heard him lecture his 
children growing up over the years that had there been such a 
tribunal prior to the outbreak of World War II it might just 
have made a difference. If there had been some place where 
those people who argued that they only did what they did 
because they were ordered to, knowing that they would pay a 
price for it, we might have had a different set of 
circumstances.
    So while there are legitimate concerns about an 
International Criminal Court, there is also great value in one 
that could work and would not place, as I say, our own military 
personnel in harm's way. One of the ironies is that under the 
treaty as it is, even if we do not sign it, there is the 
potential that our own people could be subjected to the 
jurisdiction of the treaty if they are operating in nations 
that have signed it.
    So there is a value, it seems to us, in trying to change 
this and make it work in a way that would serve our interests. 
We are entering a new millennium, a new world, a global 
economy. It is shrinking all the time, and these issues are 
important.
    So again, I would not sign or I would not support the 
treaty as it is presently written, but I think it is a good 
idea. It deserves some work and I hope we would not just write 
it off.
    Mr. Powell. My mind is not closed on this, Senator. It is 
just this particular treaty in this particular form.
    Senator Dodd. I appreciate that.
    Senator Biden. Thank you, Senator.
    Senator Helms. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Thank you, General. A couple of questions. I just want to 
followup on a couple of items. Sorry I have not been here the 
whole time. I am also on Judiciary and Senator Ashcroft's 
hearing has been a little tough as well.
    No. 1, I want to get back to Central Asia and the cross-
cutting issues that are involved in that region of the world, 
because I think it really is a microcosm of a lot of major 
cross-cutting issues that you are going to be facing: 
terrorism, drugs, gun-running that is taking place in this 
region. You just had an exchange with Senator Hagel which I 
appreciated about what is taking place there now.
    I have hosted two meetings of the Presidents of this 
region, of the Central Asians, the Stans and the South 
Caucasus, that is Georgia, Azerbaijan, Armenia. They really 
want to be well-related to the United States. They want to be 
strongly related. They want to have a strong East-West axis in 
their outreach and not just be a pawn of Russia or what is to 
the south of them or a militant fundamentalism taking place, 
growing up in their own back yard.
    They are really concerned about this, and they do not think 
they have got much time, that they have got to show real growth 
taking place in their nations, have real opportunities coming 
for their people within the next couple of years, or who knows 
which way it goes. Do they have to go back into a Russian 
sphere of orbit and have to be economically and otherwise 
dependent on them? Do we get pulled into a militant 
fundamentalism because our people just are not satisfied with 
what we have produced in this transition?
    This is a critical time for them, and it is a critical 
area. I have held a number of hearings on this topic. I have 
traveled to the region. I have worked with the Presidents in 
the countries. They are all not Jeffersonian democracies, nor 
Jefferson themselves. But I really would urge you to work with 
them.
    I would urge you to focus as well on Afghanistan, which we 
walked away from after the fall of the Soviet Union. God bless 
them that they were one of the linchpins that helped bring it 
down. But now it is one of the--75 percent of the heroin 
production in the world. It is a huge place. It is a summer 
camp for terrorism, or terrorists. We are really going to need 
to focus there.
    I am urging a unified approach, working together with all 
of the countries in the region, encouraging them to work 
together. We passed the Silk Road Strategy Act 2 years ago to 
encourage the countries in the region to work together. I think 
that can be built on, but it needs to have some pretty 
aggressive steps and it needs to have economic growth and it 
needs to be together and the United States has to be 
aggressively involved and we are going to have to stare the 
Russians down at times in that area.
    So I just wanted to put that out there, and I urge you to 
look particularly at Afghanistan. Potential support for the 
northern alliance in Afghanistan might be something we want to 
look at.
    The second issue I want to lay in front of you is what is 
taking place overall in the world of trafficking of human 
beings. I just got back from Thailand--12-, 13-, 14-year-old 
girls sold into prostitution. The Thais are trying to work on 
it. I think they really do want to start to address it. We need 
to put pressure on them, because you look in the eyes of those 
little girls and you just, if you have got the ability to help 
them you need to do it. To whom much is given, much is 
expected. Maybe it is because I have daughters that age. It is 
just impossible for me to look at that without doing something.
    Finally, I want to hand to you a series of photographs and 
direct stories that a staff member of mine just received on a 
trip to the Sudan about a month ago. She was in with a group, 
Christian Solidarity International, that was doing a slave 
redemption program. If you can imagine, in the year 2001 we are 
still doing this: over 4,000 people bought back.
    If you look at those pictures and read some of those 
stories of women who were taken in slave raids, mutilated, 
gang-raped, treated like dogs, and then now bought back in a 
chattel system, it is unthinkable that it is still going on. 
There are things we can do for the southern Sudanese to get 
them to a place where they can have freedom and be able to not 
be subjected to this horrifying thing that still goes on in the 
year 2001.
    It really is an unthinkable situation. I would offer to 
travel in with you, with your new Assistant Secretary for 
African Affairs, to the Sudan, to a slave redemption trip, to 
see with your own eyes, to talk to the people themselves of 
what this is that is taking place.
    It will not require us to send in the Marines to solve it. 
Really, I think some clear steps and clear statements from the 
United States can have action take place and have this stopped 
that is taking place. If this was happening in Europe today, 
there would be no question. We would be all over it. We would 
not stand for it. This is intolerable to have this taking 
place. Yet, it is Africa, so what happens?
    It needs to stop. I know you have a heart to deal with that 
and I really would offer my services in any way I can to assist 
in that taking place and some common steps, modest steps that I 
think can be taken to really solve I think the most horrifying 
situation that currently exists in the world today.
    Thank you, Mr. Chairman.
    Mr. Powell. Thank you, Senator. I certainly share your view 
about this and I share the deep emotion that you hold for this 
issue, and I look forward to working with you on it, and 
perhaps taking that trip.
    Senator Brownback. Thank you.
    Senator Biden. We are getting ready to close down, but I 
want to check. Senator Nelson says he has a couple questions. 
Senator Allen, do you have any more questions?
    Senator Allen. My only comment I would make is that the 
statement that the General gave today is an outstanding 
statement. I do not know how these are disseminated here in the 
U.S. Senate, but it is one of history, of traditions of our 
country, brought to the present day and the future. It really 
is a great summary of our history, the historic nature of his 
life, but also where we need to go as a Nation. I think it 
would just be great reading for high school students across the 
world. It is in plain English that real people in the world 
will understand. I commend you for it, General. However we can 
get this disseminated--hopefully the newspapers will print it. 
Read it on line.
    But I would only conclude, Mr. Chairman. I have no other 
time other than that and, General, thank you, good luck. We 
hope to have you nominated and ratified as soon as possible.
    Senator Helms. Could I say, the dissemination of the text 
of the Secretary's remarks this morning will be on our Web 
site.
    Senator Allen. Good.
    Senator Biden. Senator Nelson, then we will close.
    Senator Nelson. Thank you, Mr. Chairman.
    Do you think there should be, Mr. Secretary-designate, any 
changes in our policy with regard to the export of satellites, 
encryption materials, conventional weapons, computers?
    Mr. Powell. I have difficulty answering that since I am 
about 7 years out of cycle with respect to the current 
standards and criteria. I used to be quite expert in it, and so 
I would be reluctant to make a statement without reviewing the 
various criteria that now exist.
    A couple of things that do, however, is that, as opposed to 
10 or 12 years ago when we were reluctant to sell various kinds 
of computers or other items of technology, we have now 
discovered that they are fungible items. They are all over the 
world, and if we do not sell them somebody else will. They are 
not hard to get. So we better make sure we know what it is we 
have to protect and not protect those things that are not 
necessary to protect and we are just doing it out of 
bureaucratic action.
    I also think that we have to be quite agile in solving 
these kinds of issues quickly. One of the things we will be 
looking at in the State Department is how quickly we deal with 
the various commercial licenses that come before us for our 
approval, guarding the Nation's interests, protecting our 
secrets, but at the same time not putting our Nation at a 
competitive disadvantage.
    Senator Nelson. Well, back when you were in the leadership, 
perhaps even before you were on the Joint Chiefs, we had a 
significant issue in the tension between Commerce and Defense 
on the issue of whether or not we ought to be exporting 
American satellites to be launched on Chinese expendable 
rockets. What was your feeling about that at that time?
    Mr. Powell. I do remember that. I was neither in Commerce 
nor Defense, but I was the National Security Adviser, so I was 
often called in to break the tie. I am going on a little bit of 
memory here, but my recollection is that we did find ways to 
conduct launches in ways that protected our technology and 
whatever we wanted protected in the satellites that would be 
launched. But I really am quite out of date as to how that 
unfolded and how it progressed.
    Senator Nelson. Perhaps my memory is hazy as well, but I 
think that there was some serious compromise to technology 
transfer from the United States to the Chinese as a result of 
the selling of those satellites to be launched on Chinese 
launchers. I think that the Commerce types won the day back in 
the eighties and I do not think that was in the interest of the 
United States. I think we are going to be facing that question 
continuously, not only with regard to satellites, but on a 
number of other items as well.
    Mr. Powell. Yes, sir, and I have heard those reports and I 
remember some of the Loral cases. I will become very 
knowledgeable before I come before this committee the next 
time.
    Senator Nelson. If that fight is in the future between 
Commerce and Defense, it would be my hope, with your 
background, your expertise, your stature, that as the chief 
foreign officer representing the United States that you would 
weigh in on that.
    Mr. Powell. I will certainly give it my attention, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Biden. General, job well done.
    Mr. Powell. Thank you, Senator.
    Senator Helms. We are adjourned.
    [Whereupon, at 4:42 p.m., the committee was adjourned.]
                              ----------                              


             Additional Questions Submitted for the Record


 Responses to Additional Questions for the Record Submitted by Senator 
                              Jesse Helms

                            CONSULAR AFFAIRS

    Question. Consular Affairs has probably the largest and most vocal 
American constituency. The Bureau is of critical importance, although 
it is not without its own serious flaws. Will you work with the 
Committee to find ways to correct those flaws, and to ensure that 
consular considerations are fully and properly considered in the larger 
foreign policy resource picture?

    Answer. I share your appreciation of the critical mission of the 
Bureau of Consular Affairs. With its responsibilities for American 
citizen services, passports and visas, Consular Affairs is the bureau 
most routinely in touch with the American public domestically and 
abroad. The Bureau is a leader in the Department's approach to customer 
service, the use of technology and innovative ways to deal with an 
ever-increasing workload. Like the rest of the Department, the Bureau 
could do even more to serve our American constituency with additional 
personnel resources. With added staff, we could more effectively meet 
our workload challenges, while permitting a ``training float'' that 
would provide more skills-based training for our employees.
    Because of Consular Affairs' importance to the Department's 
mission, I promise you that it will be given full consideration in all 
foreign policy resource decisions. I look forward to working with you 
on these issues.

                CONSULAR AFFAIRS: TRAVEL SAFETY PROGRAMS

    Question. Many travel safety problems awaiting Americans are 
unreported, such as assaults on women, murders, suspicious deaths and 
accidents, and hotel fatalities (e.g., falls from balconies). Specific 
steps are needed to ensure that the traveling public is better informed 
about these problems. What kinds of steps will you take? Will you 
charge your new Consular Affairs management team with examining how the 
Department can work better with the travel industry and other sectors 
to improve safety abroad for the American traveling public?

    Answer. The safety and security of U.S. citizens abroad is a top 
priority. The Bureau of Consular Affairs' Consular Information Program 
alerts the American public to potential problems they may encounter 
overseas. The cornerstone of the program is the Consular Information 
Sheet, prepared for every country in the world, supplemented by Travel 
Warnings and Public Announcements regarding areas of specific concern. 
The Bureau also publishes a variety of materials targeting specific 
audiences such as older Americans and students. Every American who 
carries a passport also carries (in it) our emergency phone number, 
which is accessible 24 hours a day, seven days a week.
    We publicize this comprehensive information program with the help 
of the media, the travel industry and the Internet. Our web site now 
averages more than 350,000 hits a day. It is regularly accessed by 
individual American, travel agents, businesses, security firms, and 
schools and universities. Last year alone, the site received 86 million 
hits.
    While we cannot control events, we are committed to doing 
everything possible to prevent tragedies from occurring. To that end, 
the Department will continue to provide timely and accurate information 
about conditions that might affect the safety and security of the 
traveling American public.

                   CHINA: DIALOG WITH THE DALAI LAMA

    Question. In my view, one of the most disconcerting issues over the 
past couple of years has been the Chinese Government's refusal to 
engage in dialog with the Dalai Lama. What will the Bush administration 
do to encourage the Chinese Government to re-start the dialog?

    Answer. The Dalai Lama has expressed willingness to enter into 
dialog with Chinese leaders. We will urge China to respond positively, 
to start a substantive dialog with the Dalai Lama or his 
representatives on Tibet issues and to protect the fundamental human 
rights of all PRC citizens.

              TREATY AFFAIRS: CONSULTATION AND PRIORITIES

    Question. Article II of the Constitution requires the ``advice,'' 
not just ``consent'' of the Senate on all treaties. More 
administration/committee prior consultation over the last eight years 
might have reduced the number of unratifiable agreements entered into 
by the executive branch. Will you restore regular prior consultation 
with the committee on treaties? How will you avoid being co-opted by 
lingering Clinton administration treaty priorities, and set your own 
priorities for upcoming negotiations--particularly the Kyoto Protocol 
conference in May? Will you order an immediate review of all pending 
treaty negotiations and requests for negotiating authority?

    Answer. The Department of State and other agencies involved in the 
negotiation of international agreements frequently discuss those 
negotiations with interested committees of Congress. I would expect to 
continue this important step.
    As I indicated in my remarks with respect to the International 
Criminal Court Treaty during my confirmation hearings, the priorities 
of the Bush administration will differ in some respects from those of 
the previous administration. I look forward to active consultation with 
the committee on the administration's ongoing negotiations and treaty 
priorities.
    We will be examining those treaties currently pending in the Senate 
and will inform the committee of our priorities for action. In addition 
to those treaties already submitted to the Senate, past administrations 
have signed a number of treaties since 1976 that have not been sent to 
the Senate for advice and consent. We will be reviewing such treaties 
to see whether they merit being submitted by President Bush. Finally, 
we will be evaluating ongoing negotiations to ensure that the treaties 
being developed are consistent with the policy objectives of the Bush 
administration.

                    TREATY AFFAIRS: TREATY SIGNATURE
 
   Question. Clinton administration legal scholars have cultivated the 
notion at home and abroad that murky ``obligations'' divined from so-
called customary international ``law'' and the unratified Vienna 
Convention on treaties effectively supersede Article II of our 
Constitution. In their view, by mere signature of a treaty, the U.S. is 
somehow instantly bound--prior to Senate action on the treaty--to 
refrain from activity that is inconsistent with it. Will your State 
Department continue to perpetuate this unconstitutional myth? Do you 
believe that any treaty can bind the United States in any manner absent 
Senate ratification?

    Answer. I noted during my confirmation hearing last week that once 
the U.S. signs a treaty, it assumes a responsibility not to defeat the 
intended purpose of the treaty pending ratification. I understand the 
United States has consistently supported this principle since the 
Johnson administration. We are, of course, not bound by provisions of a 
treaty requiring ratification on the basis of our signature alone, and 
we can only become bound after compliance with our Constitutional 
requirements. But it seems logical to me that states would be expected 
not to defeat the object and purpose of treaties they have signed 
unless they make clear they do not intend to ratify.

           REVISED ANSWER TO TREATY AFFAIRS: TREATY SIGNATURE

    Question. In reply to a question from Senator Helms entitled 
``Treaty Affairs: Treaty Signature,'' you wrote in part: ``I understand 
the United States has consistently supported [the proposItion that, 
once the U.S. signs a treaty, it assumes a responsibility not to defeat 
the intended purpose of the treaty pending ratification] since the 
Johnson administration.'' Please explain the origin and content of the 
referenced Johnson administration position and related developments to 
date.

    Answer. According to the Department of State's Legal Adviser's 
office, the Johnson administration's position was taken in 1964 when it 
submitted U.S. Government comments on the International Law 
Commission's draft articles on the Law of Treaties. One provision, 
adopted as Article 18, concerns a signatory's obligation to ``refrain 
from acts which would defeat the object and purpose of a treaty'' until 
it has made its intention clear not to become a party to the treaty. In 
commenting on that provision the Johnson Administration stated that the 
United States regarded the article as ``highly desirable,'' adding that 
the article in the form it was ultimately adopted reflected ``generally 
accepted norms of international law.''
    That position has been reaffirmed, according to the Department's 
legal office, by succeeding administrations. For example, during the 
Nixon administration, Secretary of State William P. Rogers commented 
that the ``object and purpose'' principle is ``widely recognized in 
customary law.'' During the Carter administration, the Department's 
Legal Adviser found that the principle established certain immediate 
legal obligations for the Soviet Union related to SALT II; his 
Memorandum of Law on this point was furnished to the Senate on August 
2, 1979. His successor advised Secretary of State Vance that the 
principle would continue to apply notwithstanding President Carter's 
decision to request a delay in the Senate's consideration of the SALT 
II treaty. With respect to that treaty, the Reagan administration 
confirmed that the principle applied to the United States and the USSR 
between signature in 1979 and the date in 1981 when the United States 
made clear that it would not ratify. Similar positions were taken by 
the Clinton administration.

                    ISRAEL: LOCATION OF U.S. EMBASSY

    Question. What steps will the State Department take to implement 
President Bush's commitment to move the U.S. Embassy to Jerusalem?

    Answer. This is one of the many issues the new administration must 
discuss. We will be in touch with the White House on this matter and 
will follow whatever decisions and guidance are reached as a result of 
these discussions.

                  RUSSIA AND CHECHNYA: CONDITIONALITY

    Question. During the campaign, President Bush called for the United 
States to withhold financial assistance to Russia until the Kremlin 
stops its brutality against the Chechen people, initiates a cease fire 
and pursues a peaceful and just resolution to this conflict. Will this 
conditionality be part of the new administration's policy toward 
Russia?

    Answer. The conflict in Chechnya is a humanitarian tragedy that we 
deeply deplore, and we intend to make plain to Moscow that there must 
be a serious move made toward a political, not a military solution.
    U.S. assistance to Russia is targeted to areas of clear U.S. 
national interest. For example, 80 percent of our bilateral assistance 
is aimed at reducing the threat of proliferation of weapons of mass 
destruction. The vast majority of the remainder is focused on promoting 
grassroots reform outside Moscow.
    Cutting off this assistance would be detrimental to U.S. interests, 
I believe; it also would be unlikely to cause Russia to reassess its 
strategy and tactics in Chechnya. We should, however, look for other 
ways to show Moscow that there are consequences for continuing to 
ignore the international outcry over its behavior in Chechnya.

       RUSSIA/GEORGIA: HELPING GEORGIA WITHSTAND RUSSIAN PRESSURE

    Question. What can and should the U.S. do to help Georgia withstand 
menacing pressure from Russia?

    Answer. The administration strongly supports Georgia's independence 
and territorial integrity. There are a number of programs and 
initiatives in place to help counter Russian pressure tactics, and we 
will build on them. You can be assured that we will make Russian 
pressure a standing agenda item in our bilateral contacts with Russian 
officials.
    Even in the short period since my confirmation, we have worked 
closely with our European and NATO partners to warn them of the threat 
Russia's actions pose to Georgia's independence and its consequences 
for regional stability. The Europeans have joined us in publicly 
criticizing the Russian visa regime and have approached the Russians 
independently regarding the gas shutoff.
    We have provided strong diplomatic support for the OSCE Border 
Observation Mission on the border between Georgia and the Chechen 
Republic of the Russian Federation, and are providing $800,000 and five 
U.S. citizen observers to support the mission.
    Our border security and law enforcement assistance program, to 
which we've contributed $53 million, is helping the Georgian government 
develop the capabilities of its border guards and customs department to 
exercise effective control of the country's borders. We will continue 
to make it a high priority to see full and timely Russian 
implementation of their commitment, undertaken at the November 1999 
OSCE summit in Istanbul, to withdraw significant amounts of military 
equipment from Georgia and to close specific Russian military bases now 
on Georgian territory in accordance with specific deadlines.
    Finally, our $3.6 million Georgia Winter Heat Assistance Program is 
helping Georgia maintain its energy independence targeting assistance 
to the most vulnerable members of Georgia's population.

                           CASPIAN SEA REGION

    Question. What do you see as the U.S. interest(s) at stake in 
helping the Newly Independent States in the Caspian Sea region to 
strengthen their independence and achieve political and economic 
stability.

    Answer. I see a number of core United States interests in the 
Caspian Sea region. One is to promote regional security and stability 
in a region that is bordered by Russia, Iran, Afghanistan, Pakistan and 
China. Instability creates the breeding ground for the terrorism, 
narco-trafficking and weapons smuggling which plague this region.
    Another of our interests is to diversify world energy sources by 
establishing secure alternative East-West corridors for the delivery of 
oil and gas to Turkey, Western Europe and beyond. The states in the 
Caspian Sea region have significant hydrocarbon reserves. These 
resources currently reach the West via the Turkish Straits and the 
Straits of Hormuz, strategic choke points that are subject to 
environmental and political pressure and closure. New corridors provide 
the added dividend of stronger long-term economic ties between these 
Newly Independent States and their more established neighbors.
    We also have an interest in supporting the development of stable 
free market economies in the region, open to unhindered foreign 
(including U.S.) trade and investment. As these markets grow and 
broaden, the United States Government has actively advocated the 
interests of U.S. companies seeking to trade and invest in the region.
    Finally, it is in our interest to foster the development of true 
democratic civil societies in these Newly Independent States, and 
firmly anchor them to the West. Only in this way can they achieve long-
term political stability and economic growth. Through political dialog, 
membership in regional organizations like the OSCE, and use of our 
targeted assistance programs, we will continue to encourage the growth 
of non-governmental organizations, civic groups and independent media 
and invest in the future of these societies by engaging the next 
generation of leaders.

      CASPIAN: CONTINUED SUPPORT FOR BAKU-TBILISI-CEYHAN PIPELINE

    Question. Will the Bush administration be committed to supporting 
Caspian oil and natural gas pipeline projects such as the proposed 
Baku-Ceyhan oil pipeline, which would run from Azerbaijan through 
Georgia and into Turkey?

    Answer. We are aware of the importance of this region and will 
support policies aimed at four strategic objectives: enhancing the 
independence and sovereignty of the states in this region; 
reestablishing economic linkages to increase cooperation and reduce 
regional conflict; bolstering global energy security to ensure that new 
sources of oil and gas reach world markets reliably; and creating 
business opportunities for U.S. companies.
    I understand that there are actually five specific pipelines in 
operation or under development:

  <bullet> the Baku-Novorossiysk (from Azerbaijan to Russia) and the 
        Baku-Supsa (Azerbaijan to Georgia) oil pipelines, both of which 
        are functioning;
  <bullet> the Caspian Pipeline Consortium project (from Kazakhstan to 
        Russia), which is under construction;
  <bullet> the Baku-Tbilisi-Ceyhan oil pipeline, which is under 
        development; and
  <bullet> a Caspian Gas Pipeline (from Azerbaijan to Georgia and 
        Turkey), which is also under development.

    Georgia, Azerbaijan and Kazakhstan share our strategic objectives 
and view these projects as absolutely critical to their countries' 
economic future and independence. The Turks, a NATO ally, see the 
pipelines as strategic links into the Caucasus and Central Asia and 
remain concerned about any radical increase in the amount of oil 
shipped through the Bosporus.
    Baku-Tbilisi-Ceyhan has moved significantly ahead in recent months: 
all framework agreements are in place, and a sponsors' group of 
investors formed in October and is currently conducting engineering and 
financing efforts. The project needs to attract additional investors 
among oil companies operating in Kazakhstan, thereby improving the 
project's economics and extending its strategic reach across the 
Caspian and into Central Asia. It must be commercially viable, of 
course but that is a judgment the companies involved must make.

                               SANCTIONS

    Question. You and the President-elect have both criticized the 
Clinton administration for its proliferation of military interventions, 
and have said that greater care must be taken before sending American 
troops abroad. The two major alternatives to military intervention are 
diplomacy and economic leverage. So while, as you have said in the 
hearing, we should be careful not to overuse sanctions, does your 
prudence regarding military intervention mean that sanctions will 
remain an important tool of U.S. foreign policy?

    Answer. I certainly would not rule out the use of sanctions--many 
of which, of course, are law. When properly designed, implemented and 
applied as part of a coherent strategy, sanctions can be a valuable 
tool of U.S. foreign policy for enforcing international norms of 
behavior and protecting our national interests. Whenever possible, 
however, sanctions should be imposed with multilateral support to 
enhance their effectiveness.
    Unilateral economic sanctions are not a panacea. We should turn to 
sanctions only after considering other options, and after weighing the 
potential costs against anticipated benefits before they are imposed. 
Sanctions should target the foreign government or group responsible for 
the offending action with minimal adverse effects on innocent parties. 
Keeping in mind that sanctions do not always achieve their goal within 
a short time, they should be frequently reviewed to determine whether 
they are relevant and serving the original purpose. Finally, the 
President should be allowed to use sanctions flexibly to respond to 
constantly changing and evolving situations and to balance competing 
national interests.

                         IRAQ: FLIGHT CONTROLS

    Question. As you noted when you were designated as Secretary of 
State, the sanctions regime against Iraq should be ``re-energized.'' 
One example of the deterioration of the regime is the spate of 
international commercial flights--initiated by Russia and France--into 
Baghdad. While some of these countries are purposely violating 
sanctions for political reasons, others assert that these flights do 
not violate sanctions. The Clinton administration maintained that these 
flights require not only notification but approval from the sanctions 
committee, in your view do these flights constitute a sanctions 
violation? If so, pursuant to the terms of Section 534 of the Foreign 
Operations Appropriations Act of 2000, should assistance be provided to 
nations that violate sanctions on Iraq?

    Answer. As I made clear in my testimony, the viability of the 
sanctions regime vis-a-vis Iraq is important to the Bush 
administration. The UN Sanctions Committee has approved most flights 
that have gone into Iraq. Some such flights have gone after 
notification to the committee but before approval, however, and a few 
have gone without either notification or approval. In our view, flights 
without approval are not in accordance either with the relevant 
Security Council resolutions or with long-standing practice. Several 
countries, including France and Russia, have asserted that flights 
carrying passengers or humanitarian items do not require committee 
approval. The Bush administration will continue to work with the French 
to develop a flight control regime, on which the sanctions committee 
could agree and that would protect the core elements of sanctions.
    The applicability of the legislation you have cited to flights 
occurring without approval is one of the issues that the new 
administration intends to review.

                    IRAQ: REMOVAL OF SADDAM HUSSEIN

    Question. Bearing in mind your response to the questions regarding 
the Iraq Liberation Act, please discuss how the United States should 
proceed on the removal of Saddam Hussein from power. Would your 
assessment change if the United States lacked the backing of its allies 
and neighbors in the region?

    Answer. It is up to the Iraqi people to remove Saddam Hussein from 
power; they would plainly be better off without him. Our policy 
objectives in the region would also be better met without him, but the 
United States cannot impose a new leadership on Iraq from the outside. 
We will work with the Iraqi opposition to encourage internal forces not 
only to bring about the change, but to make the right kind of change. 
Obviously there needs to be more overt recognition in the region and 
among allies that the Iraqi people want and deserve a new government. 
As I stated in my testimony, the President, Dr. Rice, Mr. Rumsfeld, and 
I are reviewing our policy. There are no easy answers. We expect to 
consult closely with Congress as we grapple with this problem.

                           KASHMIR: U.S. ROLE

    Question. In the last few months there has been some positive 
movement in the Kashmir peace process between India and Pakistan. What 
role can or should the United States play in facilitating even greater 
progress in this peace process, particularly in light of the fact that 
this is a potential flashpoint between two nuclear states?

    Answer. I believe we should conduct a thorough review of the 
situation on the ground and of previous U.S. efforts to encourage a 
peaceful resolution, and then seek to build on those efforts. Restraint 
of forces, respect for the Line of Control, renunciation of violence, 
and resumption of dialog would appear to be a good starting point.
    I am heartened by India's suspension of offensive operations and 
Pakistan's policy of ``maximum restraint.'' It is important that 
militant groups reciprocate India's suspension of operations and help 
build a peace process.
    I believe the best role for the U.S. at this stage is to offer 
quiet counsel and advice separately to both sides, encouraging them to 
take further positive steps.

                       IRAN: U.S.-IRAN RELATIONS

    Question. In your statement you indicate that U.S. differences with 
Iran ``need not preclude greater interactions'' through commerce or 
dialog. Is that approach predicated on improved behavior by the regime? 
Conversely, given the resurgence of hard-liners in Iran in recent 
months, do you believe cultural or commercial rapprochement should be 
the response of the United States?
    Answer. We believe the United States must carefully and 
continuously review all areas of our interaction with Iran--political, 
cultural, or commercial--to ensure that our policies effectively 
promote U.S. objectives. That review should continue regardless of how 
the Iranian government chooses to respond. The U.S. goal is not to 
punish the Iranian people, but to effectively pursue U.S. interests. 
However, the differences between the U.S. and the Government of Iran 
are substantial and long-standing. In the end, the pace of any 
rapprochement between our countries must be a function of Iran's 
willingness to address U.S. concerns.

                          SECURITY ASSISTANCE

    Question. Will you work with the Committee on Foreign Relations to 
secure an increase in funding for security assistance programs?

    Answer. Yes, I believe these programs are important and will be 
happy to work closely with the committee to that end.

             HAITI: U.S. POLICY TOWARD ARISTIDE GOVERNMENT

    Question. With regard to Haiti, what specific steps will you take 
to distance U.S. policy from the incoming de facto regime of Jean 
Bertrand Aristide and target Haitian officials credibly alleged to have 
been involved in political assassinations, property confiscation, or 
narco-trafficking?

    Answer. I believe we must engage the Government of Haiti in order 
to advance and protect our national interests there and in the region. 
We intend to hold President-elect Aristide to his December commitment 
to former President Clinton to rectify serious problems with elections, 
drug trafficking, the security and judicial systems, human rights, 
illegal migration and other key bilateral issues. We will also 
encourage the Government of Haiti to halt political intimidation and 
violence; target the root causes of the problems undermining democracy 
and stability in Haiti, including official corruption and narcotics; 
and give greater priority to institution building. Finally, we will 
work to protect American commercial and investment interests and to 
advance the rule of law in Haiti, including full investigation of, and 
accounting for, political murders and the prosecution of human rights 
violators.

             HAITI: POLITICAL OPPOSITION AND CIVIL SOCIETY

    Question. What will you do to implement a proactive policy of 
working with the opposition and other democratic elements in Haitian 
civil society?

    Answer. I believe it is important to work closely with Haiti's 
political parties and diverse civil society to strengthen democratic 
institutions and protect human rights. USAID has proposed a two million 
dollar civil society program for this fiscal year, with a significant 
portion reserved for support and long-term development of political 
parties.
    The Department has strongly supported an initiative launched on 
January 18 by civil society organizations aimed at achieving a peaceful 
dialog among Haiti's political parties. The OAS is also establishing a 
semi-permanent mission in Haiti to facilitate dialog among Haitian 
political, civic, and business leaders. You can be sure that the Bush 
administration will press President-elect Aristide to fulfill his 
December 27 commitment to install a broad-based government that 
includes technocrats and members of the opposition.

                          BROADCASTING TO CUBA

    Question 1. Will the State Department support innovative measures 
to broaden the reach of Marti broadcasting to overcome jamming? 
Specifically, will you support ``pulse programming'' to increase the 
signal strength and use an airborne transmitter to increase the 
availability of the radio and TV signal on the island?

    Answer. I have not had time to review the specific options 
available to overcome jamming. Certainly, direct communication with the 
people of Cuba is a crucial aspect of our Cuba policy. We will continue 
to use all the tools we have at our disposal--people-to-people 
exchanges, book programs and Internet facilities--to get our message 
across. As Secretary of State, I will serve on the Broadcasting Board 
of Governors, which no doubt will review how our message can best reach 
the Cuban people.
    Question 2. Will you review programming and encourage the 
development of programs to communicate with the Cuban military and 
bureaucrats who may encourage peaceful change?

    Answer. Castro has long tried to keep the truth about Cuba's 
economic, moral, and political failure from reaching the people of 
Cuba. Getting our message out--through people-to-people exchanges or 
more direct programming--is important and the critical roles to be 
played by junior and mid-level officers and bureaucrats in Cuba's 
inevitable transition make reaching out to those people a wise 
investment in Cuban democracy. I will use my seat on the BBG to 
encourage radio and TV Marti to continue to focus on this audience.

                           CUBA: HAVANA CLUB

    Question. Will you now advise and permit OFAC to deny any pending 
requests for issuance of licenses for transactions that contravene U.S. 
law and our stated policy?
    Would the Madrid Protocol require the U.S. to register any 
trademark whose registration is currently prohibited, or may in the 
future be prohibited under U.S. domestic law, regulations or public 
policy?

    Answer. OFAC requests for foreign policy guidance often involve a 
number of complicated issues, including in the instance of the Havana 
Club case. You can be assured that, under my direction, the 
Department's guidance will take fully into account applicable U.S. law 
and policy.
    I understand that, based on discussions between the Department and 
the United States Patent and Trademark Office, our officials have 
concluded that the Madrid Protocol, if implemented through legislation 
such as was pending before the 106th Congress, would not require the 
United States to register any trademark whose registration is currently 
prohibited under domestic law or regulations. I'm not in a position to 
say at this point whether other changes in domestic law, regulations, 
or policy might in some manner affect the registration of any trademark 
in the United States.

                            CUBA: SOL MELIA

    Question. Officers in the State Department's Bureau for Western 
Hemisphere Affairs (WHA) responsible for investigations under the Cuban 
Liberty and Democratic Solidarity (LIBERTAD) Act of 1996 have concluded 
that the Spanish firm Grupo Sol Melia (GSM) is trafficking in property 
owned by a U.S. national. (Paragraph 5 of the ``Guidelines Implementing 
the Title IV of the Cuban Liberty and Democratic Solidarity Act'' 
(Federal Register, June 17, 1996), states in part, ``Determinations
. . . under Title IV will be made when facts or circumstances exist 
that would lead the Department reasonably to conclude that a person has 
engaged in confiscation or trafficking . . ..'' Paragraph 6(a) states, 
``An alien who may be the subject of a determination under Title IV 
will be sent a notification . . . that he/she will be denied a visa . . 
. 45 days after date of the notification letter . . ..'') As you are 
now aware of this conclusion, it should trigger an immediate decision 
by you to sanction GSM without further delay.
    What office in the State Department will be ultimately responsible 
for making this determination? Will you instruct that officer to act 
without further delay to comply with the U.S. law and to provide the 
committee a copy of the determination letter to GSM?

    Answer. There are a number of investigations under Title IV of the 
Libertad Act and decisions are taken in accordance with the facts and 
the law. The Department takes its enforcement responsibilities 
seriously, and I can assure you that the Department will act in 
accordance with the requirements of the law.
    Title IV authority resides with the Secretary of State. Under the 
previous administration, the Secretary's authority to make 
determinations pursuant to Title IV was delegated to the Assistant 
Secretary for Western Hemisphere Affairs. That delegation of authority 
also provides that the Secretary, Deputy Secretary or Under Secretary 
for Political Affairs may exercise the authority to make a 
determination under Title IV.
    I am aware of the importance of this issue to Congress and will 
review Title IV issues further with those in the Department who have 
been following these matters. However, I do not believe that it would 
be appropriate for me to comment on the internal decision-making 
process regarding a specific case. We will inform you promptly when 
decisions under Title IV are made. Again, you can be assured that we 
will act in accordance with the law.

                         CUBA: TITLE III WAIVER

    Question. Do you pledge to review the current waiver of Title III 
and comply with the legal requirement that such waiver genuinely 
hastens the democratic transition in Cuba?

    Answer. Cuba's democratic transition is an important issue for both 
the administration and the Congress. I can assure you that we will 
apply the law in a way aimed at encouraging democratic and economic 
change and respect for human rights in Cuba, and at developing an 
international consensus to support those goals.
          cuban policy: commission on human rights resolution
    Question. What steps will the Department of State take to ensure 
the passage of a resolution on human rights in Cuba at the upcoming 
meeting of the UN Commission on Human Rights in Geneva? Do you pledge 
to be personally involved to convince governments of the need for such 
a resolution as a statement of principle in defense of human rights in 
Cuba?
    Answer. This administration gives very high priority to passage of 
a resolution at the UNCHR reflective of the human rights situation in 
Cuba. As in past years we will coordinate closely with countries that 
share our views, including the drafters and co-sponsors of this year's 
version. The Department is already at work on developing a plan on how 
to maximize support for this resolution at the Commission. Given the 
importance of doing everything we can to ameliorate the human rights 
situation in Cuba and to give hope to political dissidents and others 
working for positive change there, I will follow this issue closely, 
and weigh in personally with other governments as required.

                            ECUADOR: EMELEC

    Question. Will you instruct the U.S. Embassy in Quito to assist the 
American trustees in resolving this case [Empresa Electrica del 
Ecuador, Inc. (EMELEC)] and to notify the Ecuadorian government that 
its normal relations with the United States depend on its equitable 
treatment of these and all U.S. investors and property claimants?
    Answer. I understand that the U.S. Embassy in Quito has urged the 
Government of Ecuador to amicably settle its dispute with EMELEC, and 
that my predecessor raised this issue with officials in Quito during 
her visit there last year. We believe it important that, in all such 
property disputes, there should be a clear and committed effort by all 
parties to come to terms. We will continue to urge the Government of 
Ecuador to sort out fairly all competing interests in this case, 
including those of the Progreso Depositors Trust, and will convey the 
importance that we attach to prompt and full repayment of the Export-
Import Bank debt on which EMELEC is a co-maker.

               CHINA: CONGRESSIONAL-EXECUTIVE COMMISSION

    Question. Do you believe this commission can play a constructive 
role in promoting human rights and legal reform in China? Will you 
recommend that President Bush and Congress move quickly to set it up?

    Answer. Yes. I believe the commission can play such a role, and I 
look forward to working toward its creation in a timely manner.
          vietnam: response to serious human rights violations
    Question. Will the Bush administration take serious action, for 
example, withholding the decision to grant Vietnam Normal Trade 
Relations, if serious human rights violations, such as blocking refugee 
claims by Montagnards and others, continue?

    Answer. We take seriously concerns that have been raised about 
Vietnam's human rights practices. We will to continue to raise our 
concerns directly with the Vietnamese government and thereby promote 
progress on improving human rights practices in Vietnam.
    Since 1998, Congress has agreed to waive Jackson-Vanik amendment 
provisions for Vietnam. This waiver has been based on Vietnam's 
cooperation on freedom of emigration issues, which has allowed us to 
approach completion of many refugee admissions categories under the 
Orderly Departure Program. Vietnamese cooperation has permitted 
progress in processing of Montagnard cases; I am told that all but 44 
cases (364 people) have been cleared by the Vietnamese government for 
interviews.
    I do believe that engagement on these issues is important to the 
health and durability of our relations with Vietnam. Granting Normal 
Trade Relations can also promote economic reform in Vietnam, with 
potential benefits to the Vietnamese people and to the cause of human 
rights.

                     CAMBODIA: 1997 GRENADE ATTACK

    Question. Will the Bush administration commit to reviewing the 
evidence in this case and, if it finds credible evidence of Hun Sen's 
involvement, take appropriate political measures against him? Also, 
will the administration commit to a full de-classification of the FBI's 
April 1998 report to Congress?

    Answer. The FBI is the investigative agency in this case and the 
Department of State has cooperated fully with the FBI in its 
investigation. I understand that the FBI has, as yet, drawn no 
conclusions.
    Since the FBI is the lead investigative agency, we defer to the FBI 
and the Justice Department to determine whether declassification of the 
1998 report to Congress would be appropriate.

               LAOS: DISAPPEARANCE OF AMCITS LY AND VANG

    Question. What steps will the Bush administration take to get to 
the bottom of this matter? Will the administration commit to stopping 
business-as-usual with Laos--specifically, downgrading relations, 
opposing IFI loans, and forgoing a pending trade agreement--until this 
matter is resolved?

    Answer. The Bush administration will vigorously pursue the 
disappearance of American citizens Ly and Vang, who reportedly traveled 
into Laos in April 1999 from Thailand. In addition to pursuing all 
credible leads through the work of our Embassy Bangkok Legal Attache 
and with the FBI here, the Bush administration will make it clear to 
the Laotian Government that we expect a much higher level of 
cooperation from it, both in Vientiane and in Bokeo Province, where the 
two reportedly were last seen. We expect to pursue fully all credible 
leads in Laos.
    Clearly, U.S.-Lao relations have suffered as a result of this 
unresolved disappearance. At least in part because of this problem in 
our relations, I believe that it is essential not to downgrade 
relations further, but to have a U.S. ambassador in Laos as quickly as 
possible. Since the summer of 1999, U.S. interests have been 
represented only at the charge level, decreasing the weight given to 
U.S. positions on this and other issues by the Government of Laos. In 
addition to the welfare and whereabouts of American citizens traveling 
in Laos, we have several other priority concerns. These include the 
fullest possible accounting of our missing in action from the Vietnam 
War, counter-narcotics cooperation, and promotion of human rights and 
religious freedom. The Lao have established a good record on the MIA, 
humanitarian de-mining and counter-narcotics issues, and have sometimes 
acted positively in reaction to our requests on religious freedom 
issues. As to the other issues you have cited, the previous 
administration signed a Bilateral Trade Agreement with Laos in 1997; we 
have not yet reviewed how to proceed with that agreement. IFI loans are 
considered on a case-by-case basis and we should consider them on their 
merits.

         TAIWAN: TRAVEL TO THE UNITED STATES BY SENIOR LEADERS

    Question. Will the Bush administration maintain restrictions on 
visiting Taiwan officials?

    Answer. The United States has long granted transits for Taiwan's 
senior leaders for the safety, comfort and convenience of the traveler. 
We remain committed to this policy. During a transit, we expect the 
activities of the traveler will be private and consistent with the 
purposes of a transit. We do not consider public or media events, as 
well as meetings with public officials to be consistent with the nature 
of a private transit. This approach is consistent with longstanding 
U.S. policy and practice, as well as with our unofficial relationship 
with Taiwan.

                  TAIWAN: ARMS SALES AND MIL-MIL TIES

    Question. How will the Bush administration consult with Congress on 
Taiwan arms sales issues? Will the Bush administration establish a 
military-to-military relationship with Taiwan, including direct, secure 
communications links?

    Answer. We are fully aware of the requirement for consultations 
contained in the Foreign Operations Appropriations Act and will act in 
accordance with the law. The administration would welcome a dialog with 
Congress regarding the most appropriate way to meet Taiwan's legitimate 
self-defense needs in accordance with the Taiwan Relations Act.
    The United States has an abiding interest in the peaceful 
resolution of cross-Strait differences. The administration remains 
committed to make available defense articles and services to enable 
Taiwan to maintain a sufficient self defense capability, as provided in 
the Taiwan Relations Act (TRA), and will consult with Taiwan on its 
defense requirements.

                       TAIWAN: THE SIX ASSURANCES

    Question. Will the Bush administration continue to view the Six 
Assurances as official U.S. policy?

    Answer. As I noted in my statement before the committee, the United 
States will continue to expect and demand that differences across the 
Taiwan Strait be settled peacefully. Such a settlement must be worked 
out by the two sides and be acceptable to people on both sides of the 
Taiwan Strait. We will not mediate, and we will not pressure Taiwan.

                       PUBLIC DIPLOMACY: RED TAPE

    Question. This committee worked to fold the U.S. Information Agency 
into the State Department, to streamline bureaucracy. But I understand 
that in the early months after consolidation, Foreign Service officers 
working on public diplomacy, visitor programs, and exchanges faced a 
highly bureaucratic mindset in the State Department. As an important 
and relatively inexpensive means to communicate U.S. goals and 
principles, and a major concern of the President, will you work to see 
to it that under State Department administration, public diplomacy does 
not fall prey to more red tape rather than less?

    Answer. Foreign affairs reorganization gave the Secretary of State 
tools, resources, skilled people and approaches that are new and 
different from what the Department had before. By incorporating the 
skills of Public Affairs Officers, with their knowledge of grant 
programs, global information networks, long-term exchanges, media/
public opinion research, and advanced technology, I believe we can 
define a ``new American diplomacy'' fit for 21st century challenges.
    The State Department's ``new diplomacy'' launches programs, uses 
technology, and moves people and information around the world rapidly. 
So the answer is, yes, we need to be sure the Department's support for 
all its people and functions is fast, flexible, effective and 
efficient.
    We gained from USIA officers and specialists who value and use 
professional training on a regular basis. I will be seeking the 
resources to continue providing these and all the Department's 
employees with the professional training they need to do their work.
    Integration earned kudos from the Inspector General for the 
excellent prior planning that laid the groundwork for the ambitious 
undertaking. Yet, it is still a work in progress.

                    PUBLIC DIPLOMACY PROMOTION RATES

    Question. Is it true in the last cycle of FSO promotions, the State 
Department did not know how to use the personnel evaluations from the 
old USIA, and that resulted in public diplomacy officers not receiving 
promotions (signaling that taking public diplomacy assignments will not 
be rewarded in FSO careers)?

    Answer. The Department addressed the differences in the State 
Department and former USIA employee evaluation reports during its 
training of the 2000 Selection Board members. A Public Diplomacy (PD) 
officer serving on each Board that reviewed the performance records of 
PD employees was available to answer questions regarding the duties of 
PD officers and the former USIA personnel evaluation reports. For the 
most part PD officers competed against each other. I have looked at the 
statistical summary of the 2000 competition and found that PD officers 
actually received a higher percentage of promotions than any other 
group of generalist officers last year, with the following results: 
Class 3 to 2: PD-50.7%, other generalists 26.8%; Class 2 to 1: PD-
19.9%, other generalists-10.6%; Class 1 to OC: PD-18.7%, other 
generalists-16.7%. These results certainly suggest that Public 
Diplomacy is a rewarding career track in the Foreign Service.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                          Joseph R. Biden, Jr.

       SIERRA LEONE: POLICY ON TRAINING WEST AFRICAN PEACEKEEPERS

    Question. The Clinton administration developed a plan to train and 
equip battalions of Nigerian troops to serve as part of UNAMSIL. It's 
anticipated that the first two battalions will be sent to Sierra Leone 
in a matter of weeks. The current plan calls for five additional 
battalions to be trained.
    Will you recommend that the train and equip program for West Africa 
continue? Do you anticipate any change in the current policy of no U.S. 
troops on the ground in Sierra Leone?

    Answer. My preliminary view is that the current program to equip 
and train up to seven West African battalions from Nigeria, Ghana and 
Senegal for service in UNAMSIL should be completed, in conjunction with 
parallel efforts by the UK to train the Sierra Leone Army. Although we 
are sending three U.S. military officers to work with UK officers as 
advisors in restructuring the Sierra Leonean Ministry of Defense, I do 
not anticipate sending U.S. combat troops to Sierra Leone.

        SIERRA LEONE: EVALUATION OF U.S.-TRAINED NIGERIAN TROOPS

    Question. If the policy remains the same, how will you, in 
conjunction with the Department of Defense, measure or evaluate the 
efficacy of the training that the Nigerian battalions have received 
without the presence of United States military observers?

    Answer. Although there are no plans to station U.S. military 
observers in Sierra Leone, there are several means by which we will be 
able to monitor the performance of the West African battalions we have 
trained for service to UNAMSIL. Our Embassy in Freetown is in constant 
liaison with UN political and military authorities and will have ready 
access to their assessments of the battalions' effectiveness. Our close 
liaison with UK forces operating in Sierra Leone, including the three 
U.S. officers detailed to the UK training mission in Freetown, will be 
an additional source of valuable information. Our ongoing bilateral 
contact with the Nigerian, Senegalese and Ghanaian armed forces in 
those nations' capitals will provide us with a further perspective on 
how the training supplied to these forces is being applied. Finally, we 
are in continuing close contact with the numerous nongovernmental 
organizations present in Sierra Leone. Their independent observations 
will also be factored into our overall evaluation of our training's 
effectiveness.

               INTERACTION WITH THE DEPARTMENT OF DEFENSE

    Question. American forces are deployed all over the globe to 
demonstrate our commitment to our allies and as a force for stability. 
In addition, our engagement strategy has meant that the military sees 
one of its missions as helping to ``shape'' the international 
environment. What this means, in reality, is that the Department of 
Defense has an increasingly important role in American diplomacy. The 
military, by virtue of its physical presence overseas and its 
substantial resources, particularly compared to significantly under-
funded diplomatic accounts, is partly filling the void created by 
reductions in our diplomatic readiness.
    Even if we can improve our diplomatic readiness, foreign policy 
decisions like peacekeeping operations and humanitarian assistance 
operations will mean that the Department of State and the Department of 
Defense need to be much more closely aligned in their long-term 
planning processes and daily interaction. Given your experience in the 
Defense Department, you have the background to make important 
improvements in interagency coordination on major policy issues.
    What steps do you think may be necessary to improve long-term 
planning and coordination between the Department of State and the 
Department of Defense on national security policy?

    Answer. When I was at the Pentagon, there was daily interaction 
between State and Defense on a wide number of national security issues. 
I am sure that is the case today as well. having said that, I have no 
doubt that this coordination can be strengthened, and I intend to see 
whether the high degree of cooperation we now see in areas like arms 
control, bilateral discussions with Russia, and policy consultations in 
NATO can be broadened to other areas. Our goal should be to foster 
cooperative relationships at all levels, including the CINCs, in areas 
such as security assistance and Theater Engagement Planning. State 
Political Advisors supporting CINCs and the military services can play 
a very useful role, and CINC coordination with embassies and the 
regional bureaus in State no doubt can be stronger. State personnel 
should continue to participate in exercises at military schools and 
joint training centers, and a strong State-Defense Exchange Program can 
ensure Foreign Service and military officers are placed where they will 
have the most strategic value to both Departments.

               INTERACTION WITH THE DEPARTMENT OF DEFENSE

    Question. Given the clear foreign policy requirements for certain 
operational capabilities, like the airlift used for both military 
operations and humanitarian assistance, do you think it important to 
have the State Department participate at a high-level in the upcoming 
Quadrennial Defense Review?

    Answer. The Quadrennial Defense Review will have a profound effect 
on our national security and foreign policy objectives. For that 
reason, I believe State must be involved in the upcoming process from 
an early stage, at both the working and senior levels. Given the 
inextricable link between diplomacy and use of force around the globe, 
it is clear that State and DOD must engage closely on setting 
priorities, aligning resources to policy, and making tradeoffs, when 
necessary, to support an effective use of resources. DOD's planning 
regarding force structure and strategy is an important element in 
shaping the context of U.S. diplomacy, and State's contribution will be 
an important element of DOD's analyses of threats, settings and 
objectives.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                             Richard Lugar

             ARMS CONTROL: DEBT RELIEF FOR NONPROLIFERATION

    Question. Mr. Secretary, Russia owes the United States and our 
Allies billions in former Soviet debt. Russia is unlikely to ever fully 
repay these debts. The United States has continuously attempted to use 
debt relief as a lever for Russian action and reform with varying 
degrees of success. Do you believe debt relief could be used as a tool 
of U.S. non-proliferation policy toward Russia? For example, might a 
specific amount of debt relief be forgiven and the savings utilized by 
Russia to finance the elimination of weapons of mass destruction?

    Answer. I agree whole-heartedly with the non-proliferation goals 
implied in your question. At this time, Russia appears to have the 
capacity to pay its debt service in full. We and other Paris Club 
creditors expect Russia to meet all of its obligations to the Paris 
Club in 2001. We do not see a financial case for Paris Club debt relief 
in 2001, nor has Russia reached agreement with the IMF on a program--a 
prerequisite for such relief.
    The suggestion that our arms control aims might be met through debt 
reduction is interesting, but under current conditions could be 
difficult to implement successfully. While the United States has 
provided Russia debt rescheduling through the Paris Club in the past, 
the purpose of these reschedulings has been to enhance the prospects of 
repayment, not to influence Russia's foreign or domestic policy. U.S. 
authority to reschedule debt is based on a threat of imminent default; 
debt rescheduling, as a rule, is undertaken to maximize payment to the 
United States.
    Funding our threat reduction and non-proliferation goals directly 
may ensure greater USG control over the use of the money to be spent to 
achieve our non-proliferation goals.

   RUSSIA: FREE TRADE ZONES AT FORMER SOVIET WEAPONS PRODUCTION AND 
                          RESEARCH FACILITIES

    Question. Do you believe the establishment of free trade zones at 
former Soviet weapons production and research facilities further U.S. 
non-proliferation policy goals?

    Answer. Developing free trade zones at former Soviet weapons 
production and research facilities could help to ensure permanent 
transition to civilian activities by creating export opportunities for 
peaceful products. Implementing such a plan would prove very 
challenging, but the suggestion is an intriguing one that we should 
further explore.

                 NONPROLIFERATION PROGRAMS--RUSSIA/IRAN

    Question. In recent months, frustration over Russian cooperation 
with Iran has led some policy-makers to consider the cessation of a 
number of U.S. programs and initiatives. Unfortunately, some proposals 
have included threats to cease vital non-proliferation and 
dismantlement programs in Russia. I believe this is a serious mistake. 
Clearly, we do not condone Russian actions, but how are our interests 
advanced by ending efforts that benefit U.S. national security 
interests. If Russia were to continue these actions in the face of 
American cessation of nonproliferation programs, as many believe, how 
would American national security interests have been advanced? Instead 
of continued dismantlement of former Soviet weaponry and redirection of 
weapons scientists, the U.S. would have contributed to the 
proliferation dilemma by stopping the elimination of the very weapons 
we fear may proliferate.
    Furthermore, ending programs designed to redirect weapons experts 
would simply enlarge the pool of scientists and engineers in search of 
income and increase the information and skill available to would-be 
proliferators. Do you support the cessation of non-proliferation 
programs in the face of Russian cooperation with Iran?

    Answer. Non-proliferation assistance programs clearly are important 
to our national security. It is also important to U.S. national 
security that Russian put a stop to the assistance that some Russian 
entities have provided to Iran's nuclear and missile programs. This 
will be a top priority for the Administration and will be a constant 
subject of U.S. diplomatic efforts pursued at the highest levels. The 
United States can only be secure if we achieve both objectives. We look 
forward to working with the Congress on these programs.

       RUSSIA/NIS: INTERNATIONAL SCIENCE AND TECHNOLOGY CENTERS 
                        NONPROLIFERATION PROGRAM

    Question. Mr. Secretary, the International Science and Technology 
Center in Moscow is currently providing direct payments to over 35,000 
former weapons scientists and engineers now involved in peaceful 
pursuits. Do you support the continuation of this nonproliferation 
program? Do you have plans to expand or modify the ISTC program?

    Answer. The International Science and Technology Centers program is 
an important nonproliferation tool. Centers in Moscow and Ukraine have 
evolved from ``brain drain'' prevention efforts to complex, mature 
multilateral organizations that meet multiple U.S. national security 
interests. I plan to continue this program and appreciate Congress' 
funding for the program in the FY 2001 Foreign Operations 
Appropriations bill. I intend to work with you and the appropriations 
committees to seek continued strong funding for this important program, 
as well as others.

                            NATO ENLARGEMENT

    Question. Do you support the continued enlargement of the NATO 
Alliance? When do you believe the Alliance should consider a second 
round of enlargement? Who do you believe are the most likely candidates 
for membership?

    Answer. The Bush Administration strongly supports the NATO 
enlargement process and believes that the door to NATO membership shall 
remain open to all nine aspirant countries (Albania, Bulgaria, Estonia, 
Latvia, Lithuania, Macedonia, Romania, Slovakia, and Slovenia). NATO 
has agreed to review the enlargement process at its next summit, which 
will be held in Prague no later than 2002. Between now and then, we and 
our Allies will continue to review the preparations and capabilities of 
the states applying for membership. NATO must judge aspirants to be 
``willing and able'' to assume the obligations of NATO membership, and 
the addition of any new member must contribute to the political and 
strategic interests of the Alliance.

                    NMD: CONSULTING WITH THE ALLIES

    Question. What strategies are you considering to win allied support 
from American allies for American missile defense plans? Should we 
concentrate our efforts on those nations currently believed to be 
optimal sites for long-range radar or should we expand our scope to 
include potential partners in missile defense efforts?

    Answer. The key to NMD diplomacy with U.S. allies is dialog that 
will help us maintain allied cohesion and collective security while 
allowing us to do what is necessary to meet our national defense 
requirements. The Bush administration will consult closely with all of 
our allies as we develop our approach to missile defense, both to 
convey its potential benefits to everyone and to explore how we can 
cooperate on common missile defense efforts.
    I know that a number of allies have raised concerns about Russian 
and Chinese reactions to the U.S. NMD program, and about the need to 
preserve the basic structure of arms control agreements. A U.S.-Russia 
agreement on NMD would satisfy many of these concerns. We hope to 
persuade Russia of the need to modify the ABM Treaty, and to persuade 
Beijing that our planned NMD system is not intended to neutralize 
China's strategic deterrent forces. We will, of course, consult with 
our allies on our approach on these issues as well.

             INDIA/PAKISTAN: RISK OF WAR AND PROLIFERATION

    Question. Have you considered a change in policy toward India and 
Pakistan to reduce the threat of nuclear war between the two nations 
and address potential proliferation risks?

    Answer. We will conduct a thorough review of all aspects of our 
policies toward India and Pakistan. There may be some changes in 
specific areas, but this administration will continue to encourage both 
countries to find ways to resolve the tensions between them and avert a 
costly and dangerous arms race.
    We will continue to work cooperatively with both countries to 
enhance their export control procedures, an area in which some progress 
has already been made. We will also seek the most effective means to 
encourage both sides to restrain their nuclear and missile programs, 
and to reduce the risk that tensions and conflict could lead to a 
nuclear exchange.

                     BIOTECHNOLOGY: U.S. LEADERSHIP

    Question. How do you propose to ensure U.S. leadership in crafting 
a sensible set of international rules regarding biotech trade, one that 
safeguards against real risks but does not reflect the hysteria and 
junk science inherent in many reactions to these products?

    Answer. I can assure you that the Department of State will project 
strong U.S. leadership in support of sensible, science-based trade 
rules for biotech trade. To be successful, we will need to address even 
more vigorously the politicization, lack of understanding, and concern 
about biotech evident in many recent instances. We will work hard to 
enhance international understanding of what science tells us about 
biotechnology, which we believe has great potential to address human 
hunger and health, while addressing legitimate concerns about this 
technology. We will work to build the capacity of developing countries 
to use biotechnology to meet urgent needs safely and sustainably, and 
strengthen their support for open markets. Most importantly, we will 
join with USTR, USDA, Commerce, USAID and other USG agencies to field 
strong negotiating teams, employ public diplomacy effectively, and 
build support for our position--including through our embassies. Our 
strategy will have four key elements: (1) bringing together relevant 
``domestic'' and ``international'' agencies to create an effective U.S. 
interagency approach and team; (2) getting input from relevant U.S. 
groups; (3) starting early to establish strong negotiating positions 
and strategies; and (4) building a more forceful and effective 
coalition of like-minded countries. We will work with Congress to 
ensure your continued support and to ensure that we have adequate 
staffing and funding of the programs we need to get this done.

          BIOTECHNOLOGY: COORDINATION IN INTERNATIONAL BODIES

    Question. What are you prepared to do to ensure we have a 
coordinated approach in international bodies and agreements, such as 
the OECD, the Biodiversity Convention, Codex Alimentarius, and the WTO, 
in order to ensure a sound international framework?

    Answer. Ensuring a coordinated approach in international fora and 
agreements that address biotechnology will be important to the Bush 
administration. The State Department already has substantially 
strengthened efforts, in Washington and abroad, to establish and 
project that coordinated approach. State is not the lead agency in all 
policy discussions on biotechnology, of course. Nonetheless, I will 
instruct the Department to coordinate early and vigorously not only 
with other USG agencies (e.g. USTR, USDA, USAID, EPA, FDA, and 
Commerce), but with our international friends and allies to ensure a 
sound international framework in all the fora you mentioned. This is 
important not only to ensuring that interagency differences are 
resolved before they reach other shores, but to craft effective 
strategies early-on that can win international support for our 
positions. This, again, is an area in which greater resources can help 
us advance America's policy interests overseas.

               BIOTECHNOLOGY: COORDINATING U.S. AGENCIES

    Question. Do you think that a more coordinated response from the 
various U.S. agencies involved in this issue--such as USDA, State, 
USTR, FDA, and EPA--could help in these efforts? What can you do to 
help ensure such coordination?

    Answer. A more coordinated USG approach can certainly help on 
biotechnology, but we must also ensure that we have the resources to 
implement the coordinated approach effectively. Biotechnology is a 
relatively new issue, and it cuts across the responsibilities of 
various U.S. agencies, and across bureaucratic lines within agencies. 
The State Department's approach to biotechnology, for example, must 
take into account our trade interests and WTO obligations, our domestic 
regulatory framework, our environmental obligations and our political 
relationships with key partners. The FDA, EPA, various parts of USDA, 
USTR, USAID, Commerce, the White House's OSTP, OMB, State and other 
agencies have major equities. State has already played a major role in 
improving the coordination of the positions taken by the USG on 
biotechnology internationally, including through White House-led 
meetings. I believe State's foreign policy role implies a 
responsibility to further strengthen and coordinate our international 
efforts on biotechnology. I will work with the new administration to do 
so.

                        INTERNATIONAL EDUCATION

    Question. What is your view of the importance of international 
education in these times? What will you do as Secretary to ensure that 
the United States has a proactive policy for promoting the 
international education of our students?

    Answer. International educational exchanges are important to the 
State Department's mission. The programs carried out under the 
Department's Bureau of Educational and Cultural Affairs, including the 
distinguished Fulbright and related academic exchange programs, create 
a climate for advancing American interests by establishing a context 
for better understanding the United States, its people and its 
policies.
    International education is tremendously important to America's 
political and economic well-being. The nearly 500,000 international 
students now studying in the U.S. at the post-secondary level enrich 
our campuses, develop a life-long appreciation for our cultural and our 
academic institutions and contribute over $12 billion annually to our 
economy. In the future, the goodwill these former students bear for our 
country will be one of our greatest foreign policy assets.

                            EXPORT CONTROLS

    Question. After the coalition war in Kosovo, DOD determined that 
one significant inhibitor to our allies having comparable technical 
capabilities as the U.S. was our own export control system. It pressed 
State hard for reforms and to some extent succeeded. Do you share the 
view that our export control system should be modified to encourage 
more cross Atlantic defense trade and cooperation?

    Answer. I would be happy to discuss this further with my colleagues 
on President Bush's national security team. The Department of State has 
a vital role to play in export control reform and transatlantic defense 
cooperation, and has in fact played a leading role in launching the 
Defense Trade Security Initiative (DTSI). We are open to other ideas 
and initiatives designed to increase defense cooperation with our 
allies.
    I understand that the Kosovo/Operation Allied Force Action Report, 
sent to Congress early last year, did not identify U.S. export controls 
as a major impediment to allied force interoperability. A recent GAO 
report reached a similar conclusion, i.e., in that there were no export 
license problems at State associated with Kosovo.

              EXPORT CONTROLS: U.S. MUNITIONS LIST REVIEW

    Question. One of the defense trade initiatives announced last May 
was to review the products and technologies on the U.S. munitions list. 
That process has not started. Many items on the munitions list seem to 
be comparable to commercial products that have been modified for 
military use. Would you advocate focusing the military export controls 
system on a limited number of uniquely military products and 
technologies, or a broader range of items?

    Answer. The process of reviewing products and technology covered by 
the U.S. Munitions List actually has been underway for several months. 
Currently, the review is focusing on the following commodities: 
Category I--Firearms, Category V--Explosives, Category VIII--Military 
Aircraft, Category XIV--Toxicological Agents, and Category XVI--Nuclear 
Weapons Design. When the review is completed, I will be in a better 
position to judge what, if any, steps need to be taken.

             EXPORT CONTROLS: MUNITIONS LICENSE PROCESSING

    Question. A number of representatives from Allied governments and 
U.S. foreign industries have expressed concern about the steady 
increase in the time it takes to process export licenses. In order to 
get an objective view of the problem, I included an amendment in the FY 
2000 State Department authorization Act that asked State for a review 
of the licensing process under the Arms Export Control Act. I still 
have not been provided that report. Part of that study involved 
providing data on the time it took in 1999 to process the major 
categories of licenses, staffed and not staffed to other agencies. We 
asked for these data so that we had an objective basis on which to make 
recommendations for change, if needed. I would appreciate an effort to 
provide a printout of that statistical data, perhaps for 2000 as well 
as 1999, which I understand is readily available. Would it therefore be 
possible to have such a printout in the next few weeks or so?

    Answer. I will ask that a printout be made available to you, as 
quickly as possible. Despite limited resources, the State Department 
has made and continues to make progress in improving the time it takes 
to process munitions export control license applications. As shown in 
the attached charts, average processing time for cases handled solely 
by the Department is 24 days; the average for cases referred to other 
agencies is 91 days.
    I can assure you that, as Secretary of State, I understand the 
importance you attach to thorough but quick vetting of export license 
requests. This is one of many areas in which greater resources for the 
Department is needed if we are to be as effective as possible in 
promoting the U.S. national interest abroad.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            SANCTIONS REFORM

    Question. Mr. Secretary, the use of unilateral economic sanctions 
as a tool of American foreign policy has expanded over the past decade. 
Sanctions against others have their role in foreign policy but many of 
us believe they have been over-used and, in some cases, may even be 
counter-productive to U.S. national interest, however well-intended 
they may be.
    I believe we need to change our approach to employing unilateral 
economic sanctions in the conduct of American foreign policy. Do you 
have any thoughts or suggestions about how we can make improvements in 
this tool of foreign policy?

    Answer. I spoke at some length in my testimony about the need to 
review how we, as a government, use sanctions in our foreign policy, 
believe that the President must have flexibility and discretion to use 
economic and political sanctions for foreign policy purposes given the 
variety of situations that might arise. Sanctions can be an important 
tool of U.S. foreign policy, but they should be used prudently and with 
multilateral support whenever possible. In particular, food and 
medicine should not be used as a tool of foreign policy except under 
the most compelling circumstances.
    In looking at unilateral economic sanctions, I believe that the 
executive branch and the Congress need to consider ways to balance the 
potential gains and costs to our economy--to American companies, 
farmers, workers and consumers. We should review periodically the 
effectiveness of sanctions we impose. know that many Members of 
Congress are very interested in sanctions reform issues and hope that 
we can work together closely to forge an agreed approach to this issue.
                                 ______
                                 

  Response to Additional Question Submitted for the Record by Senator 
                              Chuck Hagel

                   CLIMATE CHANGE: THE KYOTO PROTOCOL

    Question. What is the Bush administration position on the Kyoto 
Protocol? How will the State Department approach these early 
negotiating sessions?

    Answer. We intend to undertake a thorough review of international 
climate change policy to ensure that U.S. economic and environmental 
interests are well protected in all future negotiations on climate 
change. We will work closely with Congress in formulating our policy in 
this area. A decision on the timing of the next round of climate change 
talks has not yet been made. We will ensure that we have sufficient 
time to conduct a thorough policy review before the negotiations 
resume. Given the failure to reach agreement last November in The 
Hague, we think that all parties would benefit from additional time to 
review policies and consult with others.
                                 ______
                                 

 Responses to Additional Questions Submitted for the Record by Senator 
                              Gordon Smith

             BALKANS: KOSOVAR ALBANIAN DETAINEES IN SERBIA

    Question. What action do you think the United States should take in 
order to secure the safe release of the Kosovar Albanian detainees in 
Serbia and how do you view the future relationship between the United 
States and the new reformist government?

    Answer. The new leadership in Belgrade has expressed a 
determination to undertake sweeping democratic and economic reform. If 
Belgrade lives up to that determination, and to its commitment to 
respect its international obligations, we expect to be able to return 
one day to the historically warm relationship between the U.S. and 
Serbia.
    The International Committee of the Red Cross and reliable Serbian 
NGOs (Humanitarian Law Center, Yugoslav Lawyers Human Rights Group, 
Helsinki Group) estimate there are more than 600 Kosovar Albanians 
currently being held in Serbia who are charged with political crimes. 
The recently enacted FRY amnesty law is expected to result in the 
release of about a third of those detainees. This is inadequate. I will 
continue to press the Belgrade government to pursue all available legal 
options to secure the release of all citizens charged with political 
crimes under the previous regime.

              BALKANS: U.S. PARTICIPATION IN PEACEKEEPING

    Question. As Secretary of State, will you support the continued 
participation of U.S. troops in the peacekeeping mission in Kosovo?

    Answer. I will look carefully at our peacekeeping commitments 
worldwide. In the Balkans, and in Kosovo in particular, we will honor 
our commitments to the people of the region and to our NATO Allies. 
Should we ultimately decide to reduce our troop levels in the region, 
this will be done carefully as part of an overall review of all of our 
commitments overseas.

           BALKANS-SERBIA: CONDITIONALITY OF U.S. ASSISTANCE

    Question. To what degree should the United States condition its 
assistance to the new government of Serbia on the latter's commitment 
to turn over indicted war criminals, to stop its support of separatists 
in Bosnia and Herzegovina, and purge its ranks of Milosevic's cronies?

    Answer. Our current assistance package is already conditioned. The 
$100 million in FY 2001 Support for East European Democracy (SEED) 
funds appropriated for Serbia requires certification of progress by the 
FRY government on several key issues by March 31, 2001. These issues 
include cooperation with the International Criminal Tribunal for 
Yugoslavia, cooperation on the Dayton Accords and evidence of 
implementing policies that reflect a respect for minority rights and 
the rule of law.
    The issues you raise are important, and we will press the Serbian 
government for progress in each area. Certainly the health of our 
bilateral relationship requires that there be such progress. At the 
same time, we have an interest in remaining engaged in promoting 
democracy, rule of law and humanitarian goals in Serbia and in the 
broader Balkan region. This should remain an area of dialogue between 
the Administration and the Congress.

                       RUSSIA: RELIGIOUS FREEDOM

    Question. What will you do beyond rhetoric to ensure that religious 
freedom is protected in Russia?
    Answer. Religious freedom will be a priority human rights issue for 
the Bush Administration in Russia as elsewhere. The Russian Government 
must demonstrate its 1997 Law on Religions is not implemented in a way 
that would have the effect of discriminating against religious 
communities in Russia. It needs to create a clear legal process, 
consistent with international norms on religious freedom, where all 
groups can be assured their rights are protected.
    We intend to reach out to religious groups--both in Russia and in 
the United States--in order to track the Russian Government's 
implementation of this law and to respond appropriately if the law's 
implementation infringes on religious freedom or is applied unfairly 
and inconsistently. In that regard, it is important that the Russian 
Government build on early efforts by President Putin, who has made a 
commendable effort to reach out publicly to Russian Jews, an effort 
that must be directed at all segments of the Jewish community. It also 
strikes me as critically important that he and the Russian Government 
show a commitment to investigate and prosecute those responsible for 
anti-Semitic acts, and attacks on other minority religions.

                            NATO ENLARGEMENT

    Question 1. How do you prioritize NATO enlargement in the agenda 
you intend to bring to the Euro-Atlantic relationship?

    Answer. President Bush and I attach high priority to the further 
enlargement of NATO. We see NATO's enlargement as useful in creating a 
more stable environment in which we can build with our partners a 
peaceful, undivided, and democratic Europe. Stability in Europe is a 
key interest of the United States. We are committed to work with our 
NATO partners to ensure that the Membership Action Plan for the nine 
aspirants--Albania, Bulgaria, Estonia, Latvia, Lithuania, Macedonia, 
Romania, Slovakia, and Slovenia--is effective in advancing toward this 
goal.

    Question 2. Can you tell us today that you will urge our European 
allies to move the process of enlargement decisively forward at the 
Prague summit?

    Answer. I would rather review the progress made by the nine 
aspirant countries--Albania, Bulgaria, Estonia, Latvia, Lithuania, 
Macedonia, Romania, Slovakia, and Slovenia--before committing to a 
course for the Prague Summit. We want to be sure that any country 
invited to join the Alliance is committed to NATO's goals and capable 
of meeting the responsibilities that membership entails. This will be a 
matter requiring thorough consultation with the Alliance and with 
Congress.

    Question 3. Can you assure us that the same standards that were 
used to assess the applications for NATO membership submitted by 
Poland, the Czech Republic and Hungary will be used to assess those of 
the other Central European democracies seeking membership in the 
Alliance?

    Answer. The basis for adding new members to the Alliance is, as it 
has been, Article 10 of the Washington Treaty. The same standards that 
were used to assess the candidacies of the three newest members are in 
use now in assessing the nine aspirant countries. These standards are 
contained in the Membership Action Plan document agreed to by the 
Allies at the 1999 Washington Summit.

                     NATO/ESDP: POTENTIAL CONFLICT

    Question. Your statement provides a very optimistic outlook 
concerning the future of the evolving relationship between NATO and the 
EU. Do you see any potential for ESDP--the European Security and 
Defense Identity that the Europeans are constructing within the EU--to 
undercut Alliance cohesion and unity?

    Answer. I believe it is in America's interest to have a stronger 
and more capable Europe that can bear more of the burden of responding 
to localized crises in the future. ESDP/ESDI can contribute to this 
more balanced trans-Atlantic partnership, thus strengthening rather 
than weakening the Alliance.
    The devil is always in the details, of course, and it will be 
important that we and our Allies consult closely as Europe's Security 
and Defense Identity takes shape. But, as long as NATO and the EU 
continue to share a common vision of the indivisibility of our security 
interests, I believe we can work this out in a manner consistent with 
these interests.

            NATO/ESDP: EUROPEAN RESPONSIBILITY FOR COHESION

    Question. What do Europeans need to do to ensure that ESDP--the 
European Security and Defense Identity that they are constructing 
within the EU--will in the end reinforce, as opposed to undercut, the 
Alliance's cohesion?

    Answer. NATO must remain the principal forum for political and 
military cooperation on trans-Atlantic security. Moreover, NATO and EU 
efforts must reinforce each other with close and frequent contacts to 
ensure transparency and to avoid duplication. Our European Allies and 
partners also must improve their defense capabilities.

                            RUSSIA: CHECHNYA

    Question 1. How will the Bush administration's policy toward the 
war in Chechnya differ from that of its predecessor, the Clinton 
administration?

    Answer. The conflict in Chechnya is a stalemate, and it has led to 
a humanitarian tragedy in which the civilian population has suffered 
through the destruction of its homes and a lack of food, water and 
medicine. There are repeated, credible reports that Russian forces have 
committed summary executions, arbitrary detentions, torture and other 
humanitarian and human rights violations. It is not entirely clear 
whether the extraordinary lack of discipline in Russian units is part 
of a policy, or is only tolerated or simply represents a lack of 
command and control over units in Chechnya. What is clear is that the 
Russian Government has not taken significant steps to hold those 
responsible accountable for these actions.
    Peace and stability in the North Caucasus cannot be imposed through 
continued fighting. The conflict in Chechnya can only be ended by a 
political settlement between the Russian Government and the Chechens. 
The Bush Administration will insist that Russia take the necessary 
steps to investigate and prosecute those responsible for human rights 
and humanitarian violations, in keeping with its international 
commitments and obligations. To alleviate the suffering of civilians, 
Russia and the Chechen separatists must allow the greatest possible 
access to humanitarian workers. Kidnappings must be prevented, with all 
parties offering assurances for the security of humanitarian aid 
workers. The international community must remain engaged and use its 
influence to create the conditions that lead to a settlement and hold 
Russia accountable for human rights violations. We and our partners 
also will urge Moscow to address the socio-economic roots of the 
conflict to forestall any resurgence in the cycle of violence.

    Question 2. What steps should be taken by the U.S. Government to 
more effectively pressure the Kremlin to cease its military operations 
in Chechnya, to end its atrocities against the Chechen people and 
undertake negotiations with the Chechen resistance toward a just and 
enduring peace?

    Answer. We need to make clear to Russia that its actions in 
Chechnya are not compatible with its desire to become a part of an 
international community that shares a commitment to liberal democracy 
and civil society. Our friends and allies must join us in conveying 
this message.
    The OSCE Assistance Group, which was established following the 
first Chechen war, has a role to play in monitoring the human rights 
situation and in facilitating humanitarian assistance in Chechnya. 
Russia committed in 1999 to allow the group to return, but has yet to 
fulfill this promise. We will urge our OSCE partners to join us in 
working for the group's return.
    The upcoming session of the UN Commission on Human Rights will be 
an opportunity for the international community to review Russia's human 
rights record in Chechnya and to demand that Moscow explain its failure 
to heed the UN Commission's call for a national, independent commission 
of inquiry to investigate alleged breaches of international 
humanitarian and human rights law, and for access to Chechnya by UN 
special rapporteurs.

        RUSSIA/GEORGIA: RUSSIAN INTIMIDATION AND U.S. INTERESTS

    Question. Over the last two months, Russian President Putin 
significantly increased his government's efforts to intimidate Georgia. 
The Russian Government has encouraged the secessionist movements in 
Georgia, repeatedly turned off Georgia's energy supplies, and 
menacingly accused Tblisi of supporting the Chechen resistance. How do 
these developments affect U.S. interests?

    Answer:. The Bush Administration will continue U.S. policy of 
strongly supporting Georgia's sovereignty and territorial integrity. An 
independent, stable, prosperous Georgia that respects human rights and 
democratic freedoms is in the interest of the Georgian people; these 
qualities also can make Georgia a stable anchor at an important geo-
strategic crossroad. We will support Georgia's efforts to become a 
reliable regional partner, firmly integrated into Euro-Atlantic 
institutions. We also support Georgia's participation in the 
development of an east-west energy transit corridor in order to improve 
the energy independence of the countries of the Caspian region and to 
diversify world energy supplies.
    We are concerned at recent Russian pressure tactics that appear 
designed to undermine Georgia's stability and independence, and to 
impede Georgia's ability to integrate itself into international 
security and economic structures. These tactics could, if not checked, 
adversely affect the U.S. interests I have cited above. Moreover, our 
ability to move forward in building a more productive relationship with 
Russia is influenced to a great extent by progress we see Russia making 
in developing relations with its own neighbors that are based on 
respect for sovereignty, independence and mutual self-interest, free 
from pressure or coercion. Russia's campaign of pressure raises 
legitimate doubts about the kind of relationship with Georgia it 
desires.

                        RUSSIA-IRAN: ARMS SALES

    Question. Russia has developed an extensive and troubling 
relationship with Iran, one that has featured the sale of submarines, 
missiles, tanks and other sophisticated military equipment. It now 
appears that these arms sales from Russia to Iran will continue to 
grow. Do you believe that these Russian arms sales to Iran should 
trigger restrictions upon Russia as defined by the Gore-McCain Act?

    Answer. The transfers of military equipment from Russia to Iran 
since 1995 about which I have been briefed do not appear to meet the 
statutory criteria for imposing sanctions under the Gore-McCain 
legislation. However, Russia continues to transfer arms to Iran and may 
yet enter into new arms contracts. The Bush Administration will 
continue to register opposition to such sales at senior levels. Further 
transfers of arms to Iran could trigger sanctions under various 
statutes, including the Gore-McCain legislation, or under discretionary 
sanctions. Such transfers would require a thorough review before making 
any such sanctions determinations. I plan to take up the issue of 
conventional arms transfers to Iran with my Russian counterpart when we 
meet.

                   NORTHERN IRELAND: TERRORIST GROUPS

    Question. The major paramilitary groups (the Irish Republican Army 
and the Combined Loyalist Military Command) are observing cease-fires, 
but some splinter groups continue to carry out acts of violence and 
terrorism and are a consistent threat in Northern Ireland. The Real IRA 
claimed responsibility for the single worst terrorist incident in 
Northern Ireland's history in Omagh in August 1998. Should the United 
States designate these splinter groups as terrorist organizations?

    Answer. The Department of State is reviewing various splinter 
groups from Northern Ireland to determine if they meet the criteria for 
designation as Foreign Terrorist Organizations (``FTC's'') pursuant to 
the 1996 Antiterrorism and Effective Death Penalty Act. Although these 
splinter groups are not designated as FTC's at this time, their violent 
activities have been described at length in the Department's annual 
terrorism report. U.S. law enforcement agencies aggressively target any 
illegal activities by these groups on U.S. soil that could undermine 
the Northern Ireland peace process. Clearly, British and Irish concerns 
about the activities of the ``Real IRA,'' in particular, are well 
founded. We will remain in close consultation with the two governments 
on this matter.

                     INTERNATIONAL AFFAIRS FUNDING

    Question 1. Do you believe that the current level of funding for 
international programming is adequate (about one penny of every dollar) 
and, if not, what do you believe are the necessary resources needed to 
maintain our diplomatic readiness and to provide critical assistance to 
our allies?

    Answer. The current level of international affairs funding is not 
adequate. We need a step increase in international affairs resources.
    As soon as I have put together the specific programs and the dollar 
details to support these programs, and once I have the President's 
approval, I will take my case to Congress to secure the increase 
necessary to ensure that the State Department has sufficient resources 
to do the job.

    Question 2. What might you do to help increase the funding levels? 
What might you do to educate the American people about the importance 
of our diplomatic operations to our national security and economic 
prosperity?

    Answer. We have to do a better job making sure the American public 
knows that the State Department and the Department of Defense form a 
team that is vital to protecting our national interests around the 
world. And like DOD, we need to be appropriately funded.
    That is the message I will work to get out.

                       SALES OF FIGHTERS TO KOREA

    Question. The State Department, along with the Department of 
Defense, has already put their full support behind the Boeing F-15K in 
its competition to be the next Korean fighter jet. This sale is 
important to the U.S. national security interests as it will reinforce 
our ties with South Korea and will help to keep the F-15 line open.
    Can you assure me that under your leadership the Department of 
State will continue to support this important initiative?

    Answer. Yes. We believe it is in the United States' interest to 
continue to support this initiative.
    The selection of the F-15K by Korea's Government would promote the 
interoperability between Korean and U.S. Armed Forces and complement 
the U.S. force structure currently deployed in the Pacific.
    A Korean decision to team with U.S. industry on this project would 
strengthen the already close security and commercial relations we have 
enjoyed for over 50 years.

                    ISRAEL: U.S. SUPPORT FOR ISRAEL

    Question. Can you assure us that the fundamental premise of strong 
support for the state of Israel will be the cornerstone of the Bush 
administration's policy toward the Middle East?

    Answer. The Bush administration's commitment to the State of Israel 
is unequivocal. It is based on shared democratic values, bonds of 
friendship, common interests, and joint cooperation in many areas.
    The United States has an unshakable commitment to Israel's security 
and well-being and to Israel's qualitative military edge over any 
likely combination of adversaries. This has been the position of 
successive U.S. administrations and will continue under President Bush.

               ISRAEL: NEGOTIATIONS WITH THE PALESTINIANS

    Question. Would you agree that the Government of Israel has made 
dramatic concessions to the Palestinians in its quest for a Middle East 
peace?

    Answer. Both sides have assured us they remain committed to seeking 
a negotiated permanent status agreement. While refusing to compromise 
his government's red lines, or his view of Israel's security needs, 
Prime Minister Barak has been willing to propose and consider 
imaginative solutions to bridge the remaining differences between the 
parties.

                      ISRAEL: PALESTINIAN ACTIONS

    Question. Would you also agree that the Palestinians have not 
responded to those concessions at the negotiating table and instead, in 
direct violation of their Oslo commitments, have resorted to violence 
in order to achieve maximal gains?

    Answer. The United States remains deeply concerned by the ongoing 
violence in the West Bank and Gaza. Such violence is incompatible with 
efforts to reach a negotiated solution to the differences between the 
parties. The Bush Administration will continue to encourage both sides 
to implement their commitment to take action to bring the violence 
under control. In the negotiations the Palestinians have responded in 
substantive ways to the proposals that have been put on the table. 
Clearly, those responses have not been sufficient to close the gaps 
between the sides.

        ISRAEL: U.S. ROLE IN THE ISRAEL/PALESTINIAN NEGOTIATIONS

    Question. Do you think it is possible to conduct negotiations if 
one side is either uninterested or incapable of compromise? Do you 
believe the United States can impose a settlement on the parties? Isn't 
now a good time to step back and reassess the Middle East peace process 
and the U.S. role in that process? Do you have any thoughts on what can 
be done to ensure that the Palestinians live up to the promises they 
made at Oslo, especially relating to ending incitement and the 
renunciation of violence?

    Answer. A just, lasting, and comprehensive peace in the Middle East 
has been a long-standing bipartisan objective of the United States. To 
last, an agreement cannot be imposed by the United States or any other 
outside party. Rather, an agreement must be reached by the parties 
themselves. The Bush Administration will be prepared to support the 
parties in their efforts to achieve this objective.

                      ISRAEL: SPECIAL RELATIONSHIP

    Question. Would you agree that the U.S. and Israel have a special 
relationship and that the U.S. is unshakably committed to Israel's 
security? Hasn't that relationship been vital to Israel's survival and 
been a reason why the U.S. is the key outside player in the peace 
process? Doesn't a perception of U.S. ``evenhandedness'' hurt the 
process and weaken Israel?

    Answer. The United States and Israel have a unique bilateral 
relationship based on shared democratic values, bonds of friendship, 
common interests, and joint cooperation in many areas. The U.S. has an 
unshakable commitment to Israel's security and well-being and to 
Israel's qualitative military edge over any likely combination of 
adversaries.
    The United States is uniquely positioned to play a central role in 
the Israel-Palestinian negotiations--as requested by the parties--
precisely because of its relationships with both Israel and the 
Palestinians.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                             Paul Wellstone

                   TRAFFICKING IN WOMEN AND CHILDREN

    Question 1. As Secretary, will you commit that you will personally 
engage on the issue of trafficking internationally and within the U.S. 
Government to ensure that this human rights abuse is taken seriously 
and vigorously pursued?

    Answer. I am committed to engaging on this issue and will continue 
the United States Government's efforts to combat this serious human 
rights abuse. I appreciate you personal commitment on the issue, and 
that of many of your colleagues. Trafficking of persons is one of the 
most current challenges to human rights. I assure you that the 
Department will continue to work with other agencies to implement the 
Victims of Trafficking and Violence Protection Act of 2000.

    Question 2. Questions have arisen regarding where the Office on 
Trafficking authorized by the act will be placed. Will you establish an 
office within the Department that reports to you or to a very senior 
official in order to manage the crosscutting issues (human rights, 
refugees and migration, and law enforcement) within the Department and 
with the broader interagency questions?

    Answer. I am still reviewing a number of issues related to the 
Department's organization, including this one. Once we have reached a 
decision, we will inform the Congress.

    Question. 3. In addition to ensuring that this problem gets 
significant resources within the Department, will you actively work to 
help identify resources in other agencies so that victims in the United 
States that are freed from these terrible practices get the assistance 
and protection they need, not just as a humanitarian gesture, but to 
encourage them to come forward and break up these trafficking rings?

    Answer. We will work closely with other agencies to identify the 
necessary resources to protect victims and help them testify against 
their traffickers. Inter-agency meetings to discuss implementation of 
the provisions of the new trafficking law will be useful in this 
regard.

              CHINA: COMMISSION ON HUMAN RIGHTS RESOLUTION

    Question. This spring, the United Nations Human Rights Commission 
will meet in Geneva. Given the continuing human rights abuses by the 
Government in Beijing, would you recommend that the United States 
sponsor a resolution condemning China's human rights practices? If not, 
how else should the United States put pressure on the Chinese to 
improve its human rights record? I would also like to express my 
concern about a particular human rights case, one of many that concern 
me. Ngawang Choephel, a former Fulbright student at Middlebury College 
in Vermont, was arrested during a trip to Tibet to record traditional 
Tibetan song and dance. He was given an unprecedented 18-year sentence 
for espionage. The Clinton administration has highlighted Ngawang's 
case and pushed hard to secure a visit to him from his mother, whom I 
have come to know and respect. How would you advance the case of 
Ngawang and others like him who are unjustly imprisoned in China?

    Answer. On the question of a UNHCR resolution on China, the 
Administration will soon have the issue under advisement. Human rights 
issues are a core part of our relationship with China, and the Bush 
Administration will press the Chinese Government to meet its 
international obligations to respect fundamental human rights.
    I appreciate your raising the case of Ngawang Choephel. Clearly, we 
should seek his release and the release of others imprisoned for 
exercising internationally recognized rights of peaceful expression, 
association, or assembly. This will be part of our dialogue with the 
Chinese Government.

                   HUMAN RIGHTS: FOREIGN POLICY GOAL

    Question. Do you believe that supporting human rights abroad 
improves the ability of the U.S. to achieve other foreign policy goals, 
such as promoting trade and fighting drugs and terrorism or do you 
believe that these goals are in competition with each other?

    Answer. Human rights and democracy promotion will be important 
components in our efforts to address a wide range of global problems of 
the 21st century. Indeed, democratic governments that ensure high 
standards of human rights protection are our best partners in closer 
cooperation on a wide range of potential problems.
    These core values will remain key elements of our bilateral and 
multilateral diplomacy.

                           DRL BUREAU FUNDING

    Question. At the present time, the Bureau of Democracy, Human 
Rights and Labor receives approximately $12 million in annual funding--
about one-third of one percent of the total State Department budget. Do 
you believe that additional funding would improve the Bureau's ability 
to fulfill its mission, including fulfilling the many congressionally 
mandated responsibilities, such as the new report on religious 
persecution? Will you seek additional resources for the Department of 
State and the Bureau of Democracy, Human Rights and Labor?

    Answer. The Department's funding is insufficient for the many 
problems it is called to address. I have already said in my testimony 
to the committee that I will seek enhanced funding for the Department 
of State. Once I complete my review of the Department's funding needs 
and discuss this with the President, we will provide you with a better 
sense of our resource needs.

                 UNITED NATIONS POPULATION FUND (UNFPA)

    Question. The United Nations Population Fund (UNFPA) is the world's 
largest organization providing family planning services and maternal 
and child health care. It works to improve access to and the quality of 
voluntary family planning services in approximately 150 countries in 
the poorest regions of the world. The United States has been 
inconsistent in its support of UNFPA, but recently Congress and the 
Administration reinstated funding for UNFPA for FY-2000 and for FY-
2001. Will you work with the Senate to ensure that sufficient funding 
continues for this vital health organization?

    Answer. We recognize that UNFPA does invaluable work through its 
programs in maternal and child health care, voluntary family planning, 
screening for reproductive tract cancers, breast-feeding promotion, and 
HIV/AIDS prevention. Its multilateral activities also can complement 
our important bilateral population assistance efforts. We look forward 
to working with you and your colleagues to secure the funding necessary 
for UNFPA to continue these activities. We will also work closely with 
the Congress on other areas of concern, including oversight of UNFPA's 
program in China.

                        COLOMBIA: CERTIFICATION

    Question. What are your views on the human rights conditions 
established by the Plan Colombia assistance legislation? As Secretary 
of State, would you recommend a waiver of these requirements if they 
had not been met? If the conditions are waived, what other pressures 
could be brought to bear on the Colombian military to promote greater 
compliance with human rights standards.

    Answer. Rather than look back at decisions taken by the previous 
Administration, let me assure you that the Bush Administration is 
committed to the comprehensive goals of ``Plan Colombia,'' all of which 
are important to the health of that country and the region. Human 
rights are, in that regard, an important component of President 
Pastrana's efforts, as they will be of our policy toward Colombia. I 
understand that the Government of Colombia is making concrete progress 
in improving human rights in Colombia, but that more work continue is 
needed before the government can satisfy all the statutory conditions 
contained in the Colombia supplemental legislation.
    I can assure you that progress toward meeting the requirements of 
the supplemental legislation will be important to our bilateral 
relationship with Colombia. We remain committed to working with that 
government to improve the human rights environment. Our assistance to 
Colombia's military and police forces will remain in strict accordance 
with Section 563 of the FY 2001 Foreign Operations, Export Financing 
and Related Programs Appropriations Act (P.L. 106-429). Indeed, this 
provision and the conditions on assistance in the Emergency 
Supplemental Act have served as an incentive for the GoC and military 
to deal with credible allegations of gross human rights violations in 
security force units.
    Clearly, our assistance package is needed to sustain Colombia's 
counternarcotics efforts, help Colombia's Government and people 
preserve Colombia's democracy, and help meet Colombia's many 
humanitarian challenges. It is also in the national security interest 
of the U.S. to promote economic reform and hemispheric stability, all 
of which are addressed by our support for Colombia. Continued 
engagement is, in that regard, important.

   COLOMBIA: PRIVATE CONTRACTOR ASSISTANCE TO THE COLOMBIAN MILITARY

    Question. What assistance is currently being provided to the 
Colombian military through private contractors? Under the Bush 
administration, what role do you see for private contractors in 
providing assistance to the Colombian military?

    Answer. I understand that Dyncorps, with Department of State 
funding, has U.S. and third-country civilian contractors supporting the 
UH-1N helicopter project with the Colombian Army in order to provide 
aeromobility to the counternarcotics brigade. A number of other U.S. 
private companies provide services to the Colombian military with 
Department of Defense funding. These private contractors are engaged in 
programs including design, contract and oversight services for 
infrastructure projects to support the UH-1N, Huey-II, and UH-60 
helicopters being provided Colombia by the U.S. Contractor assistance 
is also being given for ground radar support. One company, Military 
Personnel Resources Inc. (MPRI) is assisting Colombia in restructuring 
its military to become a more modern, professional force and to 
successfully engage the drug threat throughout the country.
    Private contractors can make an important contribution to U.S. and 
Colombian programs to professionalize and strengthen key Colombian 
institutions and we anticipate that civilian contractors will continue 
to play a useful role in the months to come.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                            Russell Feingold

                      SIERRA LEONE/LIBERIA/GUINEA

    Question. Overall, events in the West African countries of Sierra 
Leone and Liberia seem to suggest a new trend in strong-man politics 
whereby violent regimes hold entire populations hostage in order to win 
concessions, and even the guise of legitimacy, from the international 
community, all the while commandeering natural resources and using 
illicit trading networks to finance their regimes. Many observers are 
concerned about Guinea's vulnerability to similar forces. Given the 
fact that the U.S. cannot and should not intervene everywhere, how can 
we avoid being manipulated by the kind of hostage-taking tactics that 
we have seen in West Africa, and how can we prevent other countries 
from falling victim to this criminal brand of politics?

    Answer. The best response to ``strong-man'' politics, hostage 
taking, and other forms of the ``criminal brand of politics'' is 
mobilizing a strong international reaction against those who practice 
such policies. Concerted multilateral action is always more effective 
than unilateral responses. Outlaw regimes that are stigmatized, 
sanctioned, or subjected to armed intervention under UN auspices 
usually find it hard to withstand such sustained pressure over the 
longer run. At a minimum, such regimes are generally forced to modify 
their objectionable behavior.
    The problem is the international community is often unable or 
unwilling to mount the kind of sustained pressure needed to change the 
behavior of ``strong-man'' regimes. In this sense, our first and best 
response to containing outlaw regimes is vigorous U.S. diplomacy. This 
is the approach we have taken in Guinea, for example, where it is clear 
that recent violence affecting hundreds of thousands of civilians and 
refugees is largely due to Liberian President Charles Taylor. We are 
working to isolate Taylor internationally and to impose sanctions on 
his regime. We are supplying assistance to Guinea, including limited 
military aid, and are urging other concerned states to do likewise.

SIERRA LEONE: TRAINING WEST AFRICAN TROOPS FOR THE UNITED NATIONS FORCE 
                            IN SIERRA LEONE

    Question. The U.S. is currently training West African troops slated 
to join the United Nations force in Sierra Leone. Do you support this 
initiative? If so, what about the fact that these troops are likely to 
see very ugly combat? The RUF has proven its willingness to test 
international resolve time and again. However, there are lines that 
should not be crossed, even in serious combat situations, and Nigerian 
troops do not have a strong foreign service. Do you agree that the U.S. 
needs to monitor the human rights performance of the troops we train?

    Answer. We support the initiative to train and equip West African 
troops to join the United Nations force (UNAMSIL) in Sierra Leone. We 
also agree that troops in combat, no matter what the provocation, must 
adhere to internationally-accepted standards of conduct. Therefore, I 
am committed to continue the longstanding policy of monitoring the 
human rights performance of the troops we train. This process must 
start even before training begins; when units are vetted for human 
rights violations under the ``Leahy amendment'' requirements. The 
UNAMSIL equip and train program includes a teaching module on human 
rights. Once U.S.-trained forces are deployed in Sierra Leone, they 
will be monitored by UNAMSIL's human rights unit staffed by the United 
Nations Human Rights Commission, as well as by the U.K.-staffed unit in 
the Sierra Leone Ministry of Defense. The U.S. Embassy in Freetown will 
also monitor the troops' performance, including through contacts with 
human rights non-governmental organizations in the field. We will 
monitor reports that relate to the performance of all UNAMSIL troops, 
but especially those we have trained.
    I should add that, on a bilateral basis, USAID has funded a program 
to re-establish effective civilian oversight of the Nigerian Armed 
Forces and to ``reprofessionalize'' the Nigerian military. We are now 
in the preliminary stages of implementing that plan with the Nigerian 
Ministry of Defense.

                NIGERIA: POLICY STRATEGY AND DEBT RELIEF

    Question. I know that you are quite knowledgeable about Nigeria, 
and virtually all observers agree that the success or failure of the 
current Nigerian experiment in democracy is critical to the future of 
West Africa and to the continent as a whole. What will be the most 
important elements of your strategy for bolstering Nigeria without 
making the mistake of personalizing U.S. support? Where do you stand on 
the issue of debt relief for Nigeria?

    Answer. Our essential objective will be to help Nigeria strengthen 
and rebuild institutions, policies and practices key to a vibrant 
democracy and dynamic economic growth. President Obasanjo commands 
tremendous respect and the Nigerian Presidency has a powerful 
institutional role. The Presidency is only one element of the Nigerian 
government and society, however, and it must work constructively with 
other elements, both public and private. Those elements include the 
National Assembly, state and local governments, the judiciary, and 
perhaps most importantly, the private sector and civil society. Through 
our bilateral assistance and our dialogue, we will continue to urge 
cooperative, effective participation by all Nigerian institutions in 
the consolidation of Nigeria's fragile democracy.
    On debt relief, I understand that the U.S. holds little of 
Nigeria's total debt. The U.S. participated in negotiations to 
reschedule Nigeria's debt at the Paris Club last December, entry into 
force of the agreement reached at that time is conditioned on Nigeria's 
continued adherence to its IMF program. The Bush Administration will 
continue to emphasize that Nigeria needs to establish a track record of 
reform under its Standby Arrangement with the IMF. Our future policy, 
including consideration of deeper debt relief, will depend in part upon 
Nigeria's reaching agreement with the IMF on a follow-on Standby 
Arrangement this summer. I also believe we should closely monitor 
performance in such key areas as macro-economic policy, privatization, 
tackling corruption, increasing fiscal transparency, and establishment 
of an environment that provides incentives for investors, both foreign 
and domestic.

                      ANGOLA: BILATERAL RELATIONS

    Question. The U.S. had taken a firm stand against the activities of 
UNITA in Angola, and I support that position wholeheartedly. But I 
worry that it sometimes translates into unquestioning acceptance of the 
government in Luanda. Obviously the U.S. has important interests at 
stake in Angola, which is all the more reason to seriously review our 
policy. Will the administration take meaningful steps to push the 
Angolan Government to address issues surrounding human rights, the 
rampant corruption that characterizes that regime, and the dismal 
living conditions of the average Angola citizen?

    Answer. Yes. Human rights, anti-corruption efforts and bettering 
the lives of the Angolan people are key matters that the Bush 
Administration will pursue in our discussions with the government, 
opposition forces and civil society. There have been some positive 
steps, including: the start of an IMF-mandated analysis of current oil 
accounts, creation of an anti-corruption tribunal, increased (albeit 
still inadequate) social spending and establishment of a ``Fund for 
Peace and National Reconciliation'' to help reintegrate back into 
society those who abandon arms. These efforts must be pursued 
consistently in our dialog with the Angolan Government.

                DRC: IMPLEMENTATION OF LUSAKA AGREEMENT

    Question. The conflict in the DRC seems to grow more costly, and 
the outlook for the Lusaka Accord more uncertain, each day. Can you 
outline your strategy for getting the accord back on track?

    Answer. The death of President Kabila provides an opportunity to 
break the stalemate in the peace process. All parties need to avoid 
military action and to engage in a dialog to revive the Lusaka process. 
We are supporting the UN Secretary General's Special Representative's 
efforts to arrange a ministerial-level meeting of the parties in the 
region and again at the UN on February 20. African leaders are 
discussing a regional heads of state meeting. We will work with Morjane 
and these African leaders to design a series of recommendations for 
advancing the peace process.

                       HIV/AIDS CRISIS IN AFRICA

    Question. Clearly, prevention is the most important element to a 
strategy for fighting AIDS, but questions concerning the treatment 
cannot be ignored. What will the Bush administration do to help African 
countries most affected by the AIDS crisis to gain access to drugs that 
treat HIV/AIDS? Can you assure me that this element of our country's 
response will not simply be contracted out to private pharmaceutical 
companies, but will in fact be a policy coordinated within the 
government, reflecting the multitude of U.S. interests and our national 
values rather than only the interests of a specific industry.

    Answer. The Bush Administration recognizes that access to 
affordable pharmaceuticals is a critical issue in Africa and throughout 
the developing world. I can assure you that we will work with other USG 
agencies, our G-8 partners, developing nations, civil society and the 
pharmaceutical companies to strengthen Africa's public health 
infrastructure and enhance access to affordable treatments, including 
generic drugs to treat opportunistic infections associated with HIV/
AIDS and to prolong and enhance the quality of life for persons living 
with HIV/AIDS.

            BALKANS: USE OF FORCE AND WAR POWERS RESOLUTION

    Question. I was deeply concerned by the failure of the executive 
branch to appropriately consult with Congress regarding the commitment 
of U.S. military forces in the Balkans. What are your views regarding 
the War Powers Act? Would you agree that, except in special cases, such 
as emergency circumstances requiring the United States to act in its 
own self-defense, the decision to authorize U.S. troops to use force 
abroad is one that should be made openly with Congress and with an 
opportunity for public debate?

    Answer. Decisions regarding the deployment of U.S. forces into 
actual or imminent hostilities are the most important that any 
President must make, and congressional and public support for such 
decisions is essential. While every Administration since enactment of 
the War Powers Resolution has expressed concerns about the 
constitutionality and wisdom of various aspects of the resolution, as 
Secretary of State, I will be committed to working closely with the 
Congress to ensure that its views are taken into account on such 
matters.

                               LANDMINES

    Question. General Powell, I know that you are as aware as anyone of 
the dangers landmines pose to our troops, as well as to innocent 
civilians. Two years ago, President Clinton and the Pentagon pledged to 
search aggressively for alternatives so we can join the 139 other 
nations, including our NATO allies, who have signed the treaty banning 
landmines. (101 nations have already ratified.) As Secretary of State 
and former Chairman of the Joint Chiefs of Staff, you are in a unique 
position to ensure that this policy achieves its goal, at the earliest 
possible date. Will you continue to strongly support this policy, so 
the United States can both ensure the safety of our troops, and set an 
example for other countries on an issue of such humanitarian 
importance?

    Answer. I can assure you that the Bush Administration will remain 
strongly committed to ending the humanitarian crisis posed by anti-
personnel land mines. I can also assure you that we will remain equally 
committed to protecting our soldiers sent to defend the freedom of 
others. As you might expect from my background, this is something about 
which I feel strongly personally.
    The previous Administration did not sign the Ottawa Convention 
because of its concerns for the safety and security of our men and 
women in uniform and the unique responsibilities we have around the 
world for the security of friends and allies. It did establish a kind 
of ``roadmap'' that could lead to signing the treaty, and committed a 
sizable amount of funding to a search for alternatives to certain anti-
personnel land mines on which our armed forces rely in certain 
circumstances.
    After we review the progress that has been made in this important 
effort, we will be pleased to discuss this issue further with the 
Congress.

                    INDONESIA: ENCOURAGING REFORMERS

    Question. How can the U.S. encourage the reformers within Indonesia 
to deal with regional and communal violence in Aceh, Irian Jaya, and 
the Moluccan Islands in a way that strengthens democratization and 
civilian institutions?

    Answer. It is important that the United States remain engaged in a 
dialog with the Indonesian Government, urging that it address 
legitimate local grievances with comprehensive political and economic 
solutions, rather than through repression.
    U.S. assistance can, in this context, play a role in developing 
civil society and democracy, and in strengthening both the rule of law 
and civilian control over the military. We can continue to work with 
locally based NGOs on good governance, human rights and conflict 
prevention and resolution. We should also coordinate our aid with the 
international community to ensure the most leverage for our assistance.

              ISRAEL: PALESTINIAN DECLARATION OF STATEHOOD

    Question. What response would you recommend if the Palestinians 
made a unilateral declaration of statehood?

    Answer. We are opposed to unilateral actions by either side which 
are inconsistent with their commitment to resolve their differences 
through peaceful negotiations.

            LIBERIA: PRESIDENT TAYLOR SEEN AS WAR CRIMINAL?

    Question. In the eyes of the Bush administration, is President 
Charles Taylor of Liberia a war criminal?

    Answer. For several years, President Taylor has actively supported 
the Revolutionary United Front (RUF), one of the most vicious rebel 
groups of recent years, disrupting stability and peace in neighboring 
states, particularly Sierra Leone and Guinea. The December 2000 UN 
Experts Panel report to the UN Sierra Leone Sanctions Committee 
provided unequivocal and overwhelming evidence of these activities. Our 
policy is to ensure that Charles Taylor and the Government of Liberia 
cease supporting the RUF. To that end, we are pressing ahead with a 
resolution in the UN Security Council imposing multilateral sanctions 
on Liberia until such activities cease. We are committed to deterring 
any activities that are inconsistent with our goal of peace and 
stability for Sierra Leone and the region, and to holding accountable 
those responsible for any such activities.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                             Barbara Boxer

 CONVENTION ON THE ELIMINATION OF ALL FORMS OF DISCRIMINATION AGAINST 
                             WOMEN (CEDAW)

    Question. I think that the Convention on the Elimination of All 
Forms of Discrimination Against Women is a powerful tool that would 
assist you, as Secretary of State, in pushing other nations to grant 
equal rights for women. After reviewing this treaty and the work the 
Senate Foreign Relations Committee did in 1994 when it favorably 
reported this treaty by a vote of 13-5, please tell me if you believe 
that the U.S. should join 166 nations and ratify this treaty. If not, 
what specific provisions of the treaty do you oppose?

    Answer. The U.S. is committed to promoting and protecting women's 
rights. Existing U.S. constitutional and statutory law provides broad 
and effective protections and remedies to protect women against gender-
based discrimination. At the time the Convention was submitted to the 
Committee in 1994, the Clinton Administration proposed a ratification 
package consisting of reservations, understandings, and declarations. 
The new Administration will review that package. In the course of this 
review, we would be glad to hear the views of the committee and its 
members on this treaty.

               SUPPORT FOR INTERNATIONAL FAMILY PLANNING

    Question. As you know, the United States has been a leader in a 
global effort to expand access to voluntary family planning to women 
and families in the developing world, and this has helped to reduce the 
rates of infant and maternal mortality. Yet the funding level remains 
about 30 percent lower than it was in 1995. How do you view family 
planning and reproductive health programs in the context of U.S. 
foreign assistance?

    Answer. We recognize the critical role that voluntary family 
planning plays in saving the lives and protecting the health of women 
and their children around the world. We also recognize the important 
linkages between women's social, economic and political status and 
development. The CIA's ``Global Trends 2015'' report predicts that the 
world's population will increase by another 1.2 billion people by 2015. 
Family planning services are key to sustainable population growth, 
critical to the lives and health of women and their families, and 
integral to combating the HIV/AIDS pandemic. As stated in the January 
22, 2001 White House statement, we remain committed to maintaining the 
$425 million funding level provided for in the FY 2001 appropriation, 
which is an increase from FY 2000.

            POSITION ON GLOBAL GAG RULE (MEXICO CITY POLICY)

    Question. Some Members of Congress have been trying to impose a set 
of restrictions on family planning aid known as the global gag rule--
which would deny U.S. assistance to any foreign nongovernmental 
organization that either provides legal abortions in its own country or 
which takes part in a public discussion about changes in abortion 
policy in its own country, with its own money. Can you please tell us 
what is your position on the global gag rule and will population aid 
remain an important priority during your tenure as Secretary of State?

    Answer. As stated in the January 22, 2001 White House statement, we 
support our government's long history of providing international health 
care services, including voluntary family planning, to couples around 
the world who want to make free and responsible decisions about the 
number and spacing of their children. We know that one of the best ways 
to prevent abortion is by providing quality voluntary family planning 
services; thus, we are committed to maintaining the FY 2001 
appropriation funding level of $425 million. We do not believe that our 
funds should go to foreign organizations that, even with their own 
funds, provide, advocate or actively promote abortion. Any restrictions 
related to this policy, however, should not limit organizations from 
providing post-abortion care.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                           Robert Torricelli

          TAIWAN: PARTICIPATION IN INTERNATIONAL ORGANIZATIONS

    Question. Will the Bush Administration support Taiwan's membership 
in the World Trade Organization (WTO) and observer status in the World 
Health Organization (WHO)? What concrete steps will the Administration 
take to promote Taiwan's participation in these organizations?

    Answer. The United States has actively promoted Taiwan's accession 
to the WTO, and the Bush Administration will continue to do so. The 
U.S. objective is a ``win-win'' outcome where both Taiwan and the PRC 
accede to the WTO on the merits of their accession agreements and at 
the same WTO General Council session. We believe this objective is 
achievable.
    On the WHO, we will continue to impress upon the WHO Secretariat 
the interest of the U.S. in finding appropriate ways for Taiwan to 
benefit from--as well as contribute to--the work of the WHO. On the 
question of observer status, a majority of the World Health Assembly 
would have to vote affirmatively to grant Taiwan observer status. 
Taiwan is far short of having the necessary votes and suffered a strong 
defeat when the issue last came to a vote in 1997. We will work with 
Taiwan to explore ways for its non-governmental organizations and 
medical community to participate in WHO activities through 
international nongovernmental organizations, such as the World Medical 
Association, which have relations with the WHO.
         taiwan: travel to the united states by senior leaders
    Question. Will the Bush Administration extend to officials of 
Taiwan who wish to travel to the United States the full courtesies and 
freedom of movement appropriate to officials of a democratic and 
friendly government?

    Answer. The United States has long granted transits for Taiwan's 
senior leaders for the safety, comfort and convenience of the traveler. 
We remain committed to this policy. During a transit, we expect the 
activities of the traveler will be private and consistent with the 
purposes of a transit. We do not consider public or media events, as 
well as meetings with public officials to be consistent with the nature 
of a private transit. Our approach on transits and visits is consistent 
with longstanding U.S. policy and practice, as well as with our 
unofficial relationship with Taiwan.
                                 ______
                                 

  Response to Additional Question for the Record Submitted by Senator 
                             Olympia Snowe

                      ENHANCING THE ROLE OF WOMEN

    Question. I would like for you to share with us your vision for the 
future of U.S. foreign policy with respect to the Percy Amendment as 
well as ways in which the U.S. can continue to play a leadership role 
in international fora to enhance women's economic, social and political 
status.

    Answer. Under my leadership, the State Department, working with 
USAID, will continue to support the basic tenet of the Percy Amendment 
to integrate concern for gender issues in international organizations. 
The U.S. has taken a leadership role in international fora on this 
issue through U.N. agencies and international meetings; in the OECD's 
Development Assistance Committee; and, by calling for attention to 
gender in World Bank programs. We also play a leadership role on other 
issues affecting women. We have increased our monitoring and reporting 
on trafficking in persons, which most often involves and affects women 
and girls, and are developing programs to address this human rights 
abuse. The Department also initiated a Women in Economics and Business 
``virtual team'' to increase our dialog on international issues 
affecting businesswomen's interests.


</pre></body></html>
